<html>
<title> - H.R. 3478, AND H.R. 745</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
                        H.R. 3478, AND H.R. 745

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON WATER AND POWER

                                 of the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             SECOND SESSION

                                   on

                               H.R. 3478

           THE COLORADO UTE SETTLEMENT ACT AMENDMENTS OF 1998

                                H.R. 745

 A BILL TO DEAUTHORIZE THE ANIMAS-LA PLATA FEDERAL RECLAMATION PROJECT

                               __________

                     JULY 28, 1998, WASHINGTON, DC

                               __________

                           Serial No. 105-103

                               __________

           Printed for the use of the Committee on Resources


                               <snowflake>

 Available via the World Wide Web: http://www.access.gpo.gov/congress/house
                                   or
           Committee address: http://www.house.gov/resources



                      U.S. GOVERNMENT PRINTING OFFICE
 50-754 CC                   WASHINGTON : 1998
------------------------------------------------------------------------------
                   For sale by the U.S. Government Printing Office
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402



                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                EDWARD J. MARKEY, Massachusetts
JIM SAXTON, New Jersey               NICK J. RAHALL II, West Virginia
ELTON GALLEGLY, California           BRUCE F. VENTO, Minnesota
JOHN J. DUNCAN, Jr., Tennessee       DALE E. KILDEE, Michigan
JOEL HEFLEY, Colorado                PETER A. DeFAZIO, Oregon
JOHN T. DOOLITTLE, California        ENI F.H. FALEOMAVAEGA, American 
WAYNE T. GILCHREST, Maryland             Samoa
KEN CALVERT, California              NEIL ABERCROMBIE, Hawaii
RICHARD W. POMBO, California         SOLOMON P. ORTIZ, Texas
BARBARA CUBIN, Wyoming               OWEN B. PICKETT, Virginia
HELEN CHENOWETH, Idaho               FRANK PALLONE, Jr., New Jersey
LINDA SMITH, Washington              CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         MAURICE D. HINCHEY, New York
WILLIAM M. (MAC) THORNBERRY, Texas   ROBERT A. UNDERWOOD, Guam
JOHN SHADEGG, Arizona                SAM FARR, California
JOHN E. ENSIGN, Nevada               PATRICK J. KENNEDY, Rhode Island
ROBERT F. SMITH, Oregon              ADAM SMITH, Washington
CHRIS CANNON, Utah                   WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   CHRIS JOHN, Louisiana
JOHN PETERSON, Pennsylvania          DONNA CHRISTIAN-GREEN, Virgin 
RICK HILL, Montana                       Islands
BOB SCHAFFER, Colorado               RON KIND, Wisconsin
JIM GIBBONS, Nevada                  LLOYD DOGGETT, Texas
MICHAEL D. CRAPO, Idaho

                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director
                                 ------                                

               Subcommittee on Water and Power Resources

                JOHN T. DOOLITTLE, California, Chairman
KEN CALVERT, California              PETER A. DeFAZIO, Oregon
RICHARD W. POMBO, California         GEORGE MILLER, California
HELEN CHENOWETH, Idaho               OWEN B. PICKETT, Virginia
LINDA SMITH, Washington              CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     SAM FARR, California
WILLIAM M. (MAC) THORNBERRY, Texas   ADAM SMITH, Washington
JOHN B. SHADEGG, Arizona             RON KIND, Wisconsin
JOHN E. ENSIGN, Nevada               LLOYD DOGGETT, Texas
ROBERT F. SMITH, Oregon              ---------- ----------
CHRIS CANNON, Utah                   ---------- ----------
MICHAEL D. CRAPO, Idaho
                  Robert Faber, Staff Director/Counsel
                   Joshua Johnson, Professional Staff
                      Steve Lanich, Minority Staff



                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held July 28, 1998.......................................     1

Statement of Members:
    DeFazio, Hon. Peter A., a Representative in Congress from the 
      State of Oregon............................................     6
        Prepared statement of....................................     6
    Doolittle, Hon. John T., a Representative in Congress from 
      the State of California....................................     1
    McInnis, Hon. Scott, a Representative in Congress from the 
      State of Colorado..........................................     2
        Prepared statement of....................................     4
    Petri, Hon. Thomas E., a Representative in Congress from the 
      State of Wisconsin.........................................     9
        Prepared statement of....................................    11
    Redmond, Hon. Bill, a Representative in Congress from the 
      State of New Mexico........................................     7
        Prepared statement of....................................     8

Statement of Witnesses:
    Arthur, George, Vice Chairman, Resources Committee, The 
      Navajo Nation Accounts.....................................    39
    Atcitty, Thomas E., President, the Navajo Nation, prepared 
      statement of...............................................    62
    Duncan, Mark, Chair, San Juan Water Commission, and Chairman 
      Pro Tem, San Juan County Commission, New Mexico............    41
        Prepared statement of....................................   120
    Frost, Clement, Chairman, Southern Ute Indian Tribe; 
      accompanied by Leonard C. Burch, Past President and Council 
      Member.....................................................    26
        Prepared statement of....................................    49
    Isgar, Jim, Member, The Animas-La Plata Water Conservancy 
      District...................................................    32
        Prepared statement of....................................    59
    Knight-Frank, Judy, Chairman, The Ute Mountain Ute Tribe.....    28
        Prepared statement of....................................    52
    Martinez, Eluid, Commissioner, Bureau of Reclamation, 
      Department of the Interior.................................    17
        Prepared statement of....................................    74
    Potter, Lori, Attorney, Kelly/Haglund/Garnsey/ & Kahn LLC, 
      Denver, Colorado...........................................    40
        Prepared statement of....................................   100
    Remington, Sage Douglas, Southern Ute Grassroots Organization    30
        Prepared statement of....................................    53
    Romer, Hon. Roy, Governor of the State of Colorado...........    12
    Turney, Thomas C., State Engineer, State of New Mexico.......    15
        Prepared statement of....................................    48
    Utton, Orion, President, Animas River Agricultural Water 
      Users Association, San Juan County, New Mexico.............    37
        Prepared statement of....................................    60

Additional material supplied:
    Blassingame, Charles, Board Member, La Plata Conservancy 
      District, La Plata, New Mexico, prepared statement of......    65
    Griswold, Richard K. (Mike), Board Member, The Animas-La 
      Plata Water Conservancy District, prepared statement of....    66
    Johnson, Hon. Gary E., Governor, State of New Mexico, 
      prepared statement of......................................    48
    Klapper, Gail H., Member-Director, Colorado Forum, prepared 
      statement of...............................................   136
    Kroeger, Fred V., President, Southwestern Water Conservation 
      District, prepared statement of............................    67
    Norton, Gale A., Attorney General, Colorado, prepared 
      statement of...............................................    63
    Pakootas, Joseph A., Chairman, Colville Business Council, 
      Confederated Tribes of the Colville Indian Reservation, 
      prepared statement of......................................    69
    Ute Mountain Ute Tribe, Southern Ute Indian Tribe, prepared 
      statement of...............................................   137

Communications submitted:
    ``Revised Animas-La Plata, A Report to the San Juan Water 
      Comission''................................................    84
        Res. 98-921, charts, etc.................................   130



  HEARING ON H.R. 3478, THE COLORADO UTE SETTLEMENT ACT AMENDMENTS OF 
 1998 AND H.R. 745, A BILL TO DEAUTHORIZE THE ANIMAS-LA PLATA FEDERAL 
                          RECLAMATION PROJECT

                              ----------                              


                         TUESDAY, JULY 28, 1998

                  House of Representatives,
                   Subcommittee on Water and Power,
                                    Committee on Resources,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:04 p.m., in 
room 1334, Longworth House Office Building, Hon. John T. 
Doolittle (chairman of the Subcommittee) presiding.

   STATEMENT OF HON. JOHN T. DOOLITTLE, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Doolittle. The Subcommittee on Water and Power will 
come to order.
    Today, the Subcommittee will hear from witnesses regarding 
the Animas-La Plata Federal Reclamation Project. As many of you 
are aware, in 1996, Colorado Governor Roy Romer and Lieutenant 
Governor Gail Schoettler began discussions with its supporters 
and opponents. The original authorized Animas-La Plata Project, 
H.R. 3478, introduced by Mr. McInnis is based upon those 
negotiations.
    This bill is a modified Animas-LaPlata Project that 
includes a 260,000-acre feet reservoir, a pumping plant, and 
inlet conduit. H.R. 745, offered by Ranking Minority Member Mr. 
DeFazio, would deauthorize the project. One major difference 
from the original authorized project is a change in the 
anticipated diversion of water from the Animas River. In 1996, 
the biological opinion was issued that determined that 
additional water would be needed to accommodate the 
environmental concerns in the Animas River. With this 
information, the change in the allowable depletion was 
negotiated and project beneficiaries agreed to reduce the 
annual water depletion to approximately 57,000 acre feet.
    Additionally, Mr. McInnis' bill addresses the construction 
of the selection of the original component of the project. It 
does not deauthorize any of the 1986 Animas-La Plata Project, 
as H.R. 745 does. It is anticipated that even if H.R. 3478 
became law and the reservoir pumping plant and inlet conduit 
are built, both Indian and non-Indian stakeholders will need 
additional financial assistance to complete the original 
authorized Animas-La Plata Project.
    Although the costs for the project have been reduced, this 
phased approach leaves open the question of where the money 
will come from for any future phase that may be needed to 
complete the original authorized project. Those future issues 
must be addressed for the project to deliver water to the 
majority of the intended beneficiaries. Other possibilities 
involving in the sale of water may affect those questions.
    While there is no question about the need to settle the 
Indian water rights issues and improve the water systems in the 
affected communities, it is essential to identify the 
appropriate funding mechanisms to resolve those problems. I'm 
looking forward today to hearing from our witnesses regarding 
their ideas and how to remedy these water supply issues, as 
well as how to most appropriately fund the construction of the 
entire authorized project or as such components are deemed 
essential. I'll also be interested in each party's view of what 
would happen after construction. Why the original plan 
shouldn't be followed and which compromises they see as 
critical.
    We'll recognize Mr. DeFazio for his comments when he 
arrives.
    I think in the interest of time, we'll begin with Mr. 
McInnis and Mr. Petri, who's just arriving. Then when Governor 
Romer--oh, he'll be on the first panel.
    Let me just say, because of the extraordinary situation we 
have today with the services for the slain officers, it is my 
intent to take the Members first on this panel. It's my 
understanding it'll be a quorum call near 2:30. We'll recess 
and go over for the memorial services. Those are expected to be 
about one-half hour, beginning at 3 p.m. Then we'll reconvene 
immediately following that. So it's anticipated, if they stick 
to schedule, we might be able to back here and reconvene by 
about 3:45 p.m. Otherwise, it will 4 o'clock.
    So, Mr. McInnis, we're pleased to have you here and 
recognize you for your testimony.

 STATEMENT OF HON. SCOTT McINNIS, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF COLORADO

    Mr. McInnis. Thank you, Mr. Chairman. Mr. Chairman, I might 
note that there have been comments that we need to settle the 
Indian water rights issue. I should bring to the attention of 
the Committee we have settled the Indian water rights issue on 
a number of occasions. But continually the United States 
Government--primarily through its elected bodies and some of 
the more radical environmental groups, in my opinion--have 
pulled the U.S. Government from the agreement that they've 
made. In other words, they have breached the settlement that 
was made.
    I do thank you and the members of the Subcommittee. I'll 
point out one other thing, Mr. Chairman. The poster that you 
see up here, that is the full Animas-La Plata Project. Working 
with the Lieutenant Governor and Governor of the State of 
Colorado--both Democrats--and coming up with some type of 
reduced or light Animas-La Plata, we came up with S.R. 1771. 
You'll see what S.R. 1771 contains that the full Animas-La 
Plata--or what's excluded from the full Animas-La Plata.
    I appreciated the opportunity to come over here today, Mr. 
Chairman, before the Committee on behalf of H.R. 3478, which is 
a bill to amend the Colorado Ute Water Rights Settlement Act to 
provide for a final distribution of the claims of the Colorado 
Ute Indian Tribes.
    I introduced this legislation on March 17, 1998. More 
importantly, I would like to commend you on your continued 
involvement on this issue, as we work to satisfy the terms of 
the Colorado Ute Water Rights Settlement Act. As you know 
today's hearing is the first crucial step that must be taken to 
ensure that the Federal Government does not fail once again to 
fulfill the commitment that they made to the Ute tribe. I, 
along with the State of Colorado, the Southern Ute Indian 
Tribe, the Ute Mountain Ute Indian Tribe, the Animas-La Plata 
Water Conservancy District, the Southwestern Water Conservation 
District will represent the Colorado component of the project 
and testify in support of this bill.
    Mr. Chairman, H.R. 3478 focuses on the three main 
requirements necessary to fulfill our Nation's obligations to 
the Ute Tribes. First, it calls for a storage reservoir to be 
built to hold the promised water. Second, the bill provides the 
conveyance needed to transport the water to the reservoir. 
Finally, the legislation would guarantee the Ute Tribe the 
water in that reservoir. These three items are the minimum 
needed to fulfill the obligation the United States has 
contractually made with the Ute Indian Tribe.
    This agreement was signed back in the sixties--the 1860's. 
The Treaty of 1868 promised the Ute Indian Tribes a permanent, 
reliable source of water. In 1988, another agreement, the 
Colorado Ute Indian Water Rights Settlement Act, reaffirmed 
those rights.
    I would note, Mr. Chairman, I was in the State legislature 
on the Agriculture Committee, chairman of the Agriculture 
Committee for a number of years, when we made that agreement. I 
should also note there was not one environmental group, not one 
outside party, who objected to that agreement; everyone agreed 
to it.
    Under H.R. 3478, the outstanding water rights on Animas-La 
Plata Rivers of the Ute Mountain Ute and the Southern Indian 
Tribes would be resolved by the construction of three 
facilities--the Durango pumping plant, the inlet conduit, and 
the Ridge Basin Reservoir. The facilities were approved by the 
United States Fish and Wildlife Service under the Endangered 
Species Act. Additionally, the tribes would receive 33,050 acre 
feet of the 57,100 acre feet depletion approved by Fish and 
Wildlife for use from the these three facilities.
    H.R. 3478 would also provide much-needed water for a dry-
year supply from the New Mexico cities of Farmington, Aztec, 
and Bloomfield. The new proposal eliminates the pre-existing 
water quality concerns because the legislation would no longer 
require the construction of all of phase 1 of the original 
project. More importantly, H.R. 3478 would ensure that this 
important settlement could be achieved consistent with the 
requirements of the Endangered Species Act.
    Finally, the 1988 Act called for a larger project than is 
before us now which had a price tag of $681 million. H.R. 3478 
is expected to be $400 million less.
    Mr. Chairman, H.R. 3478 is the result of discussions 
between the project supporters and opponents that were 
initiated by the State of Colorado and the Secretary of 
Interior Babbitt. Both sides of the dispute regarding the 
Animas-La Plata were asked to develop an alternative they 
believe met the purposes of the ALP. Last summer, both sides 
came forth with their proposals. The two Ute Tribes have 
formally rejected the project opponents' proposal to provide 
the tribes with money rather than water.
    Additionally, the State of Colorado and local water users 
have also strongly opposed that concept. Furthermore, the 
tribal leadership has rejected the concept of buying existing 
State water rights, primarily because of the uncertainty and 
inflexibility of the resulting water supply, as well as the 
difficulties that would arise over management and taxation of 
the purchased resources.
    As the Subcommittee is aware, it has always been the tribal 
objective to obtain a firm supply of water to meet their 
present and future needs without displacing the uses of their 
non-Indian neighbors. Congress recognized this in 1988 by 
stating that only a storage facility can accomplish that goal.
    Simply put, Mr. Chairman, a scaled-down version of the 
Animas-La Plata Project has been altered to address concerns 
raised about the original project. The Ute Tribes have accepted 
this proposal even though it is significantly less than what 
they were first offered. The tribes are not accepting a smaller 
offer because it meets all their needs. The Utes are willing to 
accept this deal for a very simple reason--the tribes need 
water. They need water.
    The Ute Indians are hoping they can rely on the Animas-La 
Plata Project for the water needs and they are hoping they can 
rely on the government that promised them the water in the 
1860's to follow-through on delivering this water. Opponents of 
this project have said that they cannot agree with a project 
that does not have to complete the usual environmental studies 
and requirements. I completely agree with them. An undertaking 
of this magnitude will make a big impact and the environmental 
aspects of it should be studied. It is good, then, that so much 
work has been done on the environmental situation. The Bureau 
of Reclamation has already spent $20 million on environmental 
studies. Fish and Wildlife is determined that a depletion 
amount of 57,100 acre feet will not endanger native fish.
    I believe that any further demands for environmental work 
at this point are clearly and merely stalling tactics. There 
are many reasons to support this project. I think the best 
reason is not because a larger project was already authorized 
by Congress, not because it's 10 years overdue, not even 
because it may save the country over $400 million. The best 
reason, Mr. Chairman, is simply this project should be 
supported is because it is the duty and the Treaty obligation 
of the United States to the Ute Indian Tribes.
    I thank you for your time, Mr. Chairman.
    [The prepared statement of Mr. McInnis follows:]

Statement of Hon. Scott McInnis, a Representative in Congress from the 
                           State of Colorado

    Mr. Chairman, I thank you and the members of the 
Subcommittee on Water and Power for holding this hearing. I 
appreciate the opportunity to testify before the Subcommittee 
on behalf of H.R. 3478, a bill to amend the Colorado Ute Indian 
Water Rights Settlement Act to provide for a final settlement 
of the claims of the Colorado Ute Indian Tribes. I introduced 
this legislation on March 17, 1998. More importantly I would 
like to commend you on your continued involvement in this 
process as we work to satisfy the terms of the Colorado Ute 
Indian Water Rights Settlement Act. As you know, today's 
hearing is the first crucial step that must be taken to ensure 
that the Federal Government does not fail to fulfill the 
commitment we have made to the Ute tribes.
    I, along with, the State of Colorado, the Southern Ute 
Indian Tribe, the Ute Mountain Ute Indian Tribe, the Animas-La 
Plata Water Conservancy District, and the Southwestern Water 
Conservation District, will represent the Colorado component of 
the project and testify in support of H.R. 3478.
    Mr. Chairman, H.R. 3478 focuses on the three main 
requirements necessary to fulfill our nation's obligation to 
the Ute Tribes. First, it calls for a storage reservoir to be 
built to hold the promised water. Second, the bill provides the 
conveyance needed to transport water to the reservoir. Finally, 
the legislation would guarantee the Ute tribes the water in 
that reservoir. These three items are the minimum needed to 
fulfil the obligation the United States has with the Ute Indian 
Tribe. This agreement was signed back in the 60's--the 1860's. 
The treaty of 1868 promised the Ute Indian Tribes a permanent, 
reliable source of water. In 1988, another agreement, the 
Colorado Ute Indian Water Rights Settlement Act, reaffirmed 
these rights.
    Under H.R. 3478, the outstanding water rights on the Animas 
and La Plata Rivers of the Ute Mountain Ute and Southern Ute 
Indian Tribes would be resolved by the construction of the 
three facilities, the Durango Pumping Plant, the inlet conduit, 
and Ridges Basin Reservoir, these facilities were approved by 
the United States Fish and Wildlife Service under the 
Endangered Species Act, 16 U.S.C. 1531 et seq. Additionally, 
the Tribes would receive 33,050 acre feet of the 57,100 acre 
feet of depletion approved by the Fish and Wildlife Service for 
use from these three facilities. H.R. 3478 would also provide 
much needed water for dry year supplies for the New Mexico 
cities of Farmington, Aztec and Bloomfield. The new proposal 
eliminates the pre-existing water quality concerns because the 
legislation would no longer require the construction of all of 
Phase I of the original Project. More importantly, H.R. 3478 
would ensure that this important settlement could be achieved 
consistent with the requirements of the Endangered Species Act. 
Finally, the 1988 Act, called for a larger project than is 
before us now, which had a price tag of about $681 million, 
H.R. 3748 is expected to be $400 million less.
    Mr. Chairman, H.R. 3478 is the result of discussions 
between project supporters and opponents that were initiated by 
the State of Colorado and Secretary of the Interior Babbitt. 
Both sides of the dispute regarding Animas La Plata (ALP) were 
asked to develop an alternative that they believed met the 
purpose of the ALP. Last summer, both sides came forward with 
their proposals. The two Ute tribes have formally rejected the 
project opponents' proposal to provide the tribes with money 
rather than wet water. Additionally, the State of Colorado and 
local water users have also strongly opposed that concept. 
Furthermore, the tribal leadership has rejected the concept of 
buying existing state water rights, primarily because of the 
uncertainty and inflexibility of the resulting water supply, as 
well as the difficulties that would arise over the management 
and taxation of the purchased resources. As the Subcommittee is 
aware, it has always been the tribal objective to obtain a firm 
supply of water to meet their present and future needs without 
displacing the uses of their non-Indian Neighbors. Congress 
recognized this in 1988 by stating that, only a storage 
facility can accomplish that goal.
    Simply put, the scaled down version of the Animas La Plata 
Project has been altered to address concerns raised about the 
original project. The Ute Tribes have accepted this proposal 
even though it is significantly less than what they were first 
offered. The Tribes are not accepting a smaller offer because 
it meets all their needs. The Utes are willing to accept this 
deal for a very simple reason: The Tribes need water. The Ute 
Indians are hoping they can rely on the Animas La Plata Project 
for their water needs, and they are hoping they can rely on the 
Government, that promised them that water, to follow through on 
delivering the water.
    Opponents of this project have said they cannot agree with 
a project that does not have to complete the usual 
environmental studies and requirements. I agree with them. An 
undertaking of this magnitude will make a big impact, and the 
environmental aspects of it should be studied. It is good, 
then, that so much work has been done on the environmental 
situation. The Bureau of Reclamation has itself spent about $20 
million on environmental studies and the Fish and Wildlife 
Service has determined that the depletion amount of 57,100 acre 
feet will not endanger native fish. I believe, that any further 
demands for environmental work, at this point, are merely 
stalling tactics.
    There are many reasons to support this project. I think the 
best reason is not because a larger project was already 
authorized by Congress, not because it is ten years overdue, 
and not even because it may save the country over $400 million. 
The best reason is simply that this project should be supported 
because it is the duty and treaty obligation of the United 
States to the Ute Indian Tribes. Thank you Mr. Chairman.

    Mr. Doolittle. Thank you. The Chair will recognize our 
Ranking Member for the purposes of making his opening 
statement.

    STATEMENT OF HON. PETER A. DeFAZIO, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. DeFazio. Thank you, Mr. Chairman. I regret that I was 
delayed a few minutes in arriving. This really is--although 
this is called ``Animas-La Plata Lite'' by some, we're really 
revisiting many of the defects of the original Animas-La Plata 
Project. In fact, the original Animas-La Plata Project would 
still be authorized, as should be Mr. McInnis' bill should be 
passed. In fact, it has a special provision for--in H.R. 3478 
for section 4(b) providing the State of Colorado's uncommitted 
cost share dollars can be used to build the full project.
    The bill suffers from the degree of consistency with the 
Committee's usual action which is waiving environmental laws--
Endangered Species Act, Clean Water Act--as we've done recently 
with all water projects on the Committee. And would, therefore, 
be subject to the same threat of veto by the President should 
it go through the House and the Senate in this form--as a 
number of other bills which this Committee has taken up in 
recent weeks--which is unfortunate to waste everyone's time in 
that manner.
    Further, of course, the ongoing allegation is that what we 
want to do is a project to meet the rights of the tribes here. 
This has the same problem as the original Animas-La Plata and 
that it's going to deliver water pumped uphill but not to the 
reservation. You know, it's not clear whether that water would 
or could ever be delivered to the reservation. I'm committed, 
as is Commissioner Martinez, who I believe we'll hear from 
later and others, that we meet our Treaty obligations. That we 
deliver water--real water--to the tribe for their use. But I 
would suggest that rushing forward with H.R. 3478, at this 
point and time, is not going to meet the deadlines--the very 
real deadlines that loom. That is, under the original 
agreement, the tribe has until 2005 to return to court to 
obtain its settlement through the courts for each Treaty 
rights.
    If this project were started on October 1st, Bureau of Rec 
isn't--certainly isn't prepared to do that--but if all 
environmental laws were waived; if this Committee did sanction 
this project; and if for some reason the White House didn't 
veto--the President--the project would be anticipated to be 
completed about 2010. Again, with no certain delivery to the 
tribes. I believe the tribes would, in all probability, then 
refile in--before the end of 2005--and we'd be right back where 
we started pending litigation except for a few hundred million 
dollars that the Federal taxpayers would be laying out for 
Animas-La Plata Lite. So I will oppose legislation should it 
move and would support the White House and its threats of a 
veto. I thank the chairman for his indulgence.
    [The prepared statement of Peter DeFazio follows:]

 Statement of Hon. Peter A. DeFazio, a Representative in Congress from 
                          the State of Oregon

    Mr. Chairman:
    H.R. 3478 suffers from a host of defects. It is an effort 
to rush a large water project into construction without 
adequate cost-benefit analysis or environmental review. We 
don't even have a reliable estimate of the cost of this new and 
unstudied project. The bill waives environmental laws, 
including the Endangered Species Act and the Clean Water Act. 
It creates an unprecedented new subsidy for non-Indian water 
users. And not only does it fail to deliver a single drop of 
water to the Indian tribes it is supposed to benefit, the 
Bureau of Reclamation questions whether the facilities included 
in H.R. 3478 would even be able to function independently.
    Let's not be deceived by talk of something called Animas-La 
Plata Lite. H.R. 3478 is all about building the original 
Animas-La Plata project. The bill's supporters make that 
perfectly clear by their refusal to consider deauthorizing 
those portions of the original project that go beyond the scope 
of A-LP Lite. H.R. 3478 spells it out in section 4(b) by 
providing that the State of Colorado's uncommitted cost-share 
dollars can be used to build the full project.
    I heartily endorse and support the position taken by 
Commissioner Martinez and the Bureau. We all share a desire to 
satisfy the legitimate water rights claims of the Ute Indians. 
Let's be clear that much has already been done towards that 
end. The Bureau has completed construction of the Dolores 
Project to enable delivery of water to the Ute Mountain Ute 
Reservation. More than $60 million in development funds have 
been provided to the two Tribes. Final consent decrees have 
been entered into on all rivers where the Tribes claim water in 
order to supply agreed upon quantities of water to the two 
Tribes.
    I share Commissioner Martinez's support for delivering 
additional wet water for the Tribes' use. A-LP Lite doesn't do 
that. At a minimum, this new proposal needs to undergo the same 
kind of study and review that my Republican colleagues would 
insist upon for any other large expenditure of public funds. 
There is absolutely no justification for rushing this into law 
before that review is complete.

    Mr. Doolittle. Thank you. Mr. Redmond, you're recognized 
for your testimony.

 STATEMENT OF HON. BILL REDMOND, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF NEW MEXICO

    Mr. Redmond. Thank you, Mr. Chairman, for holding this 
hearing--for giving me the opportunity to show my support for 
H.R. 3478, the Animas-La Plata Water Project.
    As you know, the Animas-La Plata Project has been 
controversial work-in-progress for over four decades. In spite 
of what you just heard, that we're rushing forward, I think 150 
years is long enough for us to keep our word. As Members of 
Congress who do not represent districts in the West, who do not 
understand the situation with water that we have in the four 
corners area of New Mexico, Colorado, Utah, and Arizona--this 
is one of the most significant areas--one of the most 
significant projects for the four corners area. But one of the 
largest tribal populations in America, I want you to understand 
why this project is necessary.
    I don't know how many of your are from the Southwest, but 
as you probably know, it's dry in the Southwest. Water is not a 
small matter where we live. Here in Washington, DC, which is 
built over swamp, and Virginia and Maryland, you don't have to 
go far to find a stream, or a river, or a lake, or an ocean. In 
New Mexico, you could drive hundreds of miles without seeing a 
drop of water. When a community in the Southwest begins to grow 
and expand like the communities in Farmington and the San Juan 
area, support for those communities is dependent on a water 
supply.
    When a tribe, or tribes, in the remote area of the four 
corners such as the Ute Mountain Ute Tribe and the Southern Ute 
Tribe are still carrying their water in buckets from the rivers 
to their homes--a water supply plan is necessary. These two 
issues are the reason that I support H.R. 3478 to authorize the 
funding and con-

struction of the Animas-La Plata Water Project. After 40 years 
of discussions about its importance, in 1986 Congress passed 
the Colorado Ute Indian Water Rights Settlement Act which was 
designated to resolve all the water rights claims of the two 
Colorado Ute Indian Tribes in a way to provide the tribes with 
water they deserve and need--and the surrounding communities in 
Colorado and New Mexico, the water that they want to help their 
communities, as well.
    In 1986, the statute was the culmination of the efforts 
that began in the 1930's. For over 4 years, the State of New 
Mexico and the communities in the northwest corner of the State 
have supported Animas-La Plata Project, due to the recognized 
need for the dependable water supply. I was only 2 years old 
when the Native Americans in the Southwest were carrying their 
waters in buckets. I'm now 44 years old and they're still 
carrying their waters in buckets to their homes.
    For over 40 years, at a cost of over $53 million, the 
government has studied, and studied, and studied, and studied 
the planning and the environmental impacts of the Animas-La 
Plata. The environmental concerns have been addressed over and 
over again to meet the constant updated regulatory standards 
mandated by the National Environmental Policy Act, the Clean 
Water Act, and the Endangered Species Act.
    Because of the cost concerns associated with the Federal 
Government's share of implementation, the project has been 
scaled back by over $400 million. H.R. 3478 settles tribal 
claims, in spite of what was previously stated; addresses water 
quality concerns; significantly reduces the cost of the 
project; provides protection for existing water right holders 
in New Mexico; and allows the State of New Mexico and the 
Northwest corner to adequately develop water supplies to meet 
the needs of their arid communities.
    I appreciate your interest in this legislation and I'm 
willing to work with you and the interested parties to resolve 
any further concerns you may have. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Redmond follows:]

 Statement of Hon. Bill Redmond, a Representative in Congress from the 
                          State of New Mexico

    Thank you Mr. Chairman for holding this hearing and for 
giving me the opportunity to show my support for H.R. 3478 and 
the Animas La Plata Water Project. As you all know, the Animas 
La Plata project has been a controversial work in progress for 
over four decades. As the Member of Congress who not only 
represents the Northwest corner of New Mexico where this 
project will have the most impact, but one of the largest 
tribal populations in America I want you to understand why this 
project is necessary.
    I don't know how many of you are from the Southwest but as 
you probably know it's dry out there. Water is no small matter. 
Here, in Washington, DC which is built over a swamp, and in 
Virginia and Maryland, you don't have to go far to find a 
stream, a river, a lake or the ocean. In New Mexico, you could 
drive hundreds of miles without seeing a drop of water.
    When a community in the southwest begins to grow and 
expand, like the communities in the Farmington/San Juan County 
area, support for those communities is dependent on a water 
supply plan. When a tribe or tribes in the remote four corners 
area, such as the Ute Mountain Ute Tribe, and the Southern Ute 
Tribe are still carrying their water in buckets from the rivers 
to their homes, a water supply plan necessary. These two issues 
are the reason I support H.R. 3478 to authorize the funding and 
construction of the Animas La Plata Water Project, after over 
40 years of discussion about it's importance.
    In 1986, Congress passed the Colorado Ute Indian Water 
Rights Settlement Act, which was designed to resolve all of the 
water rights claims of the two Colorado Ute Indian Tribes in a 
way that provided the tribes with the water they deserved and 
and needed, and the surrounding communities, in Colorado and 
New Mexico, the water they wanted to help support their 
communities needs as well. This 1986 statute was the 
culmination of efforts that begin in the 1930s.
    For over 40 years the State of New Mexico and the 
communities in the Northwest Corner of the State have supported 
the Animas La Plata Project, due to the recognized need for a 
dependable water supply. When I was two years old, there were 
Native Americans in the Southwest who were carrying water in 
buckets to their homes. I am 44 years old and they are still 
carrying this water in buckets to their homes.
    For over 40 years, at a cost of $53 million, the government 
has studied the planning and environmental impacts of the 
Animas La Plata. Environmental concerns have been addressed 
over and over again to meet the constantly updated regulatory 
standards mandated by the National Environmental Policy Act, 
the Clean Water Act, and the Endangered Species Act.
    Because of the cost concerns associated with the Federal 
Government share of implementation, the project has been scaled 
back by over $400 million.
    H.R. 3478 settles tribal claims, addresses water quality 
concerns, significantly reduces the costs of the project, 
provides protection for existing water rights holders in New 
Mexico, and allows the State of New Mexico and the Northwest 
corner to adequately develop water supplies to meet the needs 
of their arid communities.
    I appreciate your interest in this legislation and am 
willing to work with you and the interested parties to resolve 
any further concerns you may have.

    Mr. Doolittle. Thank you. Mr. Petri is recognized.

STATEMENT OF HON. THOMAS E. PETRI, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF WISCONSIN

    Mr. Petri. Thank you, Mr. Chairman. I appreciate the 
opportunity to come before your Committee today on a matter of 
concern to the taxpayers of the United States. Building the 
Animas-La Plata Water Project is not economically or 
environmentally sound and does not deliver water to the members 
of the Ute Tribes on their reservations. That's why I decided 
to become an original co-sponsor of H.R. 745 which would 
deauthorize the project and direct the Secretary of the 
Interior to enter into negotiations with the tribes to find 
alternatives to fulfill their outstanding water rights claims.
    In contrast, H.R. 3478, the Colorado Ute Water Rights 
Settlement Act, amendments of 1998--also known as Animas-La 
Lite--makes no substantial changes in the original project. As 
has been pointed out, it simply reauthorizes phase 1, stage A, 
of the original plan.
    The Animas-La Plata Water Project was originally authorized 
in 1968 in the hey-day of mammoth water projects out West. 
However, Congress and the Federal Government soon abandoned 
this plan because it was a waste of money to build it. For 30 
years, the proponents of the project have never been able to 
convince Congress otherwise. Moreover, the budgetary and 
environmental landscape has changed since this project was 
originally authorized making its prospects even darker than 
they were initially.
    The reality is that under today's budget constraints and 
desire to preserve the beauty of our natural resources, this 
project is unlikely ever to be built. The proponents know that 
this is true and have attempted to keep the project alive by 
attaching it to the Ute Tribe's water claims. It's time to 
deauthorize this unjustified project once and for all.
    Alternative proposals to satisfy the Ute Tribe's water 
claims have been developed and are now being looked at by the 
Federal Government. H.R. 745 requires the Secretary of the 
Interior to look at the full range of alternatives to deliver 
water to the tribes. On the other hand, H.R. 3478 attempts to 
obligate the Secretary to begin construction, entirely 
prematurely on one of these proposals--that is Animas-La Plata 
Lite. The Bureau of Reclamation has not conducted an analysis 
of the feasibility or viability of this proposal. There is no 
reliable cost estimate, no benefit cost ratio, and no definite 
plan report. We've never approached water resource development 
with such a complete lack of planning in the history of this 
Congress. This is no time to start.
    Mr. Chairman, I'd like to emphasize that many provisions of 
H.R. 3478 are highly controversial and I'm sure that many 
members will have great concern and skepticism if it's advanced 
by the House Resources Committee. H.R. 3473 does not 
deauthorize any portion of the original Animas-La Plata 
Project. On the contrary, it exempts major components of the 
project including a pumping station, and Ridges Basin 
Reservoir, from environmental laws and standard budget and 
economic requirements.
    Of particular concern is the new financing scheme found in 
H.R. 3478. This legislation would cap repayment of capital 
costs from municipal and industrial water at $29 million for 
non-Indian project beneficiaries regardless of any cost 
overruns that may occur. It would also release the tribes from 
any capital repayment obligations, as well as any portion of 
the operation and maintenance costs of the project. All 
remaining costs, whatever they may ultimately be, would be 
borne by the Federal taxpayers. The bill would have Congress 
give a blank check for this demonstrably uneconomic project.
    This is completely the reverse of the policy set in the 
original 1988 Colorado Ute Indian Water Rights Settlement Act 
which was predicated on full repayment with interest of all the 
capital costs from municipal and industrial water development. 
This new financing method violates at least five current 
Federal laws. This bill also increases the Federal cost share 
for the conceived project from 63 percent to a minimum of 90 
percent of the cost for developing an outrageously expensive 
water supply for communities that cannot demonstrate a need for 
the water and clearly are unwilling to pay for it themselves.
    If I were to propose that the Federal taxpayer subsidize 90 
percent of the cost of developing municipal water in my State, 
I'd be surprised if Members of this chamber would support such 
a proposal. In general, it's been the policy of the Federal 
Congress not to subsidize municipal and industrial water 
development which is fundamentally a non-Federal 
responsibility.
    Finally, H.R. 3478 also proposes a highly controversial 
waiver of environmental laws as they relate to this project. 
This is generally referred to as sufficiency language. It 
waives the National Environmental Policy Act, the Federal Water 
Pollution Control Act, and the Endangered Species Act.
    Mr. Chairman, H.R. 3478 is not a genuine alternative 
solution to the Animas-La Plata Water Project conflict. It's 
simply Phase 1, Stage A of the original project. It's not 
really new at all and there-

fore it perpetuates all the problems with the original 
project--while introducing new ones, including a dramatic 
decrease in local cost share, introduction of a new class of 
Federal subsidies, and highly controversial sufficiency 
language.
    This bill and the Animas-La Plata Project will not deliver 
water to the Ute Mountain Ute and the Southern Ute 
reservations. It's time to stop holding the Ute Tribes' 
legitimate water rights claims hostage in order that non-Indian 
interests might finally construct their great boondoggle pork 
project paid for by the Federal Government. The Animas-La Plata 
project should be deauthorized without further delay. Again, I 
would thank Members of the Committee for inviting me today and 
for your attention.
    [The prepared statement of Mr. Petri follows:]

 Statement of Hon. Thomas E. Petri, a Representative in Congress from 
                         the State of Wisconsin

    Mr. Chairman I appreciate the opportunity to come before 
the Committee today to share my views on a matter of concern to 
me and, I believe, to the taxpayers of the United States. 
Building the Animas-La Plata water project is not economically 
or environmentally sound and it does not deliver wet water to 
members of the Ute Tribes on their reservations. That is why I 
decided to become an original cosponsor of H.R. 745, which 
would deauthorize the Animas-La Plata project and direct the 
Secretary to enter into negotiations with the Tribes to find 
alternatives to fulfill their outstanding water rights claims. 
In contrast, H.R. 3478, the Colorado Ute Settlement Act 
Amendments of 1998, also known as ALP-Lite, makes no 
substantial changes in the original ALP project. It simply 
reauthorizes Phase I, Stage A, of the original plan.
    The Animas-La Plata water project was originally authorized 
in 1968 in the heyday of mammoth water projects out West. 
However, Congress and the Federal Government soon abandoned 
this plan because it simply was a waste of money to build it. 
For thirty years now the proponents of the project have never 
been able to convince Congress otherwise. Moreover, the fiscal 
and environmental landscape has changed since this project was 
originally authorized, making its prospects even darker than 
they were initially. The reality is that under today's fiscal 
constraints and desire to preserve the beauty of our natural 
resources this project is unlikely ever to be built. The 
proponents know that this is true and have attempted to keep 
the project alive by attaching it to the Ute Tribes water 
claims. It's time to deauthorize this unjustified project once 
and for all.
    Alternative proposals to satisfy the Ute Tribes water 
claims have been developed and are now being looked at by the 
Federal Government. H.R. 745 requires the Secretary to look at 
the full range of alternatives to deliver water to the Tribes. 
On the other hand, H.R. 3478 attempts to obligate the Secretary 
of the Interior to begin construction, entirely prematurely, on 
one of these proposals--that is, ALP-Lite. The Bureau of 
Reclamation has not conducted an analysis of the feasibility or 
viability of this proposal. There is no reliable cost estimate, 
no benefit/cost ratio and no definite plan report. We have 
never approached water resources development with such a 
complete lack of planning in the history of this Congress, and 
this is no time to start.
    Mr. Chairman, I would like to emphasize to you that many 
provisions of H.R. 3478 are highly controversial and I am sure 
that many Members will have great concern and skepticism if it 
is advanced in any way by the House Resources Committee. H.R. 
3478 does not deauthorize any portion of the original ALP. On 
the contrary, it exempts major components of the project, 
including a pumping station and Ridges Basin Reservoir, from 
environmental laws and standard fiscal and economic 
requirements.
    Of particular concern is the new financing scheme found in 
H.R. 3478. This legislation would cap repayment of capital 
costs for municipal and industrial water at $13 million dollars 
for non-indian project beneficiaries, regardless of any cost 
overruns that may occur. It would also release the Tribes from 
any capital repayment obligations, as well as any portion of 
the operation and maintenance costs of the project. All 
remaining costs, whatever they may ultimately be, would be 
borne by the Federal taxpayer. H.R. 3478 would have Congress 
give a blank check for this demonstrably uneconomical project. 
This is completely the reverse of the policy set in the 
original 1988 Colorado Ute Indian Water Rights Settlement Act, 
which was predicated on full repayment, with interest, of all 
the capital costs for municipal and industrial water 
development. This new financing method violates at least 5 
current Federal laws.
    This bill also increases the Federal cost share for the 
conceived project from 63 percent to a minimum of 90 percent of 
the cost for developing an outrageously expensive water supply 
for communities that cannot demonstrate a need for the water 
and clearly are unwilling to pay for it. If I were to propose 
that the Federal taxpayer subsidize 90 percent of the costs of 
developing municipal water in my state, I would be surprised if 
Members in this chamber would support such a proposal. In 
general, it has been the policy of the Congress not to 
subsidize municipal and industrial water development, which is 
fundamentally a non-Federal responsibility.
    Finally, H.R. 3478 also proposes a highly controversial 
waiver of environmental laws as they relate to this project in 
the form of what is generally referred to as ``sufficiency 
language,'' waiving the National Environmental Policy Act, the 
Federal Water Pollution Control Act and the Endangered Species 
Act.
    Mr. Chairman, H.R. 3478 is not a genuine alternative 
solution to the Animas-La Plata water project conflict. It is 
simply Phase I, Stage A, of the original project. It is not 
really new at all and therefore it perpetuates all of the 
problems with the original project while introducing new ones, 
including a dramatic decrease in the local cost share, 
introduction of a new class of Federal subsidies and highly 
controversial sufficiency language.
    Mr. Chairman, this bill and the Animas-La Plata project 
will not deliver water to the Ute Mountain Ute and the Southern 
Ute reservations. It is time to stop holding the Ute Tribes' 
legitimate water rights claims hostage in order that non-indian 
interests might finally construct their great boondoggle pork 
project paid for by the Federal Government. The Animas-La Plata 
water project ought to be deauthorized without further delay.
    Again, I thank the Chair and the Committee for the 
opportunity to express my concerns. Thank you for your time.

    Mr. Doolittle. Thank you very much. The plan will now be to 
recess the Subcommittee. Then at approximately 3:45 p.m. or as 
soon as we reconvene after the conclusion of the memorial 
services, we will reassemble here and hear from the members of 
panel one. So the Subcommittee will stand in recess.
    [Recess.]
    Mr. Doolittle. The Subcommittee will reconvene to hear 
testimony from our witnesses. We'll begin with panel one.
    Let me ask our witnesses--it's customary that the witnesses 
take the oath. So if you'd please rise and raise you right 
hands.
    [Witnesses sworn.]
    Mr. Doolittle. Thank you. Let the record reflect each 
answered in the affirmative.
    Gentlemen, we're very pleased to have you here. I'm 
confident that some of my colleagues will drift in, but we have 
a long witness list and you have been patient to wait this long 
while as it is. So I think we'll begin.
    Our first witness is the Honorable Roy Romer, Governor of 
the State of Colorado. Governor Romer.

 STATEMENT OF HON. ROY ROMER, GOVERNOR OF THE STATE OF COLORADO

    Governor Romer. Thank you, Congressman. I know we began the 
second part of it right after the memorial service. I just want 
to recognize, as a Governor, who lives in a capital building 
daily, the risk that all of you public officials run and the 
risk that those officers run. I just want to pay tribute to 
those two gentlemen and their families before I make further 
comments.
    My name is Roy Romer. I'm Governor of Colorado. I'm pleased 
to have the opportunity to share my comments on H.R. 3478 that 
would authorize the construction of a smaller Animas-La Plata 
Project in southwestern Colorado. For the record, I've 
submitted a copy of the full text of my remarks to the 
Committee. I'd like to take a moment to highlight my views.
    Mr. Chairman, this is my third term as Governor. I'm in my 
12th year. I was first elected in 1986, the same year the State 
of Colorado signed an agreement with the Southern Ute and the 
Ute Mountain Ute Indian Tribes settling a longstanding, 
difficult controversy regarding the tribes' water rights. I've 
been working to get the tribes the water they deserve since my 
first day in office. I regret to say that, after 12 years, 
we're still trying to get that job done.
    I'm here to express my support for H.R. 3478. In my 
opinion, this bill represents our best vehicle for satisfying 
our obligations to the Ute Tribes for water. As you know, this 
bill is a result of years of efforts, negotiations, and 
compromise. The project was first authorized by Congress in 
1968. Following the authorization, the Ute Tribes began to 
assert their widely recognized right to water in the streams 
and rivers that flow through the reservations based on the 
Reserved Water Rights Doctrine.
    Given the scarcity of water in the region and the possible 
disruption that the establishment of Indian water claims would 
have posed for the existing non-Indian water right holders, 
Colorado sat down with the tribes in the mid-1980's to settle 
the tribes' claims. The result was a 1986 Settlement Agreement. 
This agreement establishes the tribes' water rights and sorts 
out non-Indian water claims. It was signed by all parties--the 
State, the tribes, non-Indian users, municipalities, and the 
United States Department of Interior, and the United States 
Department of Justice. It's a very important agreement.
    It allows us to resolve possible water conflicts, preserve 
the social, and economic well-being of the area, and avoids 
decades of expensive litigation. Most importantly, it 
acknowledges our obligation to provide water to the tribes. In 
order to fulfill the obligations for water outlined in this 
agreement, the agreement calls for the construction of the 
Animas-La Plata Project, a project that would store water and 
make it available to the tribes and other users. It was 
authorized in 1968.
    Congress formalized this agreement in the 1988 Settlement 
Act. Now this Congress is still considering legislation on the 
project. We still have not satisfied our obligations to the 
tribes. Under the agreement, the tribes have the right to go to 
court and to assert their claims if they do not believe that 
progress is being made. That risk is real and its troubling.
    Now, I understand that this delay has been brought about 
because opponents of the project have raised environmental and 
fiscal concerns. It was in recognition of this and the threat 
of lengthy and costly litigation that the Lieutenant Governor 
Gail Schoettler, of Colorado, and I brought all sides of this 
issue together in an effort to discuss compromises and 
consensus on all alternatives. That process was a difficult 
one. It took many hours of discussion, public input, and months 
of negotiation. However, we did succeed in narrowing the debate 
to two alternatives.
    One of the alternatives, the so-called Animas-La Plata Lite 
proposal, involves the creation of a much smaller project at 
less cost and less environmental impact.
    The other alternative, called the Animas River Citizens' 
Coalition proposal, would set aside about $100 million--$110 
million for the tribes to purchase land and water rights in the 
area instead of building a reservoir. It also includes adding 
more storage capacity of existing water projects in the region.
    Now last year, I publicly expressed support of the Animas-
La Plata Lite alternative for the following reasons. First, it 
satisfies our obligation to the tribes for water. Animas-La 
Plata Lite is the only alternative that tribes will accept and 
will satisfy that obligation.
    Second, it includes everyone--tribes and non-Indians alike. 
We must have a solution for the entire region. One that will 
not disrupt the long-established water development and economic 
activities in the area. The 1986 Settlement Agreement was 
created and signed just for that reason--to resolve everybody's 
rights in light of the tribal claims. It is thus critically 
important to include non-Indian water users. ALP Lite 
accomplishes this goal.
    Third, it is less costly and poses less environmental 
impacts than the original project. ALP Lite reduces the cost by 
$400 million. Since it is a smaller project, it avoids many of 
the environmental impacts that were of concern to the United 
States Environmental Protection Agency and the U.S. Fish and 
Wildlife Service.
    Fourth, it avoids a complete renegotiation of that 1986 
Settlement Agreement. As I have said, the Settlement Agreement 
was the result of hard-fought compromises with the tribes and 
other water rights holders. Renegotiating this agreement would 
take many years and at enormous expense to the taxpayers.
    Since the signing of the agreement in 1986, funds have been 
set aside and expended to implement its provisions with the 
sole exception of the construction of the Animas-La Plata 
Project. The ALP Lite alternative will complete the last 
commitment made in the Settlement Agreement.
    Fifth, it avoids further delay. We've been at this for 
decades. We have negotiated, compromised and studied this 
project extensively. It's time to get off the dime and get on 
with satisfying our obligations to the tribe. ALP Lite will get 
us there.
    Now, H.R. 3478 adheres to these principles. As a result, 
passage of this bill will accomplish our goals. I urge you to 
support it.
    Let me say the Interior Department can, in my view, play a 
very helpful role in this controversy. They were represented in 
our discussions concerning the Animas-La Plata Lite 
alternative. They could help us by taking the two alternatives 
developed in this negotiation process; plug them into the 
appropriate environmental processes; select Animas-La Plata 
Lite as the preferred alternative; and quickly come out with a 
decision. In my view, either Interior should work with the 
product that we have developed and come to a decision; or 
Congress should direct Interior on how to resolve this issue by 
passing H.R. 3478.
    It's the only way we're going to get this resolved, short 
of going to court for years to come. Now H.R. 3478 and Senate 
bill 1771--the companion Senate bill--can serve as the 
framework for further discussions to address Interior's 
concern. But one thing is certain, we cannot start from square 
one again. Too much time has been lost and we've already 
discussed plenty of alternatives. These bills represent the 
product of difficult compromises and should not be rejected.
    In closing, I have noted that Secretary Babbitt has asked 
his counsel, David Hayes, to meet with the tribes and their 
neighbors to see if an agreement can be reached on amendments 
to this legislation. I would ask Mr. Hayes to come to Colorado, 
meet with me and the other signators of the Settlement 
Agreement, but this must be more than just more talk or more 
process. Mr. Hayes should come and must come with a portfolio 
to speak for the administration. We need some decisions to be 
made here. I would hope he would come with a clear proposal, 
and I would ask him to come with a clear proposal for 
amendments to the legislation that will satisfy the 
administration's concern.
    Finally, I think we must meet in August, if this Congress 
should pass this legislation--with or without the 
administration's support--to finally honor commitments under 
the Settlement Agreement. Thank you, Mr. Chairman.
    [The prepared statement of Governor Romer may be found at 
end of hearing.]
    Mr. Doolittle. Thank you.
    Our next witness is Mr. Thomas Turney. Mr. Turney is the 
State engineer for the State of New Mexico. Mr. Turney.

  STATEMENT OF THOMAS C. TURNEY, STATE ENGINEER, STATE OF NEW 
                             MEXICO

    Mr. Turney. Mr. Chairman, members of the Committee, I thank 
you for letting me testify this afternoon. I also brought a 
statement with me from the Governor of the State of Mexico. He 
sends his apologies but he cannot be here this afternoon. We 
would like to have his statement entered into the record.
    [The prepared statement of Mr. Johnson may be found at end 
of hearing.]
    Mr. Turney. Today, I'd like to speak on behalf of H.R. 3478 
which means changes to the authorized ALP project. At the same 
time, would like to speak against H.R. 745 which speaks of 
deauthorization.
    The reconciled Animas-La Plata Project would provide two 
basic components of New Mexico's plans for development of its 
water resources in northwestern New Mexico. The reconciled 
project generally settles the claims of two Colorado Ute Indian 
Tribes to waters of the Animas-La Plata Rivers. This is an 
important aspect of the project because it provides certainty 
to the New Mexico water users on these two rivers so that, in 
fact, they will have water available to them under their State 
water rights.
    Secondly, the reconciled project will provide a more 
dependable water supply for both Indian and non-Indian 
communities in northwest New Mexico. Northwest New Mexico is 
growing and it's very important to provide an adequate water 
supply for this area's future. The need for a dependable water 
supply for this area has long been recognized. Although the 
majority of communities in the State of New Mexico get their 
water from wells, communities in this par-

ticular area must get their water from river waters. Ground 
water in the area generally contains very high level of 
contaminants and is unusable. The Animas River has historically 
run dry or very near.
    Raw water storage is necessary to supply water to 
communities when the river runs low. The Animas-La Plata 
Project is designed to provide a water supply during low-flow 
conditions for both Indians and non-Indians in New Mexico--a 
goal which the State of New Mexico very much supports.
    H.R. 3478 is a compromise bill negotiated by Indians and 
non-Indians. It addresses many concerns previously expressed by 
New Mexico, including final settlement of Colorado Ute Indian 
Water Rights claims, a much needed municipal and industrial 
water supply for the area; a reduction in project costs; a 
habitat for endangered species; protection of senior water 
rights; and does not lessen water qualities. Negotiations are 
ongoing to further refine this bill to include language to 
provide for a pipeline to carry project water from Farmington 
to the Navajo community of Shiprock.
    The State assigned approximately 50,000 acre feet of water 
to the Department of Interior for development at this project 
about 40 years ago. Subsequently, an interstate compact was 
developed to establish equal priority of project water rights 
between Colorado and New Mexico. Congress approved the Colorado 
Ute Indian Water Rights Settlement in the late 1980's. This Act 
provides for final settlement of the Colorado Ute Indian Water 
Rights claims on the Animas-La Plata Rivers. The construction 
of the ALP Project is the cornerstone of this settlement.
    It is neither timely nor appropriate to consider 
deauthorization. It is true that the project is controversial. 
However, H.R. 3478 has been introduced as a compromise by 
Indians and non-Indians in northwest New Mexico and southwest 
Colorado. Deauthorization will cause several major problems for 
New Mexico. If the Colorado Ute Indian claims are not settled 
and the Ute Indians return to court, New Mexico will be forced 
to intervene. To protect New Mexico water users on the Animas-
La Plata Rivers, New Mexico will be forced to challenge every 
PIA and other claims that the Ute Indians might advance.
    Based on similar cases in New Mexico where one ongoing 
Indian water right cases has been argued for a little over 32 
years. We would anticipate that this case will last for 
decades. There will be no doubt that our intervention is going 
to cause strained relations between New Mexico and the Colorado 
Ute Tribes in the State of Colorado. Due to the lack of 
certainty of future water availability, such a prolonged action 
could significantly impair land transfers and existence of 
future development in New Mexico. Deauthorization will 
terminate the Animas-La Plata interstate compact exposing New 
Mexico users to suffer shortages caused by junior appropriators 
in Colorado.
    Deauthorization will not stop the need of New Mexico 
communities for a raw water storage. To meet summertime 
demands, storage will continue to be needed. Although Navajo 
Reservoir is available on the nearby San Juan River flow 
recommendations recently proposed for the recovery of an 
endangered species will probably preclude the use of this 
storage for New Mexico communities. Al-

ternate storage sites are generally not available, potentially 
necessitating the development of multiple reservoirs. The cost 
of these reservoirs may be many times the amount that money New 
Mexicans will pay under the reconciled project.
    Deauthorization is going to hurt our ongoing negotiations 
with the Navajo nations. In 1996, the State of New Mexico 
entered into an agreement with 22 Indian pueblos and tribes. 
These disagreements set forth principles of government to 
government negotiation proceeding before litigation. This 
agreement has led to negotiations between the Navajo nation and 
New Mexico to determine if a negotiated settlement of Navajo 
water claims is feasible. The reconciled project will include a 
proposal to construct a transmission line from Farmington to 
provide treated project water to the Navajo community of 
Shiprock.
    For public health and safety reasons, this pipeline is 
extremely important to the Shiprock area whose population has 
swelled in recent years. Final settlement of the Navajo claims 
in the San Juan basin is extremely important, not only to 
northwestern New Mexico but it will provide certain communities 
along the river to receive their water from the San Juan trans-
mountain diversion. This deauthorization could potentially 
significantly impact major population centers in New Mexico.
    New Mexico strongly opposes deauthorization of the Animas-
La Plata Federal Reclamation Project. Instead, New Mexico 
supports a reconciled project that provides wet water to New 
Mexico and provides for final settlement of Ute Indian claims. 
Thank you for the opportunity to testify.
    [The prepared statement of Mr. Turney may be found at end 
of hearing.]
    Mr. Doolittle. Thank you.
    Our next witness is Mr. Eluid Martinez, the Commissioner of 
the Bureau of Reclamation. Mr. Martinez.

     STATEMENT OF ELUID MARTINEZ, COMMISSIONER, BUREAU OF 
            RECLAMATION, DEPARTMENT OF THE INTERIOR

    Mr. Martinez. Mr. Chairman, members of the Subcommittee, 
thank you for the invitation to present the administration's 
view on H.R. 745, an Act to deauthorize the Animas-La Plata 
Project and H.R. 3748, the Colorado Ute Settlement Act of 1998. 
My written statement has been submitted for the record, and if 
acceptable I'll summarize that statement.
    The administration fully supports providing wet water to 
the Colorado Ute Indian Tribes as part of the final settlement 
to their water rights. In providing the water to the tribes, we 
need to also consider how the possible solutions would affect 
the municipal and industrial water supplies of the regional 
communities, while protecting the area's natural resources. Mr. 
Chairman, the administration does not support the approaches 
included in the two measures before the Subcommittee today.
    They charge H.R. 745 would deauthorize the Animas-La Plata 
Project--a participating project under the Colorado River 
Storage Project Act of 1956. If enacted, this bill would direct 
the Secretary of Interior to promptly seek to enter into 
negotiations with the Ute Indian Tribes to satisfy, in a manner 
consistent with all Federal laws, the water rights interests of 
those tribes that were intended to be satisfied with water 
supplied from the Animas-La Plata Project.
    It should be noted that the H.R. 745 does not provide for 
an alternative to the original Animas-La Plata Project. While 
the administration agrees that there is limited support for the 
original Animas-La Plata Project, we are not prepared to 
recommend complete deauthorization. Instead, the administration 
believes it is important to focus on the priority of delivering 
wet water to the tribes and to address the deauthorization 
issue with the tribes and other affected parties.
    Mr. Chairman, with respect to H.R. 3748, this bill would 
amend the Colorado Ute Indian Water Rights Settlement Act of 
1988. The administration does not support the approach included 
in this legislation for the reasons detailed in my written 
statement. Mr. Chairman, the question is where do we go from 
here? On July 20, 1998, Secretary Babbitt wrote to the tribes 
to assure them where the administration stands with respect to 
their water rights. That letter, in part states ``We, the 
administration fully support providing wet water--water 
beneficially usable to the tribes to the Colorado Ute Indian 
Tribes as part of the final settlement of your claims. We need 
to consider how the possible solutions would affect the 
municipal-industrial water supplies of the regions' communities 
and protect the area's natural resources.''
    Mr. Chairman, the administration fully understands and 
respects the significance of the tribe's efforts and those of 
the Governor and the Lieutenant Governor, and other parties in 
the Romer-Schoettler process that helped to focus the issues 
surrounding this project. The administration is prepared to 
enter into a good faith dialogue with the tribes to identify 
the best mutually acceptable means to enable the tribes to 
obtain wet water for their present and future use. I place 
emphasis on the fact that at the same time, we need to consider 
how possible solutions would affect the municipal-industrial 
water supplies of the region and the natural environment of the 
area.
    However, in identifying an acceptable means, the 
administration believes that full consideration should be given 
to all alternatives, including appropriately sized storage that 
would satisfy the tribe's water rights. In undertaking that 
consideration, however, the full impact disclosure alternative 
analysis and the public involvement aspects of the National 
Environmental Policy Act should not be circumvented, nor should 
NEPA procedural requirements be segmented.
    Mr. Chairman, Mr. David Hayes, counselor to the Secretary 
of Interior, and who has been named by the administration as 
the leader to engage in a dialogue with the tribes, has 
forwarded a letter yesterday to the tribal chairperson seeking 
initiation of discussions. He has also extended letters of 
invitation to the other 1988 water settlement parties because 
of his expectation that they will need to participate in 
discussions pertaining to potential revisions of the Settlement 
Act.
    Mr. Chairman, this concludes my summary of remarks. I would 
be pleased to answer any questions you might have. Thank you.
    [The prepared statement of Mr. Martinez may be found at end 
of hearing.]
    Mr. Doolittle. Well, thank you. Commissioner, I recall in a 
previous career, you were the State engineer of New Mexico, 
were you not?
    Mr. Martinez. Yes, Mr. Chairman.
    Mr. Doolittle. Well, were you involved in all of this 
controversy back with Governor Romer or where do you fit in in 
this?
    Mr. Martinez. Chairman, I've been involved in New Mexico 
water issues and controversy since 1971.
    Mr. Doolittle. That's remarkable.
    [Laughter.]
    Mr. Martinez. I fully understand the implications of this 
project.
    Mr. Doolittle. Cal, I think you and I need some more of 
that wet water they want to get out there in New Mexico and 
Colorado.
    [Laughter.]
    Well, let me ask you, Commissioner, do you have or does the 
administration have amendments to Mr. McInnis' bill that would 
satisfy the administration's concerns?
    Mr. Martinez. Mr. Chairman, my written comments have 
specific--statement has specific concerns. The administration 
is committed to working quickly to try to work with the tribes 
and other folks in this area to bring something to the Congress 
that we would find acceptable.
    Mr. Doolittle. What role does the counselor in charge of 
Indian water rights settlement negotiations--what role do you 
think he seeks to play in this project?
    Mr. Martinez. The intent is to have Mr. Hayes speak for the 
administration on these issues.
    Mr. Doolittle. How does this project compare to other water 
rights settlement negotiations within the Department of the 
Interior?
    Mr. Martinez. Other Indian water rights settlements also 
contain components for water delivery projects.
    Mr. Doolittle. Well, I was pleased to hear you reaffirm the 
administration's commitment for storage. Governor, you're to be 
commended for your persistent and long-term role in trying to 
bring this settlement all about. It's a rather remarkable 
settlement it seems to me. It's unfortunate that it's lasted so 
long. Apparently, it's up to us to complete the final piece of 
this extensive and complex agreement.
    Governor Romer. Let me reply. I listened to Congressman 
DeFazio's comments earlier this morning. Look, we have a 
problem here. We need a solution to the problem. The problem is 
that we have an obligation to deliver water to the Indians. I 
think that this can be solved. We need to solve it. We ought to 
solve it right now.
    Secondly, I think an essential ingredient in that solution 
is for the administration to come to the table and say this is 
what we propose. That has not been the case yet and I think 
that Commissioner Martinez and the Secretary of Interior have 
indicated that Mr. Hayes is coming with authority to speak for 
the administration. If that's the case, that's a very helpful 
step.
    Third, we just need to get at the table. I think the 
elements of the solution are we need to deliver on the 
obligation to the tribe. We need to take care of the non-Indian 
water user. We need to do it in a responsible, environmental 
way. We need to do it without further delay. I think that--I 
would hope that the momentum that I sense from the 
administration can carry us to a solution very quickly.
    Mr. Doolittle. Well, that sounded encouraging. So let us 
hope that we see some positive developments here. Let me just 
ask a technical question about this--maybe I overlooked in the 
reading I did. But you have this reservoir that you're going to 
pump water into it. What's going to be the vertical lift from 
the river up to the reservoir?
    Mr. Martinez. I understand somewhere around 500 hundred 
feet.
    Mr. Doolittle. About 100 feet?
    Mr. Martinez. Five hundred.
    Mr. Doolittle. Five hundred feet. Well, if we can get our 
administration to act quickly, is it you sense, Commissioner, 
that this gentleman's going to get really engaged and help 
bring this to a conclusion fairly fast?
    Mr. Martinez. It would be my hope that we move sooner than 
later, and surely within the next month to try and bring some 
focus to this issue.
    Mr. Doolittle. Well, that would be excellent. This proposal 
has been criticized for lack of environmental compliance or 
documentation. Is there something, in you opinion, further that 
needs to be done in this regard? Mr. McInnis said that they've 
spent $20 million studying this thing.
    Mr. Martinez. Mr. Chairman, I'll reserve judgment on that. 
But one thing that I would say is that we sure don't want to 
get hung up by the courts. Whatever proposal I think the 
administration moves forward with, we ought to make sure it 
complies and provides a deep analysis and full due process so 
we don't get hung up in the court system.
    Mr. Doolittle. Do you have any specific suggestions about 
how the language in the bill could be modified in the 
environmental area to improve it?
    Mr. Martinez. I think that, with respect to the 
legislation, the concern we have is the sufficiency language.
    Mr. Doolittle. Well, is there any other substitute that you 
would suggest? It sounds like a great deal of time and money 
has been studying it. I would suppose the proponents don't want 
to have another open-ended study on it. Is there some 
compromise language that could be arrived at here?
    Mr. Martinez. With respect to the H.R. 3478?
    Mr. Doolittle. Yes.
    Mr. Martinez. To the extent that the only issue was, the 
only concern that the administration has with H.R. 3478 would 
be NEPA analysis, I think we could come together with some 
language. However, that's not the only issue that the 
administration has raised with concerns to H.R. 3478. We have 
issues having to do with deauthorization, appropriate 
deauthorization of the project, cost sharing, and other issues.
    Mr. Doolittle. So you're also seeking, then, specific 
deauthorization of certain components of the project.
    Mr. Martinez. What we're saying is that some of those might 
be appropriate.
    Mr. Doolittle. Well, I'll recognize Mr. DeFazio for his 
questions.
    Mr. DeFazio. I thank the chairman. To any of the 
participants, is Animas-La Plata Lite identical to Phase 1(a) 
of the Animas-La Plata?
    Mr. Martinez. As I recall, phase 1(a) was primarily an M&I 
delivery.
    Mr. DeFazio. Yes.
    Mr. Martinez. Phase 1(a) also included a reservoir sized to 
enable water to be developed and used for irrigation purposes.
    Mr. DeFazio. So the environmental analyses that were done, 
and the cost analyses that were done for phase 1(a) are not 
applicable to Animas-La Plata Lite? I mean, it's not the same 
project?
    Mr. Martinez. To the extent that water is taken from the 
river at different times of the year and is used for M&I 
purposes and return flow's assumption may differ from what was 
considered in 19--the supplemental--environmentally backed 
statement, it's a different project. It would require a 
different analysis.
    Mr. DeFazio. OK. So we don't have an economic analysis for 
the project proposed to deauthorize in the bill before us?
    Mr. Martinez. No. The Bureau of Reclamation has not done an 
analysis.
    Mr. DeFazio. OK. So you lack both an environmental and an 
economic cost analysis. I guess--turning then to Governor Romer 
for a moment. I congratulate you in your efforts in getting 
involved in this very difficult decision. As I understand the 
Romer-Schoettler process, there was some agreement, was there 
not, that any alternative should comply with all Federal laws?
    Governor Romer. I think that's correct, but I don't 
remember the exact language of that agreement. But let me tell 
you the concept that was in our minds. There is an existing 
environmental process. We felt that, whatever we came up, if we 
could get the administration's approval, we could have that 
ongoing environmental process; consider that as the preferred 
alternative that where you could continue to do the work that 
needs to be done, but you don't need to go back to square one.
    Congressman, I have a very strong environmental record. I 
do not want to have the environment damaged by this project. 
But this is a contentious issue. Sometimes environmental 
processes and litigation involved in them are used, in my 
judgment, not for the purpose of saving environment but for the 
purpose of killing a project. I simply would like to have this 
decision made. Let me suggest to you, if we can get an 
agreement on what this is, and if the administration will come 
to the table and say, you know, this is where we are--I think 
that we can take that agreement and satisfy all of the existing 
environmental law by including it in the existing process and 
just enlarging whatever investigation needs to be made based 
upon changes.
    Mr. DeFazio. Well, I'm puzzled as to the consistency of the 
statement. Then do you support the sufficiency language in Mr. 
McInnis' bill which says, this is deemed sufficient to meet all 
environmental laws, no matter what analysis has gone forward 
previously, even though it's different than and was applied as 
first stage? Do you support that then? I mean, having that 
language in there?
    Governor Romer. I support this----
    Mr. DeFazio. Or do you support doing the appropriate 
process?
    Governor Romer. I support this bill with that language in 
it. Now, let me explain, Congressman.
    Mr. DeFazio. All right.
    Governor Romer. I was very troubled by this. Let me tell 
you, I did that because there was no alternative. I was dealing 
with somebody that wouldn't give me an answer. I'm the Governor 
of Colorado. I've got an obligation to deliver on that 
agreement to the tribe. When I can't get an answer, I'll use 
whatever weapon I got to use. The weapon I chose to use is I 
agreed to sufficiency language in this bill.
    Mr. DeFazio. OK. So----
    Governor Romer. It's not the best way to go.
    Mr. DeFazio. No, in fact----
    Governor Romer. But let me tell you that it's better----
    Mr. DeFazio. Reclaiming my time, Governor, if I could--I 
don't have time for filibuster, here. So, you support basically 
finding a project which hasn't been evaluated by the Federal 
Government for its environmental problems or benefits. You just 
support deeming it to have met that myriad of Federal laws, 
without the public having any right to further appeal 
litigation from whatever perspective, and, you know, you find 
that to be consistent.
    Governor Romer. No. That's not a fair characterization of 
my views.
    Mr. DeFazio. Well, what is the result of----
    Governor Romer. You're making an unfair characterization--
--
    Mr. DeFazio. I'm very familiar, Governor, if I could, I'm 
very familiar with sufficiency language. I one time in my 
congressional career supported it and it was a bad thing to do. 
I learned that. It was nowhere near as big a deal as this 
project in terms of its environmental impacts--the one time I 
supported it. So it's really hard to say I'm a 100 percent 
environmentalist. I'm a strong environmentalist. In this case, 
I don't know what the impacts are. The government, the Federal 
Government, doesn't know what the impacts are, but I know that 
this would satisfy those Federal laws and environmental 
requirements. It's just not consistent.
    I see my time has expired. Perhaps on the next round, we 
can get back to that.
    Governor Romer. Can I reply to your statement?
    Mr. DeFazio. It's up to the chairman. My time has expired.
    Mr. Doolittle. Please, go ahead.
    Governor Romer. OK. I want to reply, Congressman, because 
you characterized my position, I thought, in an inaccurate and 
unfair way. Let me describe why it's inaccurate and unfair.
    I am for this solution. I think that there has been many 
years of work in terms of environmental impact.
    Mr. DeFazio. But not on this alternative, Governor.
    Governor Romer. Congressman, let me finish.
    Mr. DeFazio. We've done billions of years of environmental 
work in this country and it's a very frustrating process on 
billions of projects. But every time you come up with a new 
idea and a new project, you got to do another one.
    Governor Romer. Got it.
    Mr. DeFazio. Or you have to modify the ones that went 
previously. That you're not supporting that here. You're 
saying----
    Governor Romer. Excuse me.
    Mr. DeFazio. This would fit into the work that's been done 
before. The work that was done before was not done on this 
alternative.
    Governor Romer. Yes. Let me tell you, Mr. Congressman, the 
alternative that we're talking about is a storage project. It's 
pumping water out of the river; it's the management of that 
project, and it has a limited quantity. Now, we already have 
done a very great amount of work. If there are some 
modifications that need to be made in this proposal in order to 
make it acceptable to the administration, first, we need to 
know what those modifications are.
    Second, once we know what they are, then we can see whether 
or not we can use the existing process or whether we have to 
start another one.
    Third, when I supported this bill, I did not have an 
alternative from the administration even to discuss. So, sir, I 
want to tell you I'm here as a strong environmentalist. But I'm 
also here saying we've screwed around 12 years without solving 
this problem. As Governor of Colorado, I've got 6 months to go. 
I don't want to leave this problem unsolved. I think you and I, 
and everybody involved in the National Government and in the 
State of Colorado and New Mexico ought to solve this problem. 
We owe it to the Indians. We owe it to those communities.
    Mr. DeFazio. I think we should resolve the problem, too, 
Governor, but deeming it to have the environmental laws is, 
according to this administration, is veto bait--on any and all 
bills and projects, no matter how material. So that's a fatal 
flaw, among other flaws, in this legislation.
    Mr. Doolittle. Well, Commissioner, in other conversations 
we've had, you've been very gracious to offer to cooperate and 
try, and maybe with Mr. Hayes, we'll be able to move in this 
direction, but actually get the parties down and get sort of an 
expedited plan for moving this off dead center. I'm certain the 
sponsors of the bill aren't absolutely locked in concrete in 
every last detail of it. I'm sure, if they saw the opportunity 
to move ahead, there'd be some willingness to cooperate. But 
there's been so much work done, just as you yourself know since 
you were one of the key parties over the years; it seems like 
we need to have it resolved. We need to have some sort of 
environmental agreement that can come to a conclusion in a 
reasonable period of time and not drag out kind of open-ended.
    I wondered if I might ask Mr. Turney a question? You talked 
about a pipeline, I guess, for the Navajo Nation. Could you 
tell us about that? Maybe the estimated cost of that, the 
length, and the construction time, et cetera?
    Mr. Turney. Mr. Chairman, the pipeline would be run from 
Farmington to Shiprock. Shiprock is about 30 to 35 miles west 
of Farmington. The purpose of the pipeline would be to take 
treated water and move it from Farmington to Shiprock. For 
many, many years the Navajo community of Shiprock has tried to 
take water directly from the river. But the water is simply too 
muddy by the time it gets down to Shiprock. There's some major 
arroyos that dump silt into the river. For this reason, surface 
water treatment is just extremely difficult.
    The project to be built would, I'm sure, require further 
NEPA evaluation. I believe some preliminary numbers have been 
floated around about a 24-inch pipeline. There is an existing 
16-inch pipeline today--so this new pipeline to be augmenting 
an existing pipeline. Probably the project would be in the 
neighborhood of, let's say, $25 to $30 million.
    Mr. Doolittle. Would that be built along the same right-of-
way as the existing pipeline?
    Mr. Turney. I presume so. As I recall the last pipeline, it 
took about one and one-half years to design it, and about a 
year to construct it. Because we're dealing with a slightly 
larger project, sized pipeline, it may take a little longer 
than that.
    Mr. Doolittle. All of you have worked very hard to retool 
this proposal which you call Animas-La Plata Lite--sounds like 
a term your opposition may have coined, but, anyway, you use it 
yourselves. Well, has it lessened the opposition in any way? 
Did you get some of the opponents to go along with this that 
wouldn't go along with the full Animas-La Plata? Or are we 
still facing the same types of opposition?
    Governor Romer. I will speak to that. In the course of the 
extensive conversation we had when the so-called Romer-
Schoettler process--even though we did not come to an 
agreement, I thought that we found the kind of differences we 
had were narrowed. We all began to sense that there's a reality 
here, and that is that we've got to solve this problem. I think 
there was a recognition that you just can't solve this problem 
by putting money on the table and say, ``Go buy water rights.'' 
This isn't a solution that's acceptable to the tribe. 
Therefore, I think there's a reality that all of us on both 
sides come to, saying the time is now, let's get it done, and 
let's find the proper way to do it.
    Mr. Martinez. Mr. Chairman?
    Mr. Doolittle. Yes, Commissioner.
    Mr. Martinez. If I might add to that, I think I at one time 
said that, based on my 30 years in this business, I find that 
if we try to deal with water issues based on consensus, we'll 
never get anything done. You can only go so far. I've yet to 
find any particular project out West where you're going to have 
a 100 percent concurrence. I think where we're at is the 
administration has extended an invitation to the tribes to 
enter into a dialogue to focus the issues and bring this to 
resolution, bring something to Congress that you can make a 
conscious decision on. That's why I committed to assist Mr. 
Hayes and the administration in this.
    Mr. Doolittle. Well, that sounds very encouraging.
    I'll recognize Mr. DeFazio for his questions.
    Mr. DeFazio. Well, following up on that with Mr. Martinez, 
then what sort of timeline would you have in mind for that?
    Mr. Martinez. I'm going to push it as quickly as possible. 
I would hope that we would have something within the timeframe 
that has been expressed today--30 to 60 days. But I can't speak 
for the rest of the administration, because, as you know, on an 
issue like that we'd have to get administrative clearance. But 
I intend to move this thing quickly through the Bureau of 
Reclamation.
    Mr. DeFazio. OK. So you believe 30 to 60 days of 
discussions with the principal tribes could reach--you could 
reach a point of resolution?
    Mr. Martinez. I would hope so.
    Mr. DeFazio. OK. In those discussions, I would assume you 
deal with variances from the existing environmental laws. Then 
if you reach a conclusion with them, I assume there would be a 
substantial proposal.
    Mr. Martinez. Well, I don't think you can--you can get many 
answers from environmental laws. It would appear to me that 
you're going to have to comply with them. But that being said, 
there's been $21 million worth of environmental studies on this 
project that has a--you have a resource on which you can draw 
upon.
    Mr. DeFazio. Have any of those ever been challenged 
legally? Let me reverse the question. Has any of the studies 
every withstood a legal challenge?
    Mr. Martinez. My history, particularly history with people 
on this issue, is it's impossible for me to ask for that. But I 
would assume that it's been challenged and I want recall that 
the--I'd like to correct the record--but I want to recall the 
last order entered by the judge on an issue like this had to do 
deal with cultural resources study and not the need for 
sufficiency.
    Mr. DeFazio. Yes. Well, I understand that previous 
environmental assessments have been found to be inadequate by 
the courts. I don't know which all aspects of that.
    Mr. Martinez. But I'll provide an answer for the record.
    [The information referred to may be found at end of 
hearing.]
    Mr. DeFazio. There's another concern here which goes beyond 
the environment, which goes to local responsibility. I'm 
curious as to how the administration would look upon the 
reduction and the capping of local cost-sharing in the 
alternative. My understanding is, basically, according to the 
Bureau of Reclamations, we've seen phase 1 of Animas-La Plata. 
About 44 percent of Animas-La Plata Lite capped at 10 percent, 
that means a much larger additional burden in the initial 
project phase or, as we're told now, in the final--and initial 
project phase--since that's sort of the assumption here.
    Although I have to get also to the question of, if we're 
going to--if we accepted this, would Arthur and others, 
Governor Romer, accept that we would deauthorize parts of the 
project that weren't consistent and went beyond? But to you, is 
that a problem with the administration?
    Mr. Martinez. Well, let me try and sort of put this in 
perspective. The original project estimated about $400--$754 
million to construct what represented about 55 percent non-
Federal cost-share. As I understand it, the M&I non-Federal 
cost-share was to be paid at 100 percent reimbursement with 
interest. Then you had the large component of irrigated 
agricultural costs. Then, of course, you have the Indian costs 
associated with a project, which were ir-

rigation costs which were deferred under the Levitt Act--the 
M&I costs which would be payable by the tribe at the time they 
put their water to use.
    Under the new proposal, the proposal that is set forth in 
H.R. 3478, we would have a project of about $268 million, of 
which the Federal costs associated with the tribal expenses 
would be deferred--would be nonreimbursable. As I understand, 
the Federal--non-Federal costs would be capped at $29 million. 
So percentage-wise the non-Federal costs are greater under this 
project. But again, it would be the administration's position 
that, as we move forward with a project that would involve non-
Indian M&I uses or other uses, that those costs be payable 
pursuant to reclamation law. For M&I purposes, it would be 100 
percent with interest on that portion that could be allocated 
to the M&I project.
    Mr. DeFazio. OK. So then does 10 percent do that or not?
    Mr. Martinez. We'd have to do the analysis, but my first 
indication said it's not sufficient. It doesn't come up to it.
    Mr. DeFazio. OK, Mr. Chairman.
    Mr. Doolittle. We'd like to thank the members of this 
panel. I'm sure we'll have some other questions and we will 
tender those in writing and hold the record open for your 
responses. We appreciate very much the time you've taken to get 
here and the expertise you've brought with you.
    [The information referred to may be found at end of 
hearing.]
    Mr. Doolittle. We'll excuse the members of panel one and 
begin with the second panel and invite the members of the 
second panel to come forward.
    Let me ask you, ladies and gentlemen, to please rise and 
raise you right hands.
    [Witnesses sworn.]
    Mr. Doolittle. Let the record reflect that each answered in 
the affirmative.
    We're very happy to have you here. We'll begin our 
testimony with Mr. Clement Frost, chairman of the Southern Ute 
Indian Tribe. Mr. Frost.

   STATEMENT OF CLEMENT FROST, CHAIRMAN, SOUTHERN UTE INDIAN 
  TRIBE; ACCOMPANIED BY LEONARD C. BURCH, PAST PRESIDENT AND 
                         COUNCIL MEMBER

    Mr. Frost. Thank you, Mr. Chairman and Committee members.
    First of all, in our traditional way, to you people we 
would like to pay tribute and honor to the two slain officers, 
the warriors of the Capitol Police Office. We hope that our 
Creator will grant the families peace and strength to deal with 
the loss of their loved ones.
    My name is Clement Frost. I'm the chairman of the Southern 
Ute Indian Tribe. I appreciate the time given to me and my 
tribal people. I brought with me Mr. Leonard C. Burch, past 
chairman and now council member of the tribe. I'm here today to 
testify in support of H.R. 3478, the Colorado Ute Settlement 
Act Amendment from 1998.
    On behalf of my people, the Southern Ute Indian Tribe, and 
our tribal council, I ask that Congress fulfill the promises 
that the United States has made to the Southern Ute Indian 
Tribe to pro-

vide water that the tribe needs now and in the future--wet 
water that guarantees the survival of our people and our land.
    I'm also here today to oppose H.R. 745, the bill 
deauthorize the Animas-La Plata Project. In my thinking, H.R. 
745 is a direct slap in the face and dishonor to my tribal 
people and my tribal leadership who have negotiated in good 
faith and have also compromised a compromise.
    H.R. 745 breaks the agreement that the United States made 
with the two Colorado Ute Tribes that was signed into law by 
President Reagan in 1988. It also violates the United States 
trust responsibility to the two Colorado Ute Tribes. Those who 
support that legislation have very short memories. I can 
promise that if Congress were to disauthorize the ALP and 
demand that the tribe return to the negotiating table, my tribe 
would return to court. That's a promise I can fulfill. We would 
sue the United States for its breach of the 1986 agreement and 
we would seek to establish our rights through litigation.
    Why would any tribe negotiate with the United States if the 
Congress is going to back out of any authorized agreement just 
because it doesn't like it anymore? The Southern Ute Tribe has 
been more than willing to work to address the problem that have 
delayed the construction of the Animas-La Plata. Because the 
water is important to my people, we will not walk away from the 
promises that were made in the 1988 Settlement Act. We believe 
the right way to address the issue is facing the ALP is H.R. 
3748. The right way is not pretend that the 1988 Settlement Act 
was never passed.
    When the Ute band find a treaty established in a Ute 
reservation in 1868, the United States promised the Ute people 
that the reservation would be our permanent homeland that would 
support our people forever. The key to carrying out that 
promise is wet water--the fact that the tribal leadership has 
always known, but what the United States has sometimes 
forgotten.
    Former Chairman Leonard C. Burch and former Chairman Chris 
A. Baker worked hard to have the Animas-La Plata Project built. 
They knew that the project is the best way for a tribe to get 
water needs for the future. The future of my people depends on 
making sure that the tribe has a reliable water supply that can 
be used for the continued future development of our homeland 
and our future generations.
    The parties to the original settlement are here today to 
support modification to the 1988 Settlement Act. The foundation 
for the settlement is still the Animas-La Plata Project, but 
only a small portion of the project is required to complete the 
settlement. As a result of those modifications, the tribe knows 
that we will not receive all the benefits that we were promised 
in 1988. But the tribe will get a reliable supply of stored wet 
water that it can control for its own use. That's what we've 
always wanted. We know that construction of a stored reservoir 
is only the first step in putting water to use for the benefit 
of our people. We are confident that, with that supply, we can 
move forward into the next century.
    I want to address the position of the administration. We 
have tried our best to work with the administration to carry 
out the 1988 settlement. So far, we have met with little 
success. Throughout the Romer-Schoettler process, the Federal 
agencies never ac-

knowledged the trust responsibility to our tribes or try to 
help find solutions that would remain true to the spirit of the 
1988 Settlement Act. Now the administration wants to talk to 
us. We received a letter just 2 days ago saying its opposition 
to our proposal was misunderstood and that we need to talk of 
yet another alternative. We don't agree. We understand the need 
to talk, but we have many questions. Let the administration 
understand those representatives must talk with all parties.
    In closing, I want to make three points. First, despite the 
changes of the settlement that had been proposed, we know that 
these compromises will not satisfy all our opponents. We hope 
that you understand the benefits of this settlement to the 
Southern Ute Tribe and recognize the importance of providing 
wet water to the Ute Tribes without taking water away from the 
non-Indian neighbors.
    Second, I want to recognize the honor and integrity of our 
non-Indian neighbors who are the tribes' partners in the 
project. We appreciate their sacrifices to make this settlement 
work.
    Finally, I want to ask you to remember the promises that 
were made in 1868 to the Ute Tribe and confirmed in 1988. 
Finally, to ask at the end, who among you will have the courage 
to fill the cup of empty promises and pass H.R. 3478? Thank 
you.
    [The prepared statement of Mr. Frost may be found at end of 
hearing.]
    Mr. Doolittle. Thank you.
    Our next witness will be Mrs. Judy Knight-Frank, chairwoman 
of the Ute Mountain Ute Indian Tribe. Mrs. Frank.

STATEMENT OF JUDY KNIGHT-FRANK, CHAIRMAN, THE UTE MOUNTAIN UTE 
                             TRIBE

    Ms. Knight-Frank. Mr. Chairman, members of the Committee, 
my name is Judy Knight-Frank. I am the chairman of the Ute 
Mountain Ute Tribe which is located in Colorado, New Mexico, 
and Utah. With me today I have two of our members of the 
council--Rudy Hammond, the vice chairman, and Eddie Dutchie, 
Jr., who is the treasurer of the tribe. He is also the 
representative from the White Mesa Ute community.
    I want to thank you for inviting me to testify in support 
of H.R. 3478 on behalf of my tribe. I especially want to thank 
Congressmen Scott McInnis and Bill Redmond for introducing this 
important bill which we hope will finally settle our water 
rights. This bill is essential to the tribe's future, so they 
may continue the economic self-sufficiency and tribal self-
determination which we have worked so hard to achieve.
    I would ask that my written statement be included as part 
of the record. I also have a letter from some tribal elders 
which I ask also be included in the record.
    [The information referred to may be found at end of 
hearing.]
    Ms. Knight-Frank. As the Committee is aware, H.R. 3478 
seeks to amend the Colorado Ute Indian Water Rights Settlement 
Act of 1988. The Animas-La Plata Project was a key part of the 
1988 Act. After a decade of delays in construction on ALP, the 
tribes went to the Secretary in August 1996 to ask for help. 
Secretary Babbitt told us he agreed that a new water storage 
facility was the only way to settle the tribe's water rights 
without tearing apart the social and economic fabric of the 
area. He told us to ask Governor Romer to assist us with 
bringing all the parties together to come up with a consensus 
project.
    We did this, and the process resulted in two alternatives--
a reduced ALP and a proposal which would have the tribes buying 
land and water in the area. The tribes have formally rejected 
any money for land deal because it is environmentally and 
physically unworkable.
    H.R. 3478 represents the tribe's efforts to answer 
environmental and fiscal questions about ALP. Our proposal 
reduces Federal costs of the project by two-thirds. The tribes 
are getting less water than promised before but are asking to 
pay less for it. All of the irrigation facilities have been 
removed from the project. As you will hear today, this answers 
New Mexico's concerns about water quality.
    Finally, H.R. 3478 also provides the means to assure the 
successful recovery of endangered fish in the San Juan Basin. 
That program simply cannot continue without the support of the 
tribes and the construction of the three facilities identified 
in this bill.
    A nearly identical bill, S. 1771, was introduced in the 
Senate Indian Affairs Committee in March. I presented testimony 
at a hearing on that bill on June 24.
    As we were told to do, the tribe submitted its testimony on 
time, so the committee could prepare for the hearing. We had 
been told by administration officials that any opposition to S. 
1771 would be weak. As with many other things told to American 
Indians, this was far from the truth. The administration, 
through the same designated representative present today, 
Commissioner Martinez, gave us its testimony only 2 hours 
before that hearing. They strongly opposed S. 1771, and only a 
few words have changed in their testimony today.
    Secretary Babbitt wrote to me and told me that the 
administration is prepared to enter into a good faith dialogue 
with the tribe to solve our water rights. We have had over 10 
years of the administration's good faith--and let me tell you, 
their good faith doesn't hold water. The entire time we 
negotiated with project opponents, the administration has sat 
on the sidelines. They knew what we were doing every step of 
the way. They knew what this bill looked like months before it 
was even introduced. Yet they never told us what they really 
thought until just before that--last month's hearing. Nothing 
has changed here today.
    We find it completely unfair for the administration to 
refuse to support a project which does not contain delivery 
facilities when it was exactly that project feature which 
previously caused them so many concerns. It is also unfair for 
the administration to state that environmental laws will be 
violated by the project set out in this bill. We all know this 
is not the case, as these three features of the original 
project were studied extensively--now, in fact, the only 
features authorized by the U.S. Fish and Wildlife Service. The 
bill must contain a statement that 15-plus years of studies are 
sufficient or the United States together with the tribes may be 
in court for another 10 years.
    Finally, the Commissioner's written statement explains that 
David Hayes, counselor to the Secretary, has contacted the 
tribes. Well, Mr. Hayes allegedly faxed us a letter last night. 
This is not good enough. If Mr. Hayes is now the point person 
on our water settlement and ALP; I ask the administration and 
this Committee, where is David Hayes today? As far as the tribe 
engaging in a dialogue with Mr. Hayes, we will only consider 
doing so when the administration agrees. We are not starting 
over. We must focus on this bill. Based on past experience, we 
do not expect that to happen. I ask this honorable Committee to 
schedule this bill for markup and move it to the floor. Only 
then will the administration see that Congress is serious about 
not breaking anymore promises to the Indian tribes.
    A promise has been made and a promise has been broken. For 
the administration to say there was no guarantee ALP would be 
built is simply not genuine. We have complied with every law 
and are now asking for even less. It's time for action.
    I again thank you for your time and express my sadness at 
the loss we all sustained last Friday. Such violence affected 
our area recently, taking the life of a Cortez Colorado city 
police officer. Thank you.
    [The prepared statement of Ms. Knight-Frank may be found at 
end of hearing.]
    [The information referred to may be found at end of 
hearing.]
    pages 11 to 16
    Mr. Doolittle. Thank you.
    Our next witness will be Mr. Sage Douglas Remington of the 
Southern Ute Grassroots Organization. Mr. Remington.

 STATEMENT OF SAGE DOUGLAS REMINGTON, SOUTHERN UTE GRASSROOTS 
                          ORGANIZATION

    Mr. Remington. ``Mike-Ku.'' In the native Ute language, I 
thank you for this opportunity to testify on H.R. 3478 and H.R. 
745. I am the spokesperson for the Southern Ute Grassroots 
Organization, which is a group of Southern Ute Tribal members 
who live on the Southern Ute reservation in Colorado, and who 
are in support of H.R. 745 and opposed to H.R. 3478.
    I've been instructed by the SUGO Elder Council to present a 
cultural and spiritual perspective that is in conflict with the 
mainstream political and cultural value system. My colleagues, 
in opposition to ALP, will speak about the environmental, 
taxpayer, and economic concerns that we all share.
    The roots of SUGO go back to 1989, when a group of 
concerned Southern Ute Tribal members formed the Committee For 
Better Tribal Government. The committee's principal concern was 
that the best interests of the majority of the Ute people were 
not properly being represented in the Animas-La Plata 
Reclamation Project. This group of Southern Ute tribal members 
gathered the necessary signatures to institute a recall for the 
tribal council. With some questionable maneuvering, the 
incumbents succeeded in disqualifying one recall vote, thus 
resulting in a tie. Under the tribal constitution, the tie 
preserved the status quo. Dissatisfied with ALP, abuses of 
power and lack of responsiveness by the tribal government did 
not fail--did not die after this failed recall attempt. The 
organizers of the Committee for Better Government proceeded to 
form the Southern Ute Grassroots Organization.
    Our Ute people have maintained a connection with the land 
and water since they were loosely confederated bands of a 
people called the ``Nuche.'' We believe that rocks, trees, the 
rivers, and the Earth are alive, and we have lost much of our 
land base through the violence, assault and legal manipulations 
that have separated the Utes from their land and water. The 
Utes share with other traditional tribal peoples three primary 
political principles--two, rather. All land, water, and other 
natural resources are communally owned by the tribe; private 
ownership of land, water, goods beyond those of the immediate 
household are unthinkable. And all tribal decisions are by 
consensus, in which every tribal member participates.
    There has never been a general council meeting of the Ute 
people dedicated to discussions about the benefits of the 
Animas-La Plata Project. In general council meeting, every 
adult member of the tribe is permitted to speak, and discussion 
continues until consensus is reached. Questions and concerns 
about this project, the original ALP and ALP Lite have gone 
unanswered.
    In December 1996, SUGO held a meeting with members of the 
Southern Ute tribal membership to discuss an alternative to 
Animas-La Plata project, and it was at this time that the Ute 
Legacy Land and Water Fund concept was developed. Ute tribal 
members who had land assignments and allotments were asked, 
``What would you like to see result from this project?'' Their 
responses were unanimous. Ute tribal members wanted to restore 
the integrity of the traditional Ute land base with purchases 
of land and water rights on the reservation.
    It is with a heavy heart that the Southern Ute Grassroots 
Organization must declare its support for H.R. 745, a bill that 
would deauthorize the old project. It is not the answer, but it 
is a possibility of the beginning of a new solution. This 
project was never clearly defined in terms of benefits to the 
Southern Ute tribal members. It can never be constructed as 
originally planned until the 1986 Settlement Agreement.
    H.R. 745 directs the Secretary of Interior to negotiate an 
alternative that is consistent with all the Federal laws. An 
alternative to ALP should provide the full amount of water 
allocated to the tribes in the 1986 Settlement Agreement. ALP's 
a parody of the history of the American West. It's become a 
saga of lies--lies, half-truths, and myths.
    ALP has its own mythology. Ute people do not haul water by 
the bucket. Ute people are not drinking dishwater on this very 
day with bugs and debris a part of the water.
    I'm reminded of a scene that took place here in Washington, 
DC, on May 2, 1948. The Federal Government forced a strong-
armed settlement on the Mandan, Hidatsa, Arikara Tribes to make 
way for the Garrison Dam on the Fort Berthold Indian 
Reservation in North Dakota. This picture illustrates the heavy 
heart of George Gillettee, chairman of the Fort Berthold Indian 
Tribal Business Council, as he is forced to sign an agreement 
for the dam. This is not how Indian water projects should 
continue to develop. The Southern Ute tribal membership must 
have a voice in the decisionmaking process of any ALP water 
project, and it can be done.
    ``Tuvus-Togoy-Ax.''
    [The prepared statement of Mr. Remington may be found at 
end of hearing.]
    Mr. Doolittle. Thank you.
    Our next witness will be Mr. Jim Isgar, member of the 
Animas-La Plata Water Conservancy District. Mr. Isgar.

   STATEMENT OF JIM ISGAR, MEMBER, THE ANIMAS-LA PLATA WATER 
                      CONSERVANCY DISTRICT

    Mr. Isgar. Good afternoon. My name is Jim Isgar. I'm a 
board member of the Animas-La Plata Water Conservancy District. 
I'm joined today by Charlie and Freda Blasingame, and Elbert 
and Nila Hamblin, La Plata River irrigators from New Mexico.
    Let me thank the Committee for the opportunity to be here 
and for your support in the past. I am a farmer/rancher in La 
Plata County, Colorado, in Southwest Colorado, on private land 
that lies entirely within the boundaries of the Southern Ute 
reservation. My grandfather homesteaded on another part of the 
reservation near Ignacio.
    Approximately 50 years ago, my father moved to our present 
location near the La Plata River. The soil is good, but the 
water supply was limited, but there was talk of a water project 
that would bring water from the Animas River to the La Plata 
Basin. My dad became involved in working on the water project, 
and finally, after 20 years in 1968, the Animas-La Plata 
Project was authorized by Congress.
    My dad was here in Washington for the signing of that bill. 
I was 17 at the time. My dad told me that he would be too old 
to benefit from the water by the time the project was built, 
but that it would be a great thing for me. The project at that 
time included water for the Ute tribes. That amount became more 
quantified when it became necessary to resolve the Tribal 
Reserve Water Rights claims. It hinged on the building of the 
Animas-La Plata Project. The La Plata River only had a fraction 
of the water necessary for the current non-Indian irrigators. 
It was obvious to all involved that the only solution to the 
Tribal Settlement Act was storage. When the Water Rights 
Settlement Act was signed, we thought we were at last done.
    Over the past 10 years, we have actively pursued the 
project; however, a variety of issues has slowed us down. We 
have been sued by the environmental community, the Fish and 
Wildlife Service has determined that the Colorado squawfish 
might be impacted by the project, and we've began a 7-year 
program to determine what that effect might be. Our involvement 
in that process resulted in the Fish and Wildlife Service 
allowing us to construct the three facilities that are included 
in this bill.
    The Service also recognized the depletion of 57,100 acre 
feet could occur without adverse effect on the squawfish. In 
order to address as many of the environmental concerns as we 
could, we agreed to participate in Governor Romer's process. 
This is a frustrating process for irrigators because, after 
nearly 50 years of working on an irrigation project, it became 
obvious that in order to resolve the tribal claims and appease 
the environmental community, it would be necessary to give up 
the opportunity for a new irrigation water supply. We assumed 
it was a sacrifice of that mag-

nitude, that the opponents of the Indian Settlement would be 
satisfied and would allow the project to move forward in this 
very limited way. This has not been the case.
    I have reviewed Commissioner Martinez's testimony. Let me 
tell you how it reads to a farmer/rancher from La Plata County. 
The administration is proposing to meet with us, but this is 
after we've had 2 years of meetings in which they've had 
nothing constructive to add. They are proposing more studies, 
after, and we've heard $20 million--I think, if you include the 
squawfish studies, closer to $40 million--in studies that have 
already been done. To me, it appears they are only trying to 
delay and avoid fulfilling their responsibilities under the 
Indian Settlement agreed to by Congress in 1988.
    In conclusion, we would ask for your support for H.R. 3478. 
It represents a compromise that the tribes will accept. It 
represents a compromise that the non-Indians can reluctantly 
accept. Each facility proposed has received environmental 
scrutiny, and has been approved by the Fish and Wildlife 
Service, and it drastically reduces the Federal cost.
    We would also ask you to oppose H.R. 745. It guarantees 
litigation, at a great expense to you and to me, and does 
nothing positive to resolve the water shortage.
    Your support for positive resolution to these problems 
would be appreciated. We have to solve these Indian water 
claims. If we don't, I will lose the water I have now. I don't 
want to have to explain to my boys, who are now 17, and to my 
neighbors, why we don't have any water. Thank you.
    [The prepared statement of Mr. Isgar may be found at end of 
hearing.]
    Mr. Doolittle. Thank you. Is this squawfish one of those 
types of fish that the Fish and Game Agencies were trying to 
eliminate a few years ago?
    Mr. Isgar. That's the one.
    Mr. Doolittle. And now it's become an endangered species 
and we're having to spend millions to save it, is that what 
you're telling me?
    Mr. Isgar. We're spending millions to study----
    Mr. Doolittle. Study it, right.
    Mr. Isgar. To see if this has an effect, if the project has 
an effect.
    Mr. Doolittle. But that's the reason the withdrawal has 
been dropped down to--what, 57,008 feet?
    Mr. Isgar. Fifty-seven thousand one hundred, from 
approximately 150,000, which effectively eliminated the 
irrigation from the project.
    Mr. Doolittle. Well, if it isn't an endangered species and 
it has an impact on it, it doesn't make any difference, does 
it?
    Mr. Isgar. Excuse me?
    Mr. Doolittle. If the squawfish were not an endangered 
species and the environmental analysis found the withdrawal had 
an impact on it, you could still make the larger withdrawal, 
couldn't you?
    Mr. Isgar. I would assume so.
    Mr. Doolittle. But, I thought I read somewhere that this 
was looked upon either as an endangered species or a threatened 
spe-

cies. Is that still undetermined as to whether it's threatened 
or not?
    Mr. Isgar. It's a listed species.
    Mr. Doolittle. OK, so we've got a listed. I thought that 
the history you gave of all of this was most interesting. 
Sounds like you didn't mitigate much of the opposition by going 
through all of these revisions, or the process that led to that 
short list over there on the righthand side of the chart as 
opposed to what's on the lefthand side of the chart.
    Mr. Isgar. Well, you know, as an irrigator, I currently 
farm and ranch on the La Plata River, and we have a limited 
water supply, and most of the water runs out quickly in 2 or 3 
months in the spring. My irrigation water this year quit 
probably the first week in June, last month. It's not nearly 
enough for the current irrigators, but if we don't solve the 
Indian water claims, we could lose all the water we have now. 
And it wasn't an easy decision for us to eliminate the 
irrigation, especially as I've talked about, our family's 50-
year involvement in building an irrigation project. But the 
reality was, if we didn't eliminate the irrigation features, we 
couldn't move forward.
    Mr. Doolittle. See, what I don't understand is, though, now 
you've eliminated the irrigation features, who of all those 
opposed to the irrigation features dropped their opposition 
because you got rid of the irrigation features?
    Mr. Isgar. We could ask them to stand up, I guess.
    [Laughter.]
    Mr. Doolittle. I mean, that's what I was wondering. It 
sounds like we didn't drop any opposition. Might as well put 
the irrigation features back in.
    Mr. Isgar. Well, I don't know of anybody that dropped their 
opposition, unless they're all standing by me now, but.
    Mr. Doolittle. I didn't see anybody; nobody raised their 
hand.
    Mr. Isgar. I was afraid to look myself.
    [Laughter.]
    Mr. Isgar. No, really, the reality was we gave up 
irrigation in order to move the project forward, and why did we 
do that? Because we feel like we have to solve Indian water 
claims, or we could potentially lose the irrigation water we 
have now.
    Mr. Doolittle. The odd thing about this, to me, sitting 
here listening to this, is that the Indian tribes are as 
supportive of this bill as are the non-Indian interests. And 
yet we still have this opposition. We have Mr. Remington 
representing one of the aspects of the opposition, although I'm 
sure that's not the only one.
    But let me ask Mr. Remington: You've talked about the--I 
don't know if I'm pronouncing this correctly--the SUGO tribal 
council?
    Mr. Remington. No, the Southern Ute Grassroots 
Organization.
    Mr. Doolittle. No, but in that I thought you referred to 
something called the SUGO--I know, I'm sorry, I know you 
represent the Grassroots Organization, but you referred to 
something called the SUGO tribal council, didn't you?
    Mr. Remington. No, I didn't. The SUGO elder council.
    Mr. Doolittle. Oh, the SUGO elder council. Well, what's 
that?
    Mr. Remington. It is a group of tribal elders who give 
direction to myself and to other people within the organization 
to follow a plan in how we're going to best define our 
strategy. There are four ex-tribal council members and one 
former tribal council chairman who is a member of the elder 
council.
    Mr. Doolittle. So we have expertise; we have the history in 
terms of how the project was developed, and we still feel that 
there are modifications that could be made to best address the 
water project that would be specifically for the Indians? While 
I admire the two tribes' magnitude in sharing their largess 
with the overall community, I think this project was defined as 
a Ute Indian water project, to settle Ute water claims, and we 
feel the solution should reflect that.
    Let me ask Mrs. Frank or Mr. Frost: Does the SUGO elders 
council or the Southern Ute Grassroots Organization have some 
official recognition within your tribe?
    Mr. Frost. The SUGO have none, none at all. They're not 
recognized as an organization that has any type of a power or 
authorization to act on behalf of the tribe, in order to sign 
agreements, in order to voice any opinion on behalf of the 
tribe. There are only five members that I know that belong to 
SUGO. You can count them on one hand. I believe the committee 
that he is referring to--we have a committee of elders that the 
tribal council puts together, that takes care of the rest of 
the elders and the handicapped to see that services are 
provided to them, that their needs are met as far as their home 
and health, and whatever needs that need to be brought. They 
are the council's right arm as far as given us information 
whether service is provided to those elders out there.
    The elders have never signed or had any type of resolution 
pertaining to the council regarding the statements made by Mr. 
Remington. In fact, none of the--most of the Committee of 
Elders do not agree with the concept presented by Mr. 
Remington. Nor is Mr. Remington a traditional--recognized as a 
traditionalist or a spiritual leader of the tribe in mentioning 
some of the aspect that deals with traditional way of life.
    Mr. Doolittle. So, as far as you know, there's only five 
members of the Southern Ute Grassroots Organization?
    Mr. Frost. That's all that I know who have been participate 
in fully. The rest that have attended meetings, their meetings, 
they have expressed--they're not SUGO, but they go there, 
interested tribal members to see what these members say. But 
they're counted as part of this group, and they don't 
appreciate that, being counted as part of this group.
    Mr. Doolittle. And how many members, would you say, are 
there of the Southern Ute Indian tribe?
    Mr. Frost. I, as elected leader, and my tribal council 
members elected to this positions, we talk, are the voice of 
1,370-plus tribal members.
    Mr. Doolittle. Thirteen hundred and seventy. OK. Well, 
thank you. My time is up, and I'll recognize Mr. DeFazio for 
his questions.
    Mr. DeFazio. Thank you, Mr. Chairman.
    Mr. Remington, since he didn't give you an opportunity, did 
you want to respond to any of that line of questioning?
    Mr. Remington. Thank you, yes, I would. I think that there 
are many people in this room and who have been a part of the 
Animas-La Plata process, who have forgotten one basic tenet 
that governs all of us, and that is the issue of democracy.
    Last year, Congressman McInnis during a congressional 
briefing, asked me, was I an elected official, and I told him, 
no, I wasn't, and nor did I ever pretend or purport to be. But 
I am a voter, and a taxpayer, and an American Indian, just as 
other people in the Southern Ute Grassroots Organization are.
    Our definition of the people that belong--we're not a 
membership organization. We are an organization that helps 
facilitate changes that must take place on the reservation. 
Animas-La Plata is one of those problems. In addition, our 
membership, if we can call it that, we do not go, or prescribe, 
to a membership system as you would find in the dominant 
society. There are people who are representatives of families 
who come to the meetings, who then, in turn, go back to their 
respective collection of family members and distribute the 
news. So, membership, or representation at these meetings never 
really has been an issue.
    I would think that Mr. Frost should probably look at his 
own tribal council general meetings and see how many people 
attend that. But, no, democracy does exist, even for American 
Indians, and we have a right to determine whether we want to 
make any opinions heard regarding issues that affect us on a 
local level, on the reservation level, in the county, or 
anywhere else. Thank you.
    Mr. DeFazio. Thank you, Mr. Remington.
    Mrs. Frank, or Mr. Frost--either or both--I did not 
intimately follow the Romer/Schoettler process, so I'm not 
certain whether the cap on cost-sharing came from that process, 
or was added in the legislative drafting process. I'm wondering 
if it was the tribes who initiated the cap on cost-sharing for 
non-Indian water users. I would assume it wouldn't have been 
your initiative, or obviously in supporting legislation, would 
have agreed to it.
    I'm just wondering, did that come out of the Romer/
Schoettler process or did that come in the legislative drafting 
process? Because the cap, if you go back to Animas-La Plata 
Project, and you look at phase 1(a), the Federal obligation 
would have been $92 million. If you look at the drafted 
legislative proposal, the Federal obligation goes up to $217 
million, and it caps the other users' obligations.
    Mr. Israel. Congressman, my name is Dan Israel. I'm 
representing the Ute tribe.
    Mr. Doolittle. Let me just, sir, if you're going to 
testify, we'll have to swear you in. And that's fine; we're 
willing to do that. Just raise your right hand.
    [Witness sworn.]
    Mr. Doolittle. OK. Would you tell us your name, then, 
please?
    [Laughter.]
    Mr. Israel. Yes, Congressman.
    Mr. Doolittle. I knew what you meant. Thank you. Tell us 
your name and who you represent.
    Mr. Israel. My name's Dan Israel, and I am representing the 
Ute Mountain Ute Tribe.
    Mr. DeFazio. OK.
    Mr. Israel. The M&I cost-sharing, Congressman DeFazio, is 
an effort to carry forward the 1986 cost-sharing agreement 
terms that were agreed to by all parties, and so those dollars 
are simply carried forward today by the M&I users.
    Mr. DeFazio. But, the Federal Government somehow ends up 
paying an additional $125 million more.
    Mr. Israel. Well, that's not quite correct, because what 
we've tried to do in these amendments is take an overall 
expenditure of about $720 million and reduce it down to about 
$280 million.
    Mr. DeFazio. So, we're not comparing phase 1(a), which has 
some comparability to Animas-La Plata Lite; we're comparing 
Animas-La Plata Lite to the entire Animas-La Plata Project.
    Mr. Israel. Well, in answering the question about the 
Federal obligation, it's been reduced by about $350-$400 
million.
    Mr. DeFazio. In terms of the entire project, but in terms 
of that upon which most of the work was done, and we're hearing 
a lot of discussion about all of the environmental work and all 
the other things that have been done, that was done on phase 1, 
or the first part, of Animas-La Plata. But the way you're 
getting consistency here is to say, well, the Federal 
Government, if we had ever built the entire project, and we 
hadn't even figured out--no one at the Federal Government had 
taken any steps, really, to go beyond the phase 1 part, but if 
they had, it would have cost this much more, and therefore, the 
Federal Government's saving money under the terms. That's what 
you're saying here.
    Mr. Israel. Well, I think perhaps to clarify, these three 
facilities are under our amendment. They also are under stage A 
of the existing legislation. Under stage A of the existing 
legislation, they would have been subject to repayment as M&I 
water. Under our amendments, they are partially subject to 
repayment. Part of it is a waive in terms of the tribe's 
repayment obligation. So if you look at these three facilities 
only, I think it's correct to say that there is less repayment 
under our amendments than there are under the stage A 
description.
    Mr. DeFazio. OK. I wanted to clarify that. Thank you.
    Mr. Doolittle. I'd like to thank the members of this panel 
for your appearance. We will perhaps have further questions; 
I'm sure we will. And we'll hold the record open for your 
responses.
    [The information referred to may be found at end of 
hearing.]
    Mr. Doolittle. We thank you very much for coming, and we'll 
excuse you at this time, and call forward our final panel, 
panel No. 3.
    [Witnesses sworn.]
    Mr. Doolittle. Let the record reflect that each answered in 
the affirmative.
    We're pleased to have you here, and we'll begin with Mr. 
Orion Utton, rancher from Farmington, New Mexico. Mr. Utton.

STATEMENT OF ORION UTTON, PRESIDENT, ANIMAS RIVER AGRICULTURAL 
      WATER USERS ASSOCIATION, SAN JUAN COUNTY, NEW MEXICO

    Mr. Utton. Mr. Chairman, and Committee members, I am Orion 
Utton, President of the Animas River Agricultural Water Users 
Association. I feel honored and privileged to testify before 
this Committee in support of H.R. 745 and in opposition to H.R. 
3478.
    The members of the Animas River Agricultural Water Users 
Association are major stakeholders in this Animas-La Plata 
issue. The water that would be used for Animas-La Plata project 
is the same water that we now use to grow our crops. We are 
very concerned that the project will seriously threaten the 
water supply that we depend on to grow alfalfa, corn, wheat, 
oats, and fruit and vegetables.
    The Bureau of Reclamation documents for the Animas-La Plata 
Project point to 225 cubic feet per second of water that would 
be allowed to bypass the pumps at Durango during the summer 
months. They state that this water would be for the ecology of 
the river, but we believe that this may be the only water that 
would be bypassed for agricultural uses. The supporters claim 
that senior water rights will be protected, but there is no 
Bureau of Reclamation documentation as to how senior water 
rights will protected.
    I know the ditch system in San Juan County better than 
anyone. I served as a county extension agent for 20 years, and 
while employed by the New Mexico State University Extension 
Service, I worked extensively on water and ditch system issues. 
I have also farmed all my life and own a 45-acre farm.
    Attached to my testimony is a document prepared by Dennis 
Cooper, a water engineer from Santa Fe. This document 
summarizes the adjudicated water rights on the Animas River. 
The point of the document is that these ditches have the legal 
right to divert a great deal more water than the 225 cubic feet 
per second described in the Bureau of Reclamation documents for 
the Animas-La Plata project. That is not enough water to supply 
legal diversions for the Animas River irrigators. Every year 
would be a dry year.
    With Animas-La Plata Lite, we simply do not know how much 
water we would get. There have been no studies, so nobody 
knows. But the real danger is that Animas-La Plata Lite does 
not deauthorize the full project. We believe that the scaled-
down version of the project is quite simply a ploy to get a 
foot in the door so that the full-scale project could be built 
later. There is no other plausible explanation for the 
supporters wanting to build almost a full-size dam and pumping 
plant. Our wet water would be turned into paper water, and you 
cannot farm with paper water.
    A few years ago, 62 percent of the population supported the 
Animas-La Plata project, but now we are beginning to realize 
what would happen to the Animas River if the project were 
built. Now, only 34 percent are in favor of the project. The 
Animas River agricultural water users do not want this project.
    Please oppose H.R. 3478 and support H.R. 745. This is the 
time to deauthorize the Animas-La Plata project. Do not make it 
easier to build. Thank you for the opportunity to testify. I 
invite you to ask questions about this issue.
    [The prepared statement of Mr. Utton may be found at end of 
hearing.]
    Mr. Doolittle. Thank you.
    Our next witness is Mr. George Arthur, vice chairman of the 
Resources Committee of the Navajo Nation Accounts. Mr. Arthur.

STATEMENT OF GEORGE ARTHUR, VICE CHAIRMAN, RESOURCES COMMITTEE, 
                   THE NAVAJO NATION ACCOUNTS

    Mr. Arthur. [Speaks briefly in native tongue.]
    Honorable members of the Committee here, Mr. Chairman, I 
bring you tidings from the Navajo Nation. I'm here to speak on 
behalf of H.R. 3478.
    Just a few minutes ago, we also witnessed the sympathy and 
gracious dedications that have been offered by men of honor 
such as yourself, and it's not something that's unknown to the 
Navajo people. Just recently, as Mrs. Judy Knight-Frank 
indicated, we participated in the manhunt that is ongoing in 
the Four Corners area. We, as Navajo Nation police officers, we 
certainly extend to the Chestnut family, and the other 
gentleman's, our sincere sympathy.
    And also, in this discussion, there was a word that was 
mentioned: extended family. Extended family on this Hill had a 
lose, and we certainly extend our sympathy to people such as 
yourself. The Navajo people know very well what extended family 
means. Ironically, Navajo Nation has a clan system, and 
ironically, my clan is of the Ute clan, the very people that 
sit here before you. So Mrs. Judy Knight-Frank is my mother by 
clan, and the gentleman from the Southern Ute is my uncle. So, 
that's the uniqueness in the way of how I'm here.
    We have before you a written testimony, which I will submit 
for the record. But the Navajo Nation has three major 
components of their support, and has stated an amendment that 
would be in the record, one being, although the amount of water 
provided to the Navajo Nation would also be reduced, we are 
willing to accept such reductions provided H.R. 3478 is amended 
to authorize a pipeline for the delivery of all project water 
to the Navajo Nation. This was recently alluded to by other 
witnesses, being the Farmington/Shiprock water pipeline.
    Secondly, we are in support to H.R. 3478, contingent on 
amendment that would expressly state that the Navajo Nation 
water rights are not affected by this legislation.
    Thirdly, we also support H.R. 3478, contingent on the 
amendment that would require any water developed under Permit 
Number 2883, if such permit is transferred pursuant to section 
6 of the Act, to be subject to the same requirements under the 
Endangered Species Act that would have been applicable in the 
absence of such transfer. Those, gentlemen, are the amendments 
that we requested.
    In the previous hearing that we had before the Senate, 
Senator Nighthorse Campbell indicated that such amendments 
would be acceptable to him. So, with that, I would ask that, in 
light of the extended family concept, that the Navajo Nation is 
a position, and I, as a member of the Ute clan, would offer to 
my mother, the Ute tribe, and to my uncle, the Southern Ute 
tribe, a cup of water that you, as a child, might have offered 
to your mother, in the days when there were hot summers and 
when she thirsts.
    Thank you, gentleman.
    [The prepared statement of Mr. Atcitty may be found at end 
of hearing.]
    Mr. Doolittle. Thank you very much.
    Our next witness is Mrs. Lori Potter, an attorney with 
Kelly, Haglund, Garnsey and Kahn.

 STATEMENT OF LORI POTTER, ATTORNEY, KELLY/HAGLUND/GARNSEY AND 
                     KAHN, DENVER, COLORADO

    Ms. Potter. Thank you, Mr. Chairman, members of the 
Committee. For the record, it's ``Ms.'' Potter. The only Mrs. 
Potter is my mother. She's a spirited public citizen, but she's 
not here today.
    Mr. Doolittle. Well, I apologize. They had ``Mrs.'' Down 
here.
    Ms. Potter. No problem, but she would want me to set the 
record straight.
    Thank you for this opportunity to testify on H.R. 3478 and 
H.R. 745. I'm from Denver, Colorado. I'm a lawyer, and I 
represent, and have for the last 10 years represented, national 
and local environmental groups and taxpayer groups seeking 
alternatives to the proposed Animas-La Plata project. On behalf 
of those groups and their members, I want to thank Congressmen 
DeFazio and Petri for introducing H.R. 745, a bipartisan bill 
with 28 cosponsors, and for championing this issue in Congress 
for many years.
    Animas-La Plata is widely known as ``Jurassic pork'' due to 
its tremendous size and cost, its dismal cost/benefit ratio, 
its unfeasibility, its environmental impacts--all of which 
belong to a dam-building era that's long past. Animas-La Plata 
Lite perpetuates many of those same problems.
    First of all, Animas-La Plata Lite does not deauthorize or 
leave the full Animas-La Plata Project behind. The bill H.R. 
3478 holds open the possibility, both legal and financial, that 
the entire project, all of the components you see written in 
the chart under ``phase 1 facilities'' and ``phase 2 
facilities'' will eventually be built.
    The reservoir and dam are sized at 92 percent of their 
original project size, and the project proponents, in their 
materials and in their statements to the press and others, are 
quite frank and quite freely admit that they would like to come 
back and build the entire project eventually. So Animas-La 
Plata Lite does carry on the problems and the criticisms that 
have been made of the full Animas-La Plata project. And it has 
a few of its own, as well.
    Some of this has been alluded to here today: the cap on the 
state and local cost-sharing. The fact that the State and local 
cost-sharing is a smaller percentage of the overall price tag, 
than was the case under the full Animas-La Plata project. The 
fact, as I've said, that the full project is not deauthorized, 
and the environmental impacts that loom from damming and 
depleting the flows of a free-flowing western river, damming 
another creek and pumping the water 500 vertical feet into that 
basin, where it will sit until it is returned to the very same 
river. All of which environmental impacts have been documented 
in an environmental impact statement which has been disapproved 
by the EPA.
    My clients are seeking a taxpayer-friendly and 
environmentally friendly alternative to Animas-La Plata and 
Animas-La Plata Lite. We also seek a solution that resolves the 
Indian water right issues that make this such a difficult 
problem. We have proposed two alternatives in the process that 
you've heard talked about here today. Those include the use of 
existing Federal facilities that store water, some of which 
water is stored for and delivered to these very tribes, and the 
acquisition of water from willing sellers, upstream of and 
within the reservations in question.
    We support H.R. 745 because it is a bill designed to do two 
things: to direct the Secretary to negotiate an alternative 
solution with the tribes, and to make it clear that the old 
Animas-La Plata must be abandoned as unfeasible. H.R. 745 
alone, of the two bills, does these things. By contrast, ALP 
Lite and H.R. 3478 perpetuate the old problems and invite some 
new ones.
    H.R. 745 directs the Secretary to negotiate an alternative 
that's consistent with all Federal laws. All parties should 
endorse nothing less than a resolution that complies with the 
law. We've heard the administration speak of its opposition to 
any alternative which does not comply with the law. That is, 
after all, what all of the project sponsors--all of the project 
participants--committed to do in the 1986 settlement agreement 
and in the cost-sharing agreement for this project.
    The virtue of H.R. 745 is that it provides a way to address 
all of the legitimate interests and problems that have been 
raised here. We hope that the Committee will act on H.R. 745 
and use it as a way to bring closure to this matter. Thank you.
    [The prepared statement of Ms. Potter may be found at end 
of hearing.]
    Mr. Doolittle. Thank you.
    Our final witness will be Mr. Mark Duncan, Chairman of the 
San Juan Water Commission in New Mexico. Mr. Duncan.

STATEMENT OF MARK DUNCAN, CHAIR, SAN JUAN WATER COMMISSION, AND 
    CHAIRMAN PRO TEM, SAN JUAN COUNTY COMMISSION, NEW MEXICO

    Mr. Duncan. Mr. Chairman and members, I'm Mark Duncan, 
chairman of the San Juan Water Commission and chairman pro tem 
of the San Juan County Commission, and with me today I have Mr. 
Jim Dunlap, chairman pro tem of the San Juan Water Commission. 
I would like to thank you for the opportunity to appear today 
to support the passage of H.R. 3478.
    I am here because, as an elected official, I have 
responsibility to 110,000 New Mexicans to ensure their supply 
of drinking water. We need reliable, renewable water from the 
river system because we have no potable groundwater. We don't 
have the luxury of 75 inches of rain per year. We have less 
than 10 inches of rain per year. Even more critical is the fact 
that most of the member entities of the San Juan Water 
Commission are right now using this water when it's available. 
If they cannot use that water now, they would be scrambling for 
a drinking water supply.
    The revised ALP embodied in this new legislation would 
enable us to build the storage necessary for sustained M&I use. 
That's why I'm asking you to support it. We have solid support 
from 110,000 people in the San Juan County for this project, 
including ten rural water associations and the towns of 
Farmington, Aztec, and Bloomfield. The voters in San Juan 
County voted overwhelmingly in favor of this project, and we 
have taxed ourselves to pay our share of this project.
    H.R. 3478 is the product of 2 years of tough negotiations 
and sacrifice, as Governor Romer so accurately explained. We in 
San Juan County sacrificed a significant portion of our 
depletions, almost one-third, so that the compromise would 
work. That is our bottom-line sacrifice. Any more, and the 
water commission has to start cutting back on water depletions 
that most of the three towns and ten rural water associations 
are already using.
    As you know, it is very difficult to take away a benefit 
once you've handed it out. The administration's testimony at 
the Senate hearing last month, however, puts us in that 
difficult spot. The administration said we should scrap the 
revised ALP and begin again. They attended 2 years of meetings 
in Governor Romer's process, but offered no solutions. We have 
given you our best compromise. The administration, if it had 
been listening, would have known that.
    Now, the administration wants to dump the non-Indians and 
pay off the Indians. We cannot be paid off, because we must 
have wet-water storage. We negotiated in good faith for 2 
years, but apparently the administration did not. We, frankly, 
have had all the good faith we can stand from the 
administration.
    The list of alternatives has been examined time and again; 
first during the exhaustive NEPA process, at the expense of $21 
million and a 3-foot-tall stack of paper, and again during 
Governor Romer's process. The Indian tribes, the irrigators, 
and domestic suppliers, like the San Juan Water Commission, 
developed a workable compromise. The administration appears 
determined to pit neighbor against neighbor. H.R. 745 does the 
same thing, by deauthorizing the ALP and instructing the 
Secretary to negotiate only with the tribes. This is wrong and 
should be defeated.
    New Mexico's water will not be held hostage to negotiate a 
final settlement with anyone. If the administration is so 
intent on negotiating and settling only to tribes' right, they 
will do so without New Mexico water.
    We also received a letter from Mr. David Hayes, in which we 
were referred to as ``interested parties.'' Even putting aside 
that slight, we have to ask, ``Where is Mr. Hayes today?'' The 
Federal Government promised us it would help develop New 
Mexico's allocation of Colorado river water, but for 40 years, 
it has prevented us from developing it by reserving it to the 
Animas-La Plata project. The storage facility promised by the 
Ridges Basin Reservoir will allow us to develop our allocation, 
development stymied for 40 years by the delays in the ALP 
project. By that delay, we have estimated San Juan County has 
foregone gross economic benefits amounting to more than $740 
million. The government has a duty to San Juan County and New 
Mexico to end the delays that have cost my county so much.
    We were fair and honest in our negotiations for the revised 
ALP, and we expect nothing less from the administration of the 
Federal Government. Please pass H.R. 3478 to keep the promise 
that Congress made long ago to me and my constituents. Thank 
you for holding this hearing and allowing me the opportunity to 
speak.
    [The prepared statement of Mr. Duncan may be found at end 
of hearing.]
    Mr. Doolittle. Thank you, Mr. Duncan. Do you and Mr. Utton 
talk from time to time?
    Mr. Duncan. Yes, sir, we do.
    Mr. Doolittle. You're both from more or less the same area, 
right?
    Mr. Duncan. Yes, sir.
    Mr. Doolittle. He seems to be concerned that, if Animas--I 
guess he's worried about the full one being built; I'll ask him 
in a minute about the Animas Lite. But, anyway, do you share 
his concern that they'll lose their agricultural water if this 
project is built?
    Mr. Duncan. No, sir, I do not. The ALP Lite will take 13 
percent of the water in 10 percent of the driest years, out of 
the River. During the spring flood, often we have the 
opportunity to take that water out and pump it up into the 
reservoir. We will do so and put that water back in during the 
driest times of year: July, August, September, and the first 
part of October.
    Mr. Doolittle. Mr. Utton, would you care to respond to 
that?
    Mr. Utton. Yes, I would. I have before me a document that I 
researched out of the definite plan report, and it lists the 
number of times that the New Mexico water would be released to 
the river, New Mexico M&I water, and I would like to read you 
the amount of water. In 1931, the amount of water that would be 
released to the New Mexico M&I would be 4/10 of a cubic feet.
    Mr. Doolittle. Which year is that?
    Mr. Utton. Nineteen thirty-one, which was an extremely--
1931, 1932, 1933 and 1934 were really extremely dry years. In 
1934, probably the driest year on record, they would require 
7.4 cubic feet per second released to the river. In 1937 they 
would require .2 cubic feet per second to be released to the 
river. In 1939, 3.3 cubic feet per second to be released to the 
river. In 1940, 1.3 percent--or 1.3 cubic feet to be released 
to the river. In 1950, 2.3----
    Mr. Doolittle. Let me interrupt and ask--now, put this in 
context for me.
    Mr. Utton. OK, I will, sir.
    Mr. Doolittle. What does that mean?
    Mr. Utton. It means that very little water will ever be 
released to the river to New Mexico, and it means that we do 
not need that storage in Colorado. We need storage in New 
Mexico.
    Mr. Doolittle. Oh, so the storage you contend with then, 
this reservoir they're creating, will take the water that would 
otherwise flow down the river to New Mexico?
    Mr. Utton. I'm not so worried about the Animas-La Plata 
Lite as I am the full-blown project. It's a full-blown project 
that would take vast amount of water out of our river during 
our critical irrigation season, but what I'm saying is that the 
reservoir does not need to be that large, and I've said that in 
my testimony, and I reaffirm it. The water that would be 
released--the water that San Juan County would get--would most 
of the time flow down the river as it always has, and with the 
exception of these releases. And I didn't really, I didn't 
mention the zeroes. There is as many zeroes in as what they 
are, those figures that I told you. Those figures are really 
insignificant in terms of the 33.4 cubic feet per second that 
is released in New Mexico M&I demand. So, it's really 
insignificant.
    Mr. Doolittle. Mr. Duncan, now you're in New Mexico, too, 
the same area. Are you concerned about the figures from those 
dry years? I mean, if they built the whole project, which is 
theoretically possible, I guess?
    Mr. Duncan. Mr. Chairman, I don't have a clue where those 
numbers came from, first off, that he was quoting there, so 
I'll go from what I do know. No, I'm not concerned with the 
project being full-blown. If you built a reservoir full-scale--
let's just say hypothetically, if you built a reservoir full-
scale)--we would have the opportunity to set aside M&I water 
for maybe a 2 or 3-year period, and we often have droughts of 2 
or 3 years. And so we'd have that opportunity to set aside 
water for a 2 or 3-year period, therefore minimizing the 
downstream effect. So, while I don't know where those numbers 
came from, I'm not worried in the least about that.
    Mr. Doolittle. Mr. Turney is the State engineer, and he's 
already taken the oath. Mr. Turney, why don't you grab a 
microphone and share with us your insight on this.
    Mr. Turney. Mr. Chairman, I wanted to just briefly touch on 
a couple of issues here. First of all, he talked about some 
minimum flow, flowing past the Durango, city of Durango, 
bypassing the pumping station, and that number was much less 
than when you added up a court decree that was issued in 
Mexico. And that is a true statement. However, when we look at 
court decrees, we also believe in a thing where current flows 
come back into the river and they are shared by downstream 
users. That's the principle of the Appropriative Water Doctrine 
in New Mexico. So you can't--it's not a very fair comparison to 
add up all the flows in the decree and just say, gee, they 
exceed the amount of flow past the Durango pump station.
    In addition, there are additional in-flows that come in 
above the state of New Mexico. For instance, there's a river up 
there--I believe it's called the Floreida--that comes in, and 
you have to look at the total picture of the points of 
diversion. In some of the work that we have done, we think that 
the existing decree rights can be adequately protected. 
However, the Animas-La Plata rights for the cities would not be 
available all the time, and in fact they may have to be 
restricted when the very low flows start to occur at 
Farmington, and this is an issue.
    Mr. Doolittle. So, in that case, the agricultural water 
would be preferred over the M&I?
    Mr. Turney. Yes, and in the West, we have an appropriative 
doctrine that's based on priority. It's not people over 
agricultural, or endangered species over agricultural. It's 
based purely on priority, and that's set up in our 
constitution, priority of time. And that sets who will be the 
senior water-right holder.
    Mr. Doolittle. Well, endangered species seem to get the 
absolute first claim regardless of who has the water rights, 
don't they?
    Mr. Turney. I've heard that claimed, but that's not in our 
constitution.
    [Laughter.]
    Mr. Doolittle. Thank you. OK, Mr. DeFazio.
    Mr. DeFazio. Thank you, Mr. Chairman.
    Mr. Duncan, you talked about, you've already levied the 
taxes, for some time now, to pay for the share--your share. 
What amount of money has been raised by the people of the San 
Juan district?
    Mr. Duncan. Mr. Chairman or Congressman, we have about $8 
million set aside in that account right now.
    Mr. DeFazio. Eight million dollars? And that's for 
construction, construction operation?
    Mr. Duncan. That is for the construction.
    Mr. DeFazio. For your share of the construction. OK, well, 
under this cost-sharing agreement, local cost-sharing is capped 
at $13 million, Colorado at $16 million, so, you're going to 
spend that whole $8 million, you're going to be paying more 
than half of the local cost-sharing. Are you still expecting to 
spend that $8 million?
    Mr. Duncan. Yes, sir, I sure am, Mr. Chairman.
    Mr. DeFazio. OK, so, your obligation has not changed under 
this cost cap?
    Mr. Duncan. Mr. Chairman, Congressman, our cost-sharing, as 
I'm trying to remember who it was that stated in the second 
panel, appropriately goes down according to what we get out of 
this, and I'd like to ask council to make sure on that.
    Mr. DeFazio. OK, so you're saying you're going to pay 
proportionately the same amount?
    Mr. Duncan. Yes, sir.
    Mr. DeFazio. With the cost cap. I guess the question would 
be, why should anyone in Congress who doesn't represent that 
district advocate a cost cap which isn't extended in other 
projects?
    Mr. Duncan. Mr. Congressman----
    Mr. DeFazio. [continuing] to non-Indian users?
    Mr. Duncan. In my written testimony, I think you will see a 
number of projects that were given leniency by Congress, and 
we're not asking for any laws to be broken here; we're not 
asking for any funding laws to be broken here.
    Mr. DeFazio. Well, the laws have changed. I mean, it is 
much more--used to be, in the old days, Congress built projects 
and pretty much didn't even ask for repayment sometimes, but 
the laws have changed.
    Ms. Potter, on yours, Governor Romer got into an exchange 
with me. We were discussing the environmental implications, and 
he said that, in support of his outstanding environmental 
record, he was confident that, and the reason he supported 
sufficiency, was because of all the studies and all the work 
that had been done. But, in reading page 4 of your rather 
enlightening testimony, which, given your time restraints, you 
didn't get to go into, it sounds pretty dismal here. It says, 
series of actions, Bureau admitted its own, ALP was in 
violation of the law, out of compliance with ESA, EIS was 
inadequate, out of date, but you had to sue to get the agency 
to admit that. Bureau claimed to be exempt from the Clean Water 
Acts, had no permits, didn't qualify for an exemption; the 
Bureau illegally dumping drilling fluid in Basin Creek. EPA 
cited a violation. The Bureau then began programming exhuming 
burial sites.
    So, I'm puzzled, because Governor Romer was so hot about 
that. I mean, I started to think, well, maybe I'm wrong. I 
mean, is there some sufficient environmental work that has been 
done that would withstand a court challenge, that is directed 
at the specifics of Animas-La Plata Lite that's before us?
    Ms. Potter. Well, no, as Commissioner Martinez stated, 
there are aspects of the Animas-La Plata Lite that are 
different and that, quite clearly, have not ever been studied. 
That is on top of existing documentation, which, as you've just 
indicated, has some real problems.
    First, the EIS was the basis of a lawsuit. The Bureau 
settled that lawsuit and agreed to do a new EIS. The next 
document that it came out with received such public criticism 
that it was withdrawn. The next document that it came out with 
has received an unsatisfactory rating from the EPA, and it's 
also been criticized by the Corps of Engineers. It, of course, 
has not been a subject of any court challenge, but there isn't 
an adequate EIS in the bunch.
    Mr. DeFazio. Does this, and this doesn't just resolve on 
the issue of squawfish; this goes to many other issues of law?
    Ms. Potter. Oh, no, it goes to a great number of issues, of 
endangered species and other wildlife issues, are among those 
things that are addressed, but there's a full range of issues, 
and it's important to know that an adequate EIS is the entire 
basis for the claim of exemption from the Clean Water Act. The 
project is claiming an exemption from the Clean Water Act based 
on a seldom-used provision known as 404(r), and that requires 
an adequate EIS to be in place, and it requires a full analysis 
of the wetlands impacts to have been done. Those, too, are 
under question by the same agencies--the EPA and the Corps of 
Engineers, as I'd mentioned previously. So those inadequate 
documents are the basis for the claim of exemption from yet 
another Federal law.
    Mr. DeFazio. You raised one other point which no one else 
has touched on. You raised a number of points in your 
testimony, one in particular caught my attention, because this 
is an area where I'm much better qualified than in water law 
and the intricacies of this project--and that is the power 
costs for pumping the water uphill. Apparently, there was some 
assumption--it says the market value of power reserved for ALP 
is $6 million per year, subsidized by the Federal Government. 
Now, what do you mean here? How's that?
    Ms. Potter. Well, a certain amount of power is being put 
aside to pump the water from the river level to the basin 
level, which is about 500 feet above the river, and that power 
value can be calculated using present market rates in the 
region. That value that you read is the amount of Federal power 
multiplied by the present market rate for electricity at the 
price per kilowatt hour.
    Mr. DeFazio. And is this Bureau of Reclamation-produced 
power? Is it produced at Bur-Rec projects, or at other 
Federal--what kind of----
    Ms. Potter. Yes, it's a WAPA, Western Area Power 
Administration, power allocation set aside for this project. It 
is Federal power produced at Federal facilities.
    Mr. DeFazio. So it's a WAPA allocation. So it's a melded, 
wholesale power. I mean, it's not from a dedicated source.
    Ms. Potter. That's right.
    Mr. DeFazio. So, the Western Area Power Administration 
would be mandated here to provide power to this project, and 
forgo the market rate for that power?
    Mr. Potter. That's correct.
    Mr. DeFazio. That's extraordinary. That's absolutely 
extraordinary and flies against everything else I'm hearing in 
Congress these days about power deregulation. That we would be 
mandating that the Federal Government provide power at a below-
market cost to this project. That's absolutely extraordinary. 
Thank you.
    Mr. Doolittle. I'd like to thank the members of this panel 
for their testimony. We will have further questions and ask you 
to respond expeditiously.
    [The information referred to may be found at end of 
hearing.]
    [The prepared statement of Mr. Norton may be found at end 
of hearing.]
    [The prepared statement of Mr. Blassingame may be found at 
end of hearing.]
    [The prepared statement of Mr. Griswold may be found at end 
of hearing.]
    [The prepared statement of Mr. Kroeger may be found at end 
of hearing.]
    [The information referred to follows:]
    Mr. Doolittle. With that, we'll excuse the panel, and this 
hearing is adjourned.
    [Whereupon, at 6:10 p.m., the Committee adjourned subject 
to the call of the Chair.]
    [Additional material submitted for the record follows.]
    Statement of Hon. Gary E. Johnson, Governor, State of New Mexico

    I speak today on behalf of H.R. 3478, which makes changes 
to the authorized Animas La Plata Project, a project to which 
New Mexico is a beneficiary.
    The need for a dependable water supply for Northwest New 
Mexico has long been recognized. Although the majority of 
communities in the state get the water from wells, communities 
in Northwest New Mexico get their water from the Animas and San 
Juan Rivers. Groundwater in the area contains such high levels 
of contaminants that, for the most part, it is all but 
unusable. During periods of extended drought, the Animas River 
has historically run dry. Raw water storage is necessary to 
supply water to communities when the river is in a low flow 
stage. The Animas-La Plata Project is designed to provide a 
water supply during low flow river conditions for both Indians 
and non-Indians in New Mexico, a goal which the State of New 
Mexico strongly supports.
    H.R. 3478 is designed to support objectives established by 
the New Mexico Interstate Stream Commission. These objectives, 
in addition to providing a final settlement of Colorado Ute 
Indian water right claims and a much needed municipal and 
industrial water supply--include a reduction in project costs, 
staying within allowable river depletions to provide a habitat 
for endangered species, protection of senior water rights, 
address water quality concerns, and transfers a portion of the 
ownership of the project water rights from the Secretary of 
Interior to the state of New Mexico for project beneficiaries.
    Studies, done under a cooperative agreement funded through 
the Bureau of Reclamation, indicates that the cost of the 
project has been substantially reduced.
    The bill further provides for a distribution of project 
water which stays within the U.S. Fish and Wildlife Biological 
Opinion.
    The bill would appear to address water quality concerns 
previously expressed by New Mexico.
    A basic premise of the project is that senior water rights 
in New Mexico will be protected. As the project planning 
proceeds forward, projected operating schedules will have to be 
developed by the Bureau of Reclamation, in close cooperation 
with the New Mexico State Engineer, which will adequately 
demonstrate that senior water right holders will in fact be 
protected.
    The bill contains language directing the Secretary of the 
Interior to assign a portion of the water right permit, now 
held in the Secretarys name, to the state of New Mexico for 
certain project beneficiaries in New Mexico. This concept we 
support.
    Additionally, we have had discussion with the Navajo Nation 
to include language in the bill to ensure that the water which 
they will receive under the project can be delivered to the 
Navajo communities downstream of Farmington and Shiprock. Over 
the past two decades, the population of the Navajo community of 
Shiprock has increased. Proposed amendments to the bill, which 
are now being discussed, would allow for the construction of a 
new Farmington to Shiprock pipeline to augment an existing 
pipeline. This pipeline is essential to address the public 
health and safety of the Navajo communities and is a project 
which the State very much endorses. The State welcomes 
involvement in this ongoing discussion to insure that the water 
rights of all parties are properly defined pursuant to state 
law.
    The reconciled Animas La Plata Project generally settles 
the claims of two Colorado Ute Indian tribes to waters of the 
Animas and La Plata rivers. This is an important aspect of the 
project to provide certainty to New Mexico water users on these 
two rivers so that they will in fact have wet water available 
to them under their state water rights.
    In closing, H.R. 3478 will aid in providing a more 
dependable water supply for both Indian and non-Indian 
communities in northwest New Mexico. Northwest New Mexico is 
growing and it is important to provide an adequate water supply 
for the area's future.
                                ------                                


  Statement of Thomas C. Turney, State Engineer, Santa Fe, New Mexico

    I speak today on behalf of H.R. 3478, which makes changes 
to the authorized Animas La Plata Project--a project to which 
New Mexico is a beneficiary.
    The reconciled Animas La Plata Project would provide two 
basic components of New Mexico's plan for development of its 
water resources in Northwest New Mexico. The reconciled project 
generally settles the claims of two Colorado Ute Indian tribes 
to waters of the Animas and La Plata rivers. This is an 
important aspect of the project because it provides certainty 
to New Mexico water users on these two rivers so that they will 
in fact have wet water available under their state water 
rights.
    Secondly, the reconciled project will provide a more 
dependable water supply for both Indian and non-lndian 
communities in northwest New Mexico. Northwest New Mexico is 
growing and it is important to provide an adequate water supply 
for the area's future.
    The need for a dependable water supply for Northwest New 
Mexico has long been recognized. Although the majority of 
communities in the state get their water from wells, 
communities in Northwest New Mexico get their water from the 
Animas and San Juan Rivers. Groundwater in the area contains 
such high levels of contaminants that, for the most part, it is 
all but unusable for potable water. During periods of extended 
drought, the Animas River has historically run dry. Raw water 
storage is necessary to supply water to communities when the 
river is in a low flow stage. The Animas-La Plata Project is 
designed to provide a water supply during low flow river 
conditions for both Indians and non-lndians in New Mexico, a 
goal which the State of New Mexico strongly supports.
    H.R. 3478 is a compromise bill negotiated by Indians and 
non-lndians. It supports objectives established by the New 
Mexico Interstate Stream Commission. These objectives include, 
in addition to providing a settlement of the Colorado Ute 
Indian water right claims and a much needed municipal and 
industrial water supply--a reduction in project costs, staying 
within allowable river depletions to provide a habitat for 
endangered species, protection of senior water rights, 
addresses water quality concerns, and transfers a portion of 
the ownership of the project water rights from the Secretary of 
Interior to the state of New Mexico for the project 
beneficiaries.
    Studies, done under a cooperative agreement funded through 
the Bureau of Reclamation, indicate that the cost of the 
reconciled project has been substantially reduced.
    The bill further provides for a distribution of project 
water which stays within the U.S. Fish and Wildlife Biological 
Opinion.
    The bill would appear to address water quality concerns 
previously expressed by New Mexico as it eliminates certain 
irrigations lands which could have been a source of heavy 
metals.
    A basic premise of the project is that senior water rights 
in New Mexico will be protected. As the project planning 
proceeds forward, projected operating schedules will have to be 
developed by the Bureau of Reclamation, in close cooperation 
with the New Mexico State Engineer, which adequately 
demonstrates that senior water right holders in New Mexico will 
in fact be protected.
    The bill contains language directing the Secretary of the 
Interior to transfer a portion of the water right permit, now 
held in the Secretary's name, to New Mexico for the project 
beneficiaries. We support this concept.
    Additionally, discussions are ongoing with the Navajo 
Nation to include language in the bill to ensure that the water 
which they will receive under the project can be delivered to 
the Navajo communities downstream of Farmington and Shiprock. 
Over the past two decades, the population of the Navajo 
community of Shiprock has swelled. Proposed amendments to the 
bill, which are now being discussed, would allow for the 
construction of a new Farmington to Shiprock pipeline to 
augment an existing pipeline. This pipeline is essential to 
address the public health and safety of the Navajo communities 
and is a project which the State very much endorses. The State 
welcomes involvement in these ongoing discussions to ensure 
that the water rights of all parties are properly defined 
pursuant to state law.
    Thank you for the opportunity to testify before you today.
                                ------                                


    Statement of Clement Frost, Chairman, Southern Ute Indian Tribe

    Good Afternoon. My name is Clement Frost. I am the Chairman 
of the Southern Ute Indian Tribe. I am here today to testify in 
support of H.R. 3478, the Colorado Ute Settlement Act 
Amendments of 1998. On behalf of the Southern Ute Indian Tribe 
and its Tribal Council, I ask that Congress carry out the 
promises that the United States has made to the Southern Ute 
Indian Tribe through the years to provide the water which the 
Tribe needs now and in the future.
    I am also here today to strongly oppose H.R. 745, the bill 
to deauthorize the Animas-La Plata Project. That bill breaks 
the United States' agreement with the Colorado Ute Tribes that 
was signed into law by President Reagan in 1988. It ignores the 
years of work that went into the 1988 Settlement Act and would 
violate the United States' trust responsibility to the two 
Colorado Ute Tribes. I can promise this Committee that if the 
Congress were to de-authorize the ALP and demand that the 
Tribes return to the negotiating table as proposed in H.R. 745, 
my Tribe would return to court. We would sue the United States 
for its breach of the 1986 Agreement and we would seek to 
establish our rights through litigation. Why would any tribe 
negotiate with the United States if the Congress is willing at 
any time to back out of settlement legislation passed by 
Congress and signed into law by the Presi-

dent simply because it no longer likes the agreement? That may 
have happened in the past, but my Tribe will not be a part of 
repeating that history. The Southern Ute Indian Tribe has been 
more than willing to work to address the problems that have 
delayed the construction of the ALP. That is a far cry from 
walking away from the promises that were made in the 1988 
Settlement Act as demanded by H.R. 745. The right way to 
address the issues facing the ALP is H.R. 3478; it is not to 
pretend that the 1988 Settlement Act was never passed.
    H.R. 3478, the legislation to amend the 1988 Settlement Act 
cannot be understood without knowing the history of the Ute 
Reservation. When the Ute Bands signed the treaty establishing 
the Ute Reservation in 1868, the United States promised the Ute 
people that the Reservation would be a permanent home that 
would support our people forever. The key to carrying out that 
promise is water--a fact that the Tribal leadership has always 
known but which the United States has sometimes forgotten.
    Long before the water rights litigation started in the 
1970's, the Southern Ute Indian Tribal Council recognized that 
storage of water from the Animas River was needed to provide a 
source of water to meet the needs of future generations of the 
Southern Ute Tribe. While the opponents to the Project say that 
the Tribes did not become involved with the Project until the 
settlement discussions in the 1980's, both Ute Tribes supported 
the authorization of the Project in 1968. Afterwards, the Ute 
Tribes worked with the ALP District and the Bureau of 
Reclamation to develop a Project that would serve the needs of 
the Tribes.
    Former Chairman Leonard C. Burch and former Chairman Chris 
A. Baker worked hard to have the Animas-La Plata Project built. 
They knew that the Project is the best way for the Tribe to get 
the water it needs for its future. I also now that the future 
of my Tribe depends on making sure that the Tribe has a 
reliable water supply that can be used for the development of 
our Reservation.
    When the Settlement Act was signed by President Reagan 
nearly ten years ago, the Tribal Council thought it had finally 
won its long battle to acquire a firm water supply to meet the 
present and future needs of the Southern Ute people.
    It is important to understand how much work had been done 
on the Project when the settlement agreement was signed in 
1986. A definite plan report for the Project had been 
completed; an Environmental Impact Statement had been finished 
and construction of the Project had been approved under the 
Endangered Species Act. In other words when the Settlement 
Agreement was signed, all environmental compliance work was 
done. When Congress agreed with the Settlement in 1988, it knew 
what it was talking about. The Project had been studied and 
studied, and its advantages and disadvantages were well known.
    The parties to the settlement are here today to support 
modifications to the 1988 Settlement Act, which all of the 
parties have accepted in an effort to make the Tribal 
settlement real. A great deal of sacrifice was required to make 
the current proposal work. The foundation for the settlement is 
still the Animas-La Plata Project but only a small portion of 
the project is required to fulfill the settlement. No longer 
will water have to be taken to the La Plata Basin. No 
irrigation facilities are included in the settlement.
    The modifications will greatly reduce the cost of the 
Settlement. They will also answer any question over the 
environmental impact of the Project. In the current political 
climate, such changes are necessary for the Settlement to move 
forward. As a result of those changes, the Tribe will not 
receive all of the benefits that it was promised in 1988. But 
the Tribe will get a reliable supply of stored water that it 
can control for its own use--that is what we have always 
wanted. We also know that construction of a storage reservoir 
is only the first step in putting water to use for the benefit 
of our people. But it is a very important first step in 
building a successful economy on our reservation. We are 
confident that with that supply we can move forward into the 
next century. Certainly, the successes of the Southern Ute 
Indian Tribe--and there are many--all relate to the Tribe 
taking control of its resources and using them for the benefit 
of tribal members.
    I also want to address the position of the Administration. 
As you may have heard, in the Senate, the Administration 
strongly opposed the solution that the Tribes, the State of 
Colorado and the other parties to the 1986 Settlement have 
developed to address the concerns that have been raised about 
the Project. The Tribes were outraged by that testimony.
    We have tried our best to work with the Administration to 
carry out the 1988 Settlement. So far, we have met with little 
success. In the spring of 1996, the leaders of the Ute Tribes 
met with Secretary of the Interior Bruce Babbitt to discuss the 
matters that were delaying the construction of the Project and 
the implementation of the last phase of the settlement of the 
tribal water rights--the Project. Secretary Babbitt suggested 
that we work with Governor Roy Romer to try to develop an ap-

proach that might resolve the concerns that had been raised 
about the Project. For over a year, the Tribes and other 
settlement parties met with the project opponents and 
representatives of the Department of the Interior and the 
Environmental Protection Agency under the supervision of Lt. 
Governor Gail Schoettler. Throughout this process, the Federal 
agencies never acknowledged their trust responsibility to the 
Tribes nor tried to help find a solution that would remain true 
to the spirit of the 1988 Settlement Act.
    At the end of the Romer-Schoettler process, there was no 
consensus on how to proceed. Instead, two alternatives emerged. 
The alternative supported by the Tribes, the other parties to 
the 1988 settlement, and ultimately the State of Colorado, is 
reflected in H.R 3478.
    The other alternative, which was rejected by the Tribes, 
called for the creation of a fund to allow the Tribes to 
purchase agricultural water rights from their neighbors and 
then attempt in state water court to change the uses of such 
water to meet tribal needs. In a water short area such as 
southwest Colorado, that suggestion is a formula for disaster 
socially and politically and would not provide the Tribes with 
the water which they need and which the United States promised 
to them under the 1988 Settlement Act. The proposal was not 
acceptable to anyone who would have been affected, nor was it 
acceptable to the State of Colorado. Nevertheless, the 
Department of the Interior insisted on studying that 
alternative, although no report has ever been made public or 
shown to tribal representatives.
    Despite our repeated requests, no one from the 
Administration was ever willing to carry on a meaningful 
conversation with tribal representatives about the Tribes' 
intent to implement the 1988 Settlement Act by reducing the 
scope of the Project required to complete the settlement prior 
to the hearing in the Senate. Until the day of the hearing, we 
expected that the Administration would support the compromises 
that had been made, although we understood that some of the 
details of the proposed legislation were troublesome. We 
learned of the Administration's opposition to our position from 
the staff of the Indian Affairs Committee late in the morning 
of the day of the hearing. No one from the Administration 
discussed with us the Administration's plan to destroy the 
years of hard work that led to the compromises contained in 
H.R. 3478. Nor did anyone from the Administration tell us or 
any tribal representative that after years of claiming to 
support the ALP and the 1988 Settlement Act, the Administration 
was now arguing that a search for new alternatives was required 
that would necessitate years of additional study. The 
Administration's opposition and the way that it was announced 
failed to live up to the government to government relationship 
between our Tribes and the United States.
    The Administration's disappointing performance in the 
Senate led to widespread criticism. Now the Administration 
wants to talk to us, saying that its opposition was 
misunderstood. We understand the need to talk but we have many 
questions. Does the Administration understand that its 
representatives must talk with all the parties to the 1986 
Settlement Agreement? Why should the Tribes believe that the 
Administration is now willing to work with us and our neighbors 
in good faith? How do we know that they can be trusted and that 
those within the Administration who are opposed to any water 
development will not destroy any agreement we might reach with 
Interior? Is the Administration finally willing to admit its 
obligation to provide the Tribes and our neighbors with water 
stored from the Animas River? Can they assure us that we will 
not spend another 10 years discussing the merits of the 
Settlement after it is enacted by the Congress?
    In closing, I want to make three points. First, despite the 
magnitude of the modifications to the Settlement that have been 
proposed, we do not expect that these compromises will satisfy 
all of our opponents, many of whom simply object to any water 
development no matter what its purpose and no matter how small 
its impact. I hope that you understand the substantial benefits 
of this Settlement to the Southern Ute Tribe and also recognize 
that it provides water to the two Ute Tribes without taking 
water away from our non-lndian neighbors. Second, I want to 
recognize the honor and integrity of our non-lndian neighbors 
who are the Tribes' partners in the Project. The negotiations 
that resulted in the modified Settlement were long and 
difficult. The first goal of our partners was not to serve 
their own interests. If that had been the case, this modified 
settlement would not have been possible. But our partners felt 
the need to make sure that the United States lived up to its 
promises to the Ute Tribes. We appreciate that. Finally, we ask 
Congress not to forget the promises that were made in 1868 and 
confirmed in 1988. We ask you to pass H.R. 3478.
                                ------                                


    Statement of Judy Knight-Frank, Chairman, Ute Mountain Ute Tribe

1. Introduction.

    ``In order to reduce future controversy'' the United States 
Departments of Justice and Interior entered into the 1986 
Colorado Ute Water Rights Settlement Agreement. In Public Law 
100-585 Congress implemented the 1986 Agreement. H.R. 3478 
represents the good faith effort, after a decade of intense 
environmental compliance, by the non-Federal parties to the 
1986 Agreement, to accept a substantially reduced water supply 
project.

2. H.R. 3478 Significantly Reduces The Cost of Settling The 
Colorado Ute Tribal Water Rights.

    H.R. 3478 results in a reduction of the cost to settle the 
Colorado Ute water rights as described in the 1988 Settlement 
Act--estimated by the Bureau of Reclamation to be $379 million 
in 1986 and $675 million in 1998. A seven year construction 
schedule in H.R. 3478 would result in 7 annual Federal 
expenditures of $38 million. H.R.3478 therefore implements a 
decade old Indian water rights settlement using substantially 
fewer dollars than originally provided for in the 1988 
Settlement Act. In exchange for reducing the water supply by 40 
percent, the Colorado Ute Tribes seek a waiver of their capital 
repayment. Under existing law, the Tribes' repayment is 
deferred until revenues exceed their costs. The Tribes' 
proposed waiver therefore operates to expedite the productive 
use of these water supplies.

3. H.R.3478 Implements Endangered Species Act Protections.

    H.R. 3478 also provides the means to assure a successful 
recovery of endangered fish in the San Juan Basin. For seven 
years, a broad array of tribal, local, state and Federal 
entities have worked together to re-operate flows in the San 
Juan River to benefit endangered fish. This recovery program is 
specifically dependent upon the construction of the three 
facilities incorporated in H.R. 3478.
    H.R. 3478 relies on nearly two decades of environmental 
analysis. The Colorado Ute Tribes have conditioned their 
willingness to take a 40 percent reduction in water supplies 
proposed in H.R. 3478 on a commitment by Congress that these 
amendments will indeed become a final settlement. The Tribes 
are unwilling to accept a reduced settlement unless they are 
assured that the reduced facilities and depletions can rely on 
the existing environmental analysis. Without this protection, 
we are afraid that a second decade may pass before the United 
States commitments made in 1988 are finally realized.

4. H.R. 3478 Authorizes A Reservoir For Present And Future 
Uses.

    H.R. 3478 authorizes a 260,000 acre foot reservoir. That 
reservoir allows depletions of 57,100 acre feet to be stored. 
The reservoir size also assures that as the region's last water 
storage facility, it is positioned to provide M&I and 
agricultural storage for future generations. While H.R. 3478 
does not provide the authority to store additional depletions, 
the Endangered Species Act program in the San Juan Basin is 
expressly designed to both preserve endangered fish and allow 
water development to proceed. This reservoir accomplishes both 
of these goals.
    The reservoir has an inactive storage elevation which is 
designed to (1) allow water to flow back through the conduit 
system to satisfy City of Durango M&I needs, (2) allow access 
to the La Plata Basin in the event the ESA allows additional 
water supplies for irrigation and funding can be secured and 
(3) assure that the reservoir establishes a useable and 
functioning 1,600 acre recreation lake.

5. The Legacy Fund Is A Wholly Inadequate Alternative.

    Alternatives to a reservoir using Animas River water have 
been explored for two decades. Opponents of H.R. 3478 have 
offered a legacy fund as an alternative. That alternative 
proposes giving the two Colorado Ute Tribes a sum of money to 
acquire land and direct stream flows from its neighbors. This 
alternative--rejected by the Colorado Ute Tribes and the State 
of Colorado--pulls the rug out from under the 1986 Water Rights 
Settlement Agreement. In that Agreement, irrigators and 
communities using direct flow out of the region's rivers were 
allowed to continue their historic use of these water supplies, 
subject to the Tribes' obtaining some direct flow rights and 
the Tribes' securing a new supply of water from the generous 
flows of the Animas River.
    The Legacy Fund is also problematic because in the absence 
of storage, the Tribes will be acquiring a water supply which 
frequently exists for only three months a year. Moreover, any 
effort to move that direct flow to another location would 
trigger extensive Colorado Water Court litigation and raise 
serious wetlands and Clean Water Act issues. In a word, the 
legacy fund is an effort to ``buy out'' Colorado Ute Tribes and 
not to honor the 1986 Settlement Agreement.

    6. Pervasive Litigation Involving the United States Is The 
Only True Alternative To A Reduced ALP.

    All parties to the 1986 Agreement have a good faith 
obligation to implement its provisions. If the United States 
fails to provide the Colorado Ute Tribes with a reasonable 
(even if reduced) assured supply of water, it leaves the Tribes 
with no alternative but to pursue litigation.

        a. Water Rights Litigation.

          In the event there is no reduced ALP, the Tribes and the 
        United States will have to prosecute reserved rights 
        adjudications against irrigators and rural communities now 
        relying upon Animas and La Plata River direct flows. This is a 
        massive undertaking which is sure to set back regional 
        integration for decades to come.

        b. ESA Litigation.

          The Tribes will move with their Colorado partners to 
        institute litigation designed to assure that all San Juan River 
        depletions are put in jeopardy (and new ones prohibited) until 
        the Tribes' depletion supply is secured, and;

        c. Bad Faith Contract Litigation.

          The Colorado Ute Tribes would pursue breach of trust and bad 
        faith contract breach claims against the United States for 
        failure to implement in good faith the 1986 Agreement. While 
        that Agreement expressly contemplated that Congress might not 
        implement it, it was always understood that the Departments of 
        Justice, Interior, OMB and others were under a good faith 
        obligation to provide the Tribes with a water supply. Indeed a 
        decade of modest Administration appropriations led the Tribes 
        to incur significant expenditures of the 1986 Agreement.

7. Conclusion.

    The non-Federal parties, including the States of Colorado and New 
Mexico, have done their share to ``avoid future controversy'' as 
mandated by the 1986 Agreement. It is now time for the Federal parties 
to do the same.
                                 ______
                                 

                  Statement of Sage Douglas Remington

INTRODUCTION

    Mike-Ku, in the native Ute language, I thank you for the 
opportunity to testify on H.R. 3478 and H.R. 745. I am the 
spokesman for the Southern Ute Grassroots Organization (SUGO), 
which is a group of Southern Ute Tribal members who live on the 
Southern Ute reservation in Colorado' and who are in support of 
H.R. 745 and opposed to H. R. 3478.

History of Grassroots Opposition to Animas-La Plata Water 
Project (A-LP).

    I have been instructed by the SUGO Elder Council to present 
a cultural and spiritual perspective that is in conflict with 
the mainstream political and cultural value system. My 
colleagues in opposition to the Animas-La Plata Project will 
speak about the environmental, taxpayer, and economic concerns 
that we all share about ALP.
    The roots of SUGO go back to 1989 when a group of concerned 
Southern Ute Tribal members formed the TCommittee For Better 
Tribal Government. The committee's principal concern was that 
the best interests of the majority of Ute people were not being 
properly represented in the Animas-La Plata Reclamation Project 
(ALP). This group of Southern Ute Tribal members gathered the 
necessary signatures to institute a recall election for the 
Tribal Council. With some questionable maneuvering, the 
incumbents succeeded in disqualifying one recall vote. This 
made the election result in a tie. Under the Tribal 
Constitution, the tie preserved the status quo. Dissatisfaction 
with ALP, abuses of power and lack of responsiveness by the 
Tribal Government did not die after the failed recall attempt. 
The organizers of the Committee for Better Government proceeded 
to form the Southern Ute Grassroots Organization (SUGO).
    Ute people have maintained their connection with the land 
and water since there were loosely confederated bands of a 
people called the ``Nuche.'' We believe that rocks, trees, the 
rivers and the Earth are alive. We have lost most of our land 
base through violent assault and ``legal'' manipulations that 
have separated the Utes from their land and water.
    The Ute's share with other traditional tribal people three 
primary political principles:

          All land, water and other natural resources are communally 
        owned by the tribe; private ownership of land, water or goods 
        beyond those of the immediate household is unthinkable.
          All tribal decisions are by consensus, in which every tribal 
        member participates; and,
          Traditionally, Tribal Council and leaders are not coercive or 
        authoritarian, unlike their non-Indian counterparts.
    There has never been a general council meeting of the Southern Ute 
people dedicated to a discussion about the benefits of the Animas-La 
Plata Project. In general council meetings, every adult member of the 
tribe is permitted to speak and discussion continues until consensus is 
reached. Questions and concerns about this project have gone 
unanswered!

Development of the Alternative to the Animas La Plata Project.

    In December, 1996, SUGO held a meeting with members of the Southern 
Ute tribal membership to discuss an alternative to the Animas-La Plata 
Project. It was at this time that the Ute Legacy Land and Water Fund 
concept was developed. Ute tribal members who had land assignments and 
allotments were asked, ``What would you like to see result from this 
project?'' Their responses were unanimous. Ute tribal members wanted to 
restore the integrity of the traditional Ute land base with the 
purchase of land and water rights on the reservation.
    The Ute Legacy Land and Water Fund was introduced at the February, 
1997, Romer/Schoettler meeting in Towoac, Colorado, and has been 
incorporated into the Citizens Coalition alternative which is one of 
the two alternatives being analyzed by the Bureau of Reclamation.

CONCLUSION

    It is with a heavy heart that the Southern Ute Grassroots 
Organization must declare its support for H.R. 745, a bill that would 
deauthorize the old project. This project was never clearly defined in 
terms of benefits to the Southern Ute Tribal members. It can never be 
constructed as originally planned under the 1986 Settlement Agreement.
    H.R. 745 directs the Secretary of Interior to negotiate an 
alternative that is consistent with all Federal laws. An alternative to 
ALP should provide the full amount of water allocated to the tribes in 
the 1986 Settlement Agreement.
    I am reminded of a scene that took place here is in Washington, 
D.C. on May 2, 1948. The Federal Government forced a strong-arm 
settlement on the Mandan, Hidatsa, and Arikara Tribes to make way for 
the Garrison Dam on the Fort Berthold Indian Reservation, North Dakota. 
This picture illustrates the ``heavy heart'' of George Gillettee, 
Chairman of the Fort Berthold Indian Tribal Business Council, as he is 
forced to sign an agreement for the dam. This is not how Indian water 
projects should continue to develop. The Southern Ute tribal membership 
must have a voice in the decision making process of any Animas-La Plata 
Water Project. It can be done!
    Tuvus-Togoy-Ax!

    [GRAPHIC] [TIFF OMITTED] T0754.001
    
    [GRAPHIC] [TIFF OMITTED] T0754.002
    
    [GRAPHIC] [TIFF OMITTED] T0754.003
    
    [GRAPHIC] [TIFF OMITTED] T0754.004
    
    Statement of Jim Isgar, Board Member, The Animas-La Plata Water 
                          Conservancy District

    My name is Jim Isgar. I am a member of the Board of 
Directors of the Animas-La Plata Water Conservancy District. I 
am here today to urge your support for H.R. 3478, the Colorado 
Ute Settlement Act Amendments of 1998.
    My grandfather came to the San Juan Basin in Southwest 
Colorado in the early part of this century to homestead land 
which was opened for settlement by the United States government 
on what had been the Ute Indian Reservation. My grandfather was 
never able to succeed at farming because of a lack of water on 
his homestead. As a result, my father and his brothers spent 
years working in the hard-rock mines in Silverton, Colorado, in 
order to make a living. It was always their dream, however, to 
return to farming. My father was eventually able to buy land on 
the La Plata River, the same land which I farm today.
    In any year, I and my neighbors may or may not make a crop, 
depending upon the water supply. That is one of the reasons 
why, for so many years, my father and I have joined with our 
Ute Indian neighbors to support construction of the Animas-La 
Plata Project. The farmers and ranchers of the La Plata River 
Basin waited patiently for 30 years after the Animas-La Plata 
Project was initially authorized for construction. During this 
time, the farm and ranch community missed many opportunities to 
investigate and construct other smaller water resource 
development storage projects which could have supplied us with 
critically needed irrigation water. Many of the farmers and 
ranchers in our area, determined to wait for the Animas-La 
Plata Project, also missed the opportunity to change their 
farming base of operations from the La Plata River to the 
Dolores Project area and to purchase land at a reasonable price 
in that area. Twenty years ago, dry land in the Dolores Project 
area sold for $400 an acre. Today, that land is worth $1,500 an 
acre, as irrigated land receiving water from the Dolores 
Project.
    Unfortunately, the water from the Animas-La Plata Project 
which is needed to ensure the health of our agricultural 
economy will not be provided by this legislation. The long 
delay and eventual elimination of irrigation facilities from 
this Project have combined to do a great disservice to the 
farmers and ranchers in the La Plata River valley. 
Nevertheless, I am here today representing the ranchers and 
farmers in our area to request that you pass this legislation 
and honor the Federal Government's commitment to the two 
Colorado Ute Indian Tribes.
    To seek to bring proponents and opponents of the Project 
together, the Animas-La Plata Water Conservancy District 
participated in the process organized by Colorado Governor Roy 
Romer and Lt. Governor Gail Schoettler. As you know, the 
Animas-La Plata Project had been stalled for over ten years 
because of concerns about the Project's environmental impacts 
and its costs. In the Romer/Schoettler Process, we spent 18 
months exploring the issues and, after much soul searching and 
agonizing, developed what has been popularly referred to as 
``Animas-La Plata Lite,'' a much smaller version of the Animas-
La Plata Project. Animas-La Plata Lite not only greatly reduces 
the cost of the original Project, but also effectively 
eliminates all reasonable environmental concerns.
    At the conclusion of the Romer/Schoettler Process, the 
farmers and ranchers in Southwest Colorado were devastated. Our 
hope of additional irrigation water supplies was defeated, 
primarily because of the huge Project cost increases caused by 
many years of delay. Delay has been the strategy of the Project 
opponents, and they have been very successful. Two years ago, 
when the fiscal conservatives in the Congress joined with 
national environmental groups, it became apparent that if we 
were ever going to have a solution to the rightful reserved 
water rights claims of the two Colorado Ute Indian Tribes, 
something drastic had to happen with the Animas-La Plata 
Project. A/LP Lite is the result.
    The farmers and ranchers believe the environmental 
organizations have won. The Animas-La Plata Project of our 
dreams will not be a reality. Instead of Project depletions of 
150,000 acre feet each year, A/LP Lite complies with the 
current mandate of the U.S. Fish and Wildlife Service's Final 
Biological Opinion for the Project and will deplete no more 
than 57,100 acre feet annually. We agreed to this reduction 
despite the fact that the State of Colorado is entitled to 
150,000 acre feet of depletions under the Colorado River 
Compact and the Upper Colorado River Compact, as set aside for 
the San Juan Basin of Colorado ever since the 1956 Colorado 
River Storage Project Act.
    The negotiations to divide up the A/LP Lite water supply of 
57,100 acre feet were difficult, in the extreme. You may well 
ask, after giving up their irrigation water, why are the 
farmers and ranchers still supporting A/LP Lite. The answer is, 
we get the right to continue to use, without fear of losing it 
to Tribal water claims, the water which my grandfather 
appropriated under Colorado state water law 95 years ago. This 
is water which, if the Indians' claims are not settled by A/LP 
Lite, will be taken away from the ranchers and farmers to 
satisfy the Tribes' claims. Because settlement of the Indian 
claims is vital to all the ranchers and farmers, we urge you to 
move forward with this legislation. The Tribes have agreed to 
settle their reserved water rights claims despite the fact that 
the water to which they were entitled under the 1988 Settlement 
Agreement is cut by two-thirds under A/LP Lite.
    The ranchers and farmers also support A/LP Lite because of 
the water supply it will make available to the City of Durango, 
Colorado. We all recognize that Durango must have a firm water 
supply to provide for the needs of our neighbors in the city. 
The farmers and ranchers in Southwestern Colorado do not live 
in a vacuum. We have a proud record of cooperating with our 
``city'' friends, as well our Indian friends. That record of 
cooperation has been the strength of the Animas-La Plata 
Project.
    We are here today to demonstrate our continued support and 
cooperation with our friends. We ask you, the members of this 
Committee and the Congress, to recognize the many sacrifices 
that have been made and the many compromises that have been 
struck by Indians and non-Indians alike. The belated opposition 
to A/LP Lite by the Clinton Administration should not deter you 
from doing what is right. It is right to pass this legislation, 
honor your commitment to our Native American friends, and make 
that most precious of all resources in the West, water, 
available for beneficial use.
                                ------                                


 Statement of Orion Utton, President, Animas River Agricultural Water 
             Users Association, San Juan County, New Mexico

    Mr. Chairman and Committee Members:
    I am Orion Utton, President of the Animas River 
Agricultural Water Users Association of San Juan County, New 
Mexico. I feel honored and privileged to testify before this 
Committee in support of H.R. 745 and in opposition to H.R. 
3478.
    The members of the Animas River Agricultural Water Users 
Association are major stakeholders in this Animas-La Plata 
issue. The water that would be used in the Animas La Plata 
project is the same water that we now use to grow our crops. We 
are very concerned that the project will seriously threaten the 
water supply that we depend on to grow alfalfa, corn, wheat, 
oats, apples and vegetables.
    The Bureau of Reclamation documents for the Animas La Plata 
project point to 225 cubic feet per second (cfs) of water that 
would be allowed to bypass the pumps at Durango during the 
summer months. They state that this water would be for the 
ecology of the river, but we believe that this may be the only 
water that would be by-passed for agricultural users. Project 
supporters claim that senior water rights will be protected, 
but there is no Bureau of Reclamation documentation as to how 
senior water rights will be protected.
    I know the ditch system in San Juan County better than 
anyone. I served as a County Extension Agent for 20 years. 
While employed by the New Mexico State University Extension 
Service, I worked extensively on water and ditch system issues. 
I also have farmed all my life and own a 45 acre farm.
    Attached to my testimony is a document prepared by Dennis 
Cooper, a water engineer from Santa Fe. This document 
summarizes the adjudicated water rights on the Animas River. 
The point of the document is that these ditches have the legal 
right to divert a great deal more water than the 225 cfs 
described in the Bureau of Reclamation documents for the Animas 
La Plata project. That is not enough water to supply legal 
diversions for the Animas River irrigators. Every year would be 
a dry year for us.
    With ALP-Lite we simply do not know how much water we would 
get. There have been no studies, so nobody knows. But the real 
danger is that ALP-Lite does not deauthorize the full project. 
We believe that the scaled down version of the project is quite 
simply a ploy to get a foot in the door so that the full scale 
project could be built later. There is no other plausible 
explanation for the supporters wanting to build an almost full-
sized dam and pumping plant. Our wet water would be turned into 
paper water, and you cannot farm with paper water.
    A few years ago, 62 percent of the population supported the 
Animas La Plata project. But now that we are beginning to 
realize what would happen to the Animas River if the project 
were built, only 34 percent are in favor. The Animas River 
agricultural water users do not want this project.
    Please oppose H.R. 3478 and support H.R. 745. This is the 
time to deauthorize the Animas La Plata project. Please do not 
make it easier to build.
    Thank you for the opportunity to testify. I invite you to 
ask questions about this issue.
[GRAPHIC] [TIFF OMITTED] T0754.005

      Statement of Thomas E. Atcitty, President, the Navajo Nation

    My name is Thomas Atcitty. I am the President of the Navajo 
Nation, the largest federally recognized Indian tribe, located 
in the states of the Arizona, New Mexico, and Utah. By 
resolution of the Intergovernmental Relations Committee of the 
Navajo Nation Council, I am authorized to appear before you 
today to express the support of the Navajo Nation for H.R. 
3478, the Colorado Ute Settlement Act Amendments of 1998, 
subject to certain conditions. These conditions will require 
three minor amendments as described herein.
    The Navajo Nation has historically been ambivalent about 
the Animas-La Plata Project. On one hand, the Project was 
designed to include a supply of municipal drinking water for 
Navajo communities in northwest New Mexico. On the other hand, 
because Navajo water rights in the San Juan River Basin have 
not been quantified, the Navajo Nation has been concerned that 
any new water development in the Basin may adversely affect our 
water rights or make future Navajo water development more 
difficult. We appreciate the difficulty that our sister Ute 
Tribes have experienced in getting a reliable supply of water 
to meet the needs of future generations of tribal members. 
Indeed, the Navajo Nation has experienced its own difficulties 
in water development in the Basin.
    The Navajo Nation historically confronted this dilemma by 
neither supporting nor opposing the Animas-La Project (the 
Project), while at the same time, offering support for the 
rights secured by our sister Tribes under the Colorado Ute 
Indian Water Rights Settlement Act (the Act). H.R. 3478 is 
appealing because the smaller project would result in less 
water depletions than the fully developed Project while 
providing the Utes with the water necessary to settle their 
claims. Although the amount of water provided to the Navajo 
Nation would also be reduced, we are willing to accept such 
reductions provided H.R. 3478 is amended to authorize a 
pipeline for the delivery of Project water to the Navajo 
Nation.
    We also recognize that water development in the San Juan 
Basin is tied to the cooperative efforts of the tribes and the 
non-lndian water users to recover the endangered fish in the 
river. The depletions described in H.R. 3478 are consistent 
with that effort and will encourage the continued partnership 
between the tribes and the other water users. To ensure that 
the New Mexico beneficiaries of the Animas-La Plata Project 
continue in this partnership, our support for H.R. 3478 is also 
contingent on an amendment that would require any water 
developed under permit number 2883, if such permit is 
transferred pursuant to section 6(b)(3) of the Act, to be 
subject to the same requirements under the Endangered Species 
Act that would have been applicable in the absence of such 
transfer.
    The Navajo Nation has asserted claims to water in the San 
Juan River Basin for the Navajo Indian Irrigation Project and 
for other purposes. The United States has not yet filed water 
rights claims on behalf of the Navajo Nation, nor has the 
United States pursued a negotiated settlement of these claims. 
As a result, the water rights claims of the Navajo Nation have 
not yet been fully adjudicated or quantified. This legislation 
is not intended to affect the Navajo claims, and our support 
for H.R. 3478 is also contingent on an amendment that would 
expressly state that Navajo water rights are not affected by 
this legislation.
    Finally, I would like to inform you of the settlement 
negotiations that have commenced between the Navajo Nation and 
the State of New Mexico to quantify Navajo water rights in the 
San Juan River Basin in New Mexico. We are hopeful that these 
negotiations will result in an agreement that will eventually 
be approved by Congress. In anticipation of our own settlement, 
we urge on behalf of our Colorado Ute neighbors, your favorable 
consideration of H.R. 3478, subject to the conditions I have 
described.
    We have worked, and will continue to work, with the Ute 
Tribes and with the other Project beneficiaries to draft 
amendments to the bill consistent with the principles I have 
described. The proposed amendments, which are acceptable to all 
Project beneficiaries, are attached. Thank you for this 
opportunity to express our support for this important bill.

       PROPOSED NEW MEXICO-NAVAJO NATION AMENDMENTS TO H.R. 3478

    The ALP proponents and the Navajo Nation request that the 
following amendments to H.R. 3478 be introduced and enacted.

    Sec. 3(c)(i) of H.R. 3478 is amended to read:

    (i) New Mexico and Navajo Nation Water Matters
          1. Assignment of Water Permit--Upon request of the State 
        Engineer of the State of New Mexico, the Secretary shall, in a 
        manner consistent with applicable State law, transfer, without 
        consideration, to the New Mexico Animas-La Plata Project 
        beneficiaries or the New Mexico Interstate Stream Commission 
        any portion of the Department of the Interior's interest in New 
        Mexico Engineer permit number 2883, dated May 1, 1956, in order 
        to fulfill the New Mexico purposes of the Animas-La Plata 
        Project, provided that this permit assignment shall not affect 
        the application of the Endangered Species Act to the use of the 
        water.
          2. Navajo Nation Municipal Pipeline--After the date of 
        enactment of the Colorado Ute Settlement Act Amendments of 
        1998, the Secretary shall provide for the construction of a 
        water line to augment the existing antiquated system to convey 
        municipal water supplies of the Navajo Nation from Farmington, 
        New Mexico, to the Navajo Indian Reservation at Shiprock, New 
        Mexico. Prior to such construction, the Secretary shall 
        initiate and complete appropriate environmental compliance with 
        respect to the Navajo Nation municipal pipeline. Construction 
        costs allocable to the Navajo Nation for the Navajo Nation 
        municipal pipeline shall be non-reimbursable.
          3. Protection of Navajo Water Claims--Nothing in this Act 
        shall be construed in any way to quantify or otherwise 
        adversely affect the water rights and the claims of 
        entitlements to water of the Navajo Nation.
                                 ______
                                 

        Statement of Gale A. Norton, Attorney General, Colorado

    I am sorry that I am unable to be here in person to testify 
today, but I appreciate this opportunity to express my support 
for H.R. 3478 and my opposition to H.R. 745. It seems fitting 
that this Committee is considering these two bills at the same 
time. H.R. 745 was introduced last year largely because of 
concerns about the high cost of building the Animas-La Plata 
Project. The project proponents responded to those concerns. 
The result is H.R. 3478, which drastically reduces the size and 
cost of the project.
    I am particularly disappointed in the Administration's 
failure to support H.R. 3478. Interior and EPA both have 
studied the Animas-La Plata Project intensively and 
participated fully in the Romer-Schoettler process to evaluate 
alternatives. They say that the project proponents' compromise 
isn't good enough, but they have never said what they do want 
or offered an alternative. Perhaps most frustrating, they use 
the Tribes' good faith compromises, such as agreeing to forego 
water delivery facilities, as an excuse to further delay 
meeting the Federal commitment to the Tribes.
    H.R. 3478 implements an agreement among the Southern Ute 
and Ute Mountain Ute Tribes, the Navajo Nation, and water users 
in Colorado and New Mexico to build a modified Animas-La Plata 
Project that will satisfy the Ute Tribes' reserved water rights 
claims for about one-third the cost to Federal taxpayers of the 
original project. This legislation responds to previous fiscal 
and environmental criticisms of the original project, as 
reflected in H.R. 745; provides for state and local cost-
sharing; and recognizes that the responsible Federal agencies 
have fully complied with the Endangered Species Act, the 
National Environmental Policy Act, and the Clean Water Act. 
Most importantly, however, H.R. 3478 is acceptable to the Ute 
Tribes as a final settlement of their legal claims to water 
from the Animas and La Plata Rivers. If H.R. 3478 is not 
enacted, the State of Colorado, the United States, the Ute 
Tribes, and southwest Colorado water users appear destined for 
years of expensive and acrimonious litigation.
    The Animas-La Plata Project's primary purpose is to settle 
litigation by the United States asserting reserved water rights 
on behalf of the Southern Ute and Ute Mountain Ute Tribes. Over 
a decade ago, both the United States and the State of Colorado 
made a solemn commitment to the Tribes to build the project so 
that the Tribes would have water to meet their needs. The 
Tribes have rejected all proposals to give them money instead 
of water, and decades of studies have shown that this project 
is the only feasible way to provide that water. H.R. 3478 
allocates to the Ute Tribes almost two-thirds of the depletions 
presently allowed by the U.S. Fish and Wildlife Service's 
biological opinion for the project, issued under section 7 of 
the Endangered Species Act.
    It is important to understand the history of the Federal 
and State of Colorado commitments to build Animas-La Plata. In 
Winters v. United States, 207 U.S. 564 (1908), the U.S. Supreme 
Court held that when the United States enters into a treaty 
with an Indian tribe creating a reservation, it impliedly 
reserves sufficient water to irrigate the reservation lands. 
These reserved water rights have a priority date based on the 
date of the creation of the reservation, which makes them 
senior to non-Indian water rights appropriated after the 
reservation was created. Based on the Winters doctrine, in 
1976, the United States Department of Justice filed re-

served water right claims in Colorado water court\1\ on behalf 
of the Ute Tribes. The original Ute Reservation was established 
by treaty in 1868 (with some later additions), making the 
claimed rights the most senior rights on the river.\2\ Thus, if 
successful, the Tribal claims would have preempted the vested 
water rights of non Indian water users. In the more water-short 
river basins, such as the La Plata River basin, the claims had 
the potential to exceed the entire available water supply, 
thereby drying up family farms and ranches that have existed 
for generations and wreaking havoc on local economies.
---------------------------------------------------------------------------
    \1\ The Department of Justice originally filed the claims in 
Federal District Court in 1972. The United States Supreme Court ruled 
that, under the McCarran Amendment, 43 U.S.C. Sec. 666, the case should 
be heard in state court. Colorado River Water Conservation Dist. v. 
United States, 424 U.S. 800 (1976).
    \2\ The United States actually claimed a priority date of time 
immemorial for the original reservation, but an 1868 priority would 
have the same practical effect.
---------------------------------------------------------------------------
    As the parties began preparing for trial, it became clear 
that there were many contested issues, including the priority 
dates of the claimed rights, the amounts of water to which the 
Tribes were entitled,\3\ the purposes for which the water could 
be used, whether the water could be used off the reservations, 
and how and by whom the rights would be administered.\4\ Rather 
than pursuing lengthy, costly, and hostile litigation, all the 
parties sat down together and, after years of negotiation, 
entered into the Colorado Ute Indian Water Rights Final 
Settlement Agreement in 1986. Two years later, Congress passed 
the Colorado Ute Indian Water Rights Settlement Act of 1988, 
Public Law 100-585, and President Reagan signed it, affirming 
the Federal commitment to build Animas-La Plata. In 1991, the 
Colorado water court entered consent decrees based on the 
Settlement Agreement and passage of the Settlement Act and 
necessary state legislation. However, compliance with 
environmental statutes and questions about the project's cost 
delayed construction.
---------------------------------------------------------------------------
    \3\ Indian reserved rights are generally quantified on the basis of 
``practicably irrigable acreage.'' Arizona v. California, 373 U.S. 546, 
598-601 (1963). This number was very much in dispute.
    \4\ Some have suggested that these are simple issues and that the 
State and water users would, in fact, easily prevail in litigate. These 
critics of the settlement point to legal arguments that the State could 
and probably would make if forced to litigate. However, they fail to 
fully understand or appreciate the Tribes' counter-arguments. I have 
reviewed the arguments on both sides and assure you that the battle 
would be hard-fought and the outcome far from certain.
---------------------------------------------------------------------------
    Thus, ten years after passage of the Settlement Act, the 
United States still has not kept its promise to build this 
project.
    In an effort to break the stalemate, project proponents 
entered into discussions with project opponents under the 
auspices of Colorado's governor and lieutenant governor. After 
meeting many times and consulting with Federal agencies, each 
side put forward a proposal. The opponents' proposal relied 
primarily on the payment of money, which was not acceptable to 
the Ute Tribes. The proponents, however, negotiated among 
themselves, with the Tribes and water users all making major 
concessions, to arrive at the proposal for a smaller, less 
expensive project that forms the basis for H.R. 3478. The 
project beneficiaries divided the 57,100 acre-feet of 
depletions allowed by the biological opinion, and allocated 
most of the project water to the Ute Tribes, with other water 
users in Colorado and New Mexico, including the Navajo Nation, 
receiving a smaller share. Sec. 3(a). Irrigated agriculture 
took the biggest hit; about 48,OOO acre-feet are allocated to 
Indian and non-Indian municipal and industrial uses, Sec. 3(a), 
while the Secretary is authorized to allocate an additional 
6,010 acre-feet for irrigation, Sec. 3(b). The Act does not 
include any facilities to deliver water to the La Plata basin, 
but non-Indian farmers and ranchers in that basin benefit from 
H.R. 3478 because it protects their existing water rights by 
finally removing the threat that has hung over their heads all 
these years. Sec. 3(c).
    Some project opponents question the Ute Tribes' decision to 
insist that the United States live up to its part of the 
bargain and build a real reservoir that holds real water rather 
than giving them money to buy water rights. These groups 
presume to tell the Tribes that they are making a bad deal 
because the modified project does not include water delivery 
facilities. Certainly the Tribes would prefer to have delivery 
facilities included in the project, as they should be under the 
Settlement Agreement and 1988 Act, but they elected to 
sacrifice those facilities in order to secure water in storage 
that they can use on or off the reservations, consistent with 
the water marketing provisions of the Settlement Agreement and 
the 1988 Act, which remain unchanged. Project opponents fail to 
respect the Tribes' long struggle to secure water for their 
future. Instead, they seek to penalize the Tribes for 
compromising, and to force them to take money in place of the 
water to which they are entitled.
    Project opponents also argue that H.R. 3478 exempts the 
Animas-La Plata Project from environmental compliance. That is 
absolutely not true. Rather, the Act recognizes that there has 
already been full compliance with the Endangered Species Act, 
the National Environmental Policy Act, and the Clean Water Act. 
Sec. 3(c). Animas-La Plata may well be the most thoroughly 
studied, modified, and mitigated water project in history. In 
fact, the high pumping costs about which its opponents complain 
are the result of the original, environmentally sensitive 
siting decision to build the reservoir off-channel, rather than 
in the Animas Gorge. Federal agencies and environmental groups 
who will be satisfied with nothing less than complete 
abandonment of the project seek to use environmental laws to 
literally study the project to death. H.R. 3478 simply says 
``enough is enough.'' \5\
---------------------------------------------------------------------------
    \5\ Section 3(c) only applies to the facilities and depletions 
described in H.R. 3478. Should the Fish and Wildlife Service ever 
increase the ceiling on project depletions, any expansion would require 
additional environmental compliance.
---------------------------------------------------------------------------
    Construction of the Animas-La Plata Project, as modified, 
remains essential to the settlement. Under the Settlement 
Agreement, if key portions of the project are not completed by 
January 1, 2000, the Ute Tribes have until January 1, 2005 to 
elect whether to go back to water court to pursue their 
original claims in the Animas and La Plata Rivers. If 
construction is well under way by then, I am confident that the 
Tribes will not pursue that option. However, unless Congress 
takes prompt and decisive action to end what has become an 
administrative nightmare and meet the Federal Government's 
commitment to the Tribes, I fear they will look to the courts 
for relief.
    Reopening of the Ute Tribes' claims would trigger 
litigation among the Tribes, the United States, the State of 
Colorado, and water right holders, as well as renewed 
uncertainty regarding the use and value of existing water 
rights. As discussed above, the Tribes' reserved rights claims 
raise a number of complex legal and factual issues and threaten 
the livelihoods of farmers and ranchers who rely on the already 
water-short La Plata River. Such litigation would involve 
virtually all water users in the Animas and La Plata basins, 
take many years of trial and appeals, cost millions of Federal, 
state, and local taxpayer dollars, and undo decades of 
cooperation between Indians and non-Indians in southwest 
Colorado.
    I do not exaggerate. The Big Horn River adjudication in 
Wyoming, which litigated the reserved right claims for the Wind 
River Indian Reservation, began in 1977 and was decided by the 
Wyoming Supreme Court for the first time in 1988. In re General 
Adjudication of All Rights to Use Water in the Big Horn River 
System, 753 P.2d 76 (Wyo. 1988). The case then went to the U.S. 
Supreme Court. Wyoming v. United States, 492 U.S. 406 (1989). 
Since then, the case has been to the Wyoming Supreme Court four 
more times. In re General Adjudication of All Rights to Use 
Water in the Big Horn River System, 803 P.2d 61 (Wyo. 1990); 
835 P.2d 273 (Wyo. 1992); Docket Nos. 93-48 & 93-49 (Oct. 26, 
1993) (unreported order dismissing appeal); 899 P.2d 848 (Wyo. 
1995). Nor have the issues been finally resolved. There is 
presently a proceeding underway to resolve disputes over 
quantification of private rights derived from tribal lands. All 
told, the State of Wyoming and the United States have spent 
tens of millions of dollars litigating the Wind River 
Reservation claims for more than twenty years, and the result 
is continuing conflict.
    While I obviously cannot discuss the State of Colorado's 
possible defenses to the Tribes' claims, or the likely outcome 
of the litigation (other than to say that the issues are 
complex and would be hard-fought), one thing is certain: there 
will be a big loser, whether it is the Tribes or the water 
users, and, ultimately, the entire region will suffer. H.R. 
3478 is the right thing to do. The Act meets the United States' 
trust obligations to the Ute Tribes and protects the existing 
property rights of all water users in the Animas and La Plata 
basins in Colorado in a way that is fiscally and 
environmentally responsible. I fully support it and urge you to 
do likewise.
                                ------                                


 Statement of Charles Blassingame, Board Member, La Plata Conservancy 
                     District, La Plata, New Mexico

    Mr. Chairman and members of the Subcommittee, Thank you for 
the opportunity to support H.R. 3478, the Colorado Ute 
Settlement Act Amendments of 1998. I want to explain why this 
legislation in critical to me. It is critical even though the 
Revised Animas-La Plata Project outlined in the legislation 
significantly cuts the amount of depletions's New Mexico 
Irrigators have counted on since 1968 from the authorized, full 
sized Animas-La Plata Project.
    The settlement of Ute Indian water claims provided by this 
legislation protects the water rights I currently own and use. 
Without the settlement of Indian water claims, those rights are 
in jeopardy. That is why we were willing to agree to the 
drastic reductions in water depletion's and the total 
elimination of irrigation facilities proposed in this 
legislation. The New Mexico Irrigators anticipated about 15,000 
acre-feet per year of new water from the full Animas-La Plata 
Project, along with the delivery system to move the water from 
the Animas River to our La Plata River Valley. We intended to 
use this new water to allow us to grow more and higher value 
crops on our fertile land.
    Irrigators on the La Plata River know the importance of 
water. The majority of La Plata water flows are in April, May, 
and June. By the last of June we are cutting water according to 
Priority. Since 1922, New Mexico and Colorado Irrigators have 
shared La Plata water through the La Plata River Compact 37-63-
101. The Compact provides for equitable distribution of the 
water of the La Plata River and to remove all causes of present 
and future controversy between the State of Colorado and New 
Mexico over La Plata river water. Failure to settle the Ute 
Indian water claims as proposed in H.R. 3478 puts this 
cooperation in jeopardy, as the Ute Tribes will be forced to 
re-assert their claims to all the water in the La Plata and 
Animas river.
    The La Plata Conservancy District has cooperated with the 
Ute Mountain Ute Tribe, Southern Ute Tribe, Navajo Nation, San 
Juan Water Commission, Southwestern Water Conservancy District 
and the Animas-La Plata Water Conservancy District to agree to 
only 780 Acre-feet per year of depletions, or less than 10 
percent of our promised water. I believe this spirit of 
cooperation is unusual in the unity all have expressed in 
coming to a workable alternative to the original ALP.
    As truck load after truck load of hay passes through La 
Plata from the Dolores River Project on the way to dairy farms 
in Southern New Mexico, Texas and Mexico, we can only dream of 
what we thought we were to receive in the Animas-La Plata 
Project in 1968.
    H.R. 3478 allows us to maintain our historic water rights. 
Please support H.R. 3478, the Colorado Ute Settlement Act 
Amendments of 1998.
    Thank you.
                                ------                                


 Statement of Richard K. (Mike) Griswold, Board Member, The Animas-La 
                    Plata Water Conservancy District

    My name is Mike Griswold. I have been a member of the Board 
of Directors of the Animas La Plata Water Conservancy District 
for four years. Before my retirement, I worked for the U.S. 
Forest Service, the National Park Service and Congressional 
staffs for over 30 years.
    The history of the Animas-La Plata Project is a history of 
compromise and cooperation. The non-Indian water users who were 
to receive irrigation water from the Project have compromised 
to the point that only critically needed municipal water 
supplies are left in the Project for the beneficial use of non-
Indian water users in Southwestern Colorado. Because national 
environmental organizations have been successful in delaying 
the Project, the irrigation of new croplands, a long held dream 
of farmers and ranchers in Southwestern Colorado, has 
disappeared. National environmental organizations have 
gleefully destroyed the dream of new water storage so vitally 
needed in our area and offer instead the redistribution of an 
already short supply of water.
    I would now like to address, for the information of the 
Committee, a few of the many untruths that national 
environmental organizations continue to tell about the Project.
    1. National wildlife organizations state that A/LP Lite 
still harms the environment and ``. . . would adversely affect 
a gold medal trout fishery.'' The trout fishery on the Animas 
River, a stocked fishery, received a gold medal designation 
because of the support of the Southwestern Water Conservation 
District. The District contracted for a fishery biologist to 
evaluate the designation. The biologist's findings indicated 
that neither the water project nor designation would adversely 
impact the other. Therefore, the proponents of the Animas-La 
Plata Project favorably recommended the gold medal designation.
    2. Environmentalists say ``Animas-La Plata Lite would 
adversely affect an Olympic whitewater training site.'' The 
referenced whitewater park, however, lies entirely upstream 
from the passive intake for the pumping station of the Project. 
To our knowledge, there is no official ``Olympic training 
site'' on the entire Animas River.
    3. Environmentalists say A/LP Lite ``would . . . adversely 
impact . . . endangered fish species.'' The U.S. Fish and 
Wildlife Service's Final Biological Opinion for the Animas-La 
Plata Project, which limits Project depletions to 57,1000 acre 
feet annu-

ally, states that the Project, with only that amount of 
depletions, would have no adverse impact upon the endangered 
fish. Furthermore, because of the Project, the San Juan River 
Recovery Implementation Program was established eight years ago 
and is actively attempting to recover the endangered fish.
    4. Environmentalists say the Project would ``inundate 
Colorado's Bodo Wildlife Area, wintering habitat for the 
state's second largest elk herd.'' In reality, the Project 
would inundate only a small fraction of the Bodo Wildlife Area, 
with mitigation land to be purchased as part of the Project. 
The elk herd, which is not even the second largest band of elk 
in La Plata County, Colorado, much less in the state of 
Colorado, utilizes the Bodo area only during a short portion 
oftheir migration each year.
    5. Environmentalists completely misstate the alleged Bureau 
of Reclamation's admission that the Project would return ``just 
36 cents for each taxpayer dollar spent.'' The 
environmentalists fail to mention that the Bureau of 
Reclamation, on the very same page of its Economic Analysis 
Summary, states that the benefit/cost ratio for the Project 
varies between a low of 36/dollar to a high of $1.41/dollar, 
depending upon the analysis process used and the rates of 
interest assumed in the evaluations. Furthermore, the economic 
analysis process used by the Bureau of Reclamation charged 
costs to the Project, including a reduction in revenues from 
power generation at Glen Canyon Dam and salinity costs on the 
Colorado River, which have never before been charged to any 
Bureau of Reclamation project.
    6. The environmentalists say ``the Citizen's Coalition and 
the Southern Ute Grassroots Organization have developed an 
alternative which would provide the full amount of water in the 
Settlement Agreement and allow the Tribes to develop it where 
it is needed.'' This alternative, known as the SUGO Legacy 
Fund, was carefully considered and vehemently rejected by the 
Tribal Councils of both the Southern Ute Indian Tribe and the 
Ute Mountain Ute Tribe. The so-called Legacy Fund was rejected 
primarily because it would not provide the Tribes the full 
amount of stored municipal and industrial water in the 
Settlement Agreement. In fact, the Fund would not provide any 
stored water. It would provide the Tribes only with money to 
buy land and irrigation water from their neighbors and friends, 
which the Tribes would then be required to change to municipal 
and industrial use in protracted litigation in Colorado State 
Water Court; Without a storage reservoir, the Legacy scheme is 
a redistribution of an existing water shortage.
    7. Finally, environmental organizations claim that this 
legislation exempts A/LP Lite from ``. . . The Clean Water Act, 
The Endangered Species Act, and the National Environmental 
Policy Act.'' The legislation, however, states only that the 
massive environmental documents already provided for the 
Animas-La Plata Project, at a cost of over $20 million, have 
satisfied the requirements of those Acts. The legislation reads 
as follows: ``the April 1996 Final Supplement to the Final 
Environmental Impact Statement-Animas-La Plata Project issued 
by the Department of the Interior and all documents 
incorporated therein and attachments thereto and the February 
19, 1996 Final Biological Opinion of the United States Fish and 
Wildlife Service-Animas-La Plata Project shall be considered to 
be adequate to satisfy any application under . . . the ESA, 
NEPA or Federal Water Pollution Control Act.'' This is not a 
waiver. The Congress is only being asked to acknowledge that 
enough is enough--$20 million of environmental studies are 
adequate to construct this greatly reduced version of the 
authorized Project.
    These are only a few examples of the false statements the 
environmentalists are making in seeking to defeat H.R. 3478. 
H.R. 3478 exemplifies a spirit of cooperation and agreement 
between the Indian and non-Indians in this resolution of the 
reserved water rights claims of the two Colorado Ute Indian 
Tribes. It was agonizing for my farmer and rancher friends to 
give up their irrigation water in limiting the Project to 
depletions of 57,000. We are here, however, to ask you to 
support the fulfillment of the government's trust obligation to 
the Tribes and its obligations to the Tribes' non-Indian 
friends and neighbors.
                                ------                                


      Statement of Fred V. Kroeger, President, Southwestern Water 
                         Conservation District

    My name is Fred Kroeger. I am President of the Board of 
Directors of the Southwestern Water Conservation District of 
Colorado and a member of the Board of Directors of the Animas-
La Plata Water Conservancy District. I was a member of the 
Colorado Water Conservation Board for 21 years. I am submitting 
this written statement in support of passage of H.R. 3478.
    I regret that I am not able to personally attend the 
hearing today. My absence will break my record of appearances 
before Committees of the Congress in support of the Animas-La 
Plata Project. I first appeared before the Committees which 
were considering the legislation which eventually became the 
Colorado River Basin Project Act of 1968. As you will recall, 
the Basin Project Act authorized for concurrent construction 
the Central Arizona Project, together with five water resource 
development projects in Southwestern Colorado. That, of course, 
has not happened. While the Central Arizona Project has been 
completed, only two of the five Colorado projects have been 
constructed: the Dallas and the Dolores Projects. The only 
other project of the five that has received active 
consideration in the past 15 years is the Animas-La Plata 
Project.
    In the early 1970's I first testified on behalf of 
construction funds for the Dallas and Dolores Projects and 
planning funds to complete the Animas-La Plata Projects 
Definite Plan Report and Environmental Impact Statement. Upon 
completion of those documents in 1980, I, as well as many of my 
constituents, were convinced that the Project would be under 
construction shortly thereafter. Unfortunately, continuous, 
detrimental delays have driven up the cost of the Project as 
first envisioned and proponents have been forced once again to 
accept a compromise which greatly reduces the benefits to our 
citizens.
    Despite this loss to farmers and ranchers, I am here today 
to urge your support for H.R. 3478, the Colorado Ute Settlement 
Act Amendments of 1998. This legislation will settle the 
reserved water rights claims of the two Colorado Ute Indian 
Tribes in southwestern Colorado once and for all. The 
settlement legislation represents the final compromise in our 
decades-long effort to resolve the Tribes' claims by 
negotiation, instead of litigation.
    I am also here today to strongly oppose H.R. 475, 
legislation which has been introduced to deauthorize the 
Animas-La Plata Project. Passage of that legislation would be a 
breach of faith and a breach of trust not only to the two 
Colorado Ute Indian Tribes, but also to the non-Indian water 
users and municipalities of Southwestern Colorado and 
Northwestern New Mexico. H.R. 475 is an outrageous proposal. 
Passage of that legislation would say ``Congress does not care 
that Congress passed the Ute Water Rights Settlement Act in 
1988, that the President of the United States signed the Act in 
1988. We are going to turn our back on that legislation and 
demand everybody begin all over again.'' ``Blood, sweat and 
tears'' have been put into the effort to settle the legitimate 
Indian reserved water right claims in Southwestern Colorado and 
at the same time provide a critically needed water supply for 
our area, water which we in the West must have if our part of 
the country is going to prosper in the future. Such a message 
from Congress would be a death knell for all other Indian water 
rights settlements now being negotiated.
    The history of the Animas-La Plata Project is a history of 
compromise. Together, the two Colorado Ute Tribes and non-
Indian water users have strived to achieve a resolution of the 
Tribes' reserved water rights claims in a positive manner for 
all in the community. The farmers and ranchers whom I represent 
here today have compromised more and given up more than any 
other group in their efforts to solve the Tribes' claims. The 
cooperation between the two Indian tribes and the non-Indian 
water users in the San Juan Basin for more than three decades 
speaks to the mutual respect of those friends and neighbors.
    Two outstanding examples of the spirit of cooperation to 
achieve a win-win situation are the Animas-La Plata Project 
cost-sharing agreement of 1985 and the 1986 tribal water rights 
settlement agreement. In the cost-sharing agreement, the State 
of Colorado and local water users committed more than $60 
million toward the resolution of the Ute Indian water claims. 
The key ingredient of the 1986 Settlement Agreement is new 
water storage: the Ridges Basin Reservoir of the Animas-La 
Plata Project. If the Ute Indian Tribes were to receive the 
water to which they are legally entitled without the 
construction of new storage, non-Indian farmers who have been 
utilizing that water for more than 95 years would be deprived 
of their water supply and the non-Indian agricultural economy 
in southwestern Colorado and northwestern New Mexico would be 
destroyed. The Tribes and their neighbors are solidly committed 
to a solution which does not rob Peter to pay Paul. H.R. 3478 
is that solution despite the sacrifices it requires.
    Project supporters thought that with the passage of the 
1988 Colorado Ute Indian Water Rights Settlement Act, Project 
construction would be forthcoming. However, ten years after 
passage of that landmark legislation, which was widely 
recognized as a model for the settlement of Indian water rights 
claims, the Project is still not under construction. Project 
opponents, without a personal stake in the settlement of the 
Tribes' rights, have delayed the construction of the Animas-La 
Plata Project. Those delays drove up the cost of the original 
project to the point that the water users and the Tribes were 
required to make further compromises and sacrifices.
    We are before you now with the results of those compromises 
and sacrifices, about which nobody is happy, but which everyone 
recognizes are necessary for securing the new stored water so 
vital for all the water users in the San Juan Basin. Instead of 
a project to provide 150,000 acre-feet of water depletions in 
our area, we now have a project which complies with the 
Endangered Species Act and limits our depletions of water to 
57,100 acre-feet of water per year. To divide that limited 
water supply among the beneficiaries of the Animas-La Plata 
Project was a difficult, heart-wrenching process.
    Under the compromise before you, the two Ute Indian Tribes 
will not receive all of the water they were promised in 1988, 
but the cost to the Tribes will be limited to the cost of 
Project operations and maintenance. The non-Indian farmers and 
ranchers will not receive the benefits they were first promised 
in 1956, subsequently in 1968, and again in 1988. The non-
Indian farmers and ranchers have agreed to relinquish all of 
the irrigation water and facilities which for so many years 
were a central feature of the Animas-La Plata Project. While 
irrigation may not now be popular, it is vital. Nevertheless, 
the non-Indian ranchers and farmers recognized that under the 
current political atmosphere it would not be possible to 
proceed with the Animas-La Plata Project as approved in 1988.
    Then why do the non-Indian ranchers and farmers support the 
proposed legislation? First and foremost, the two Colorado Ute 
Tribes have agreed that the modified Animas-La Plata Project 
will settle all of their reserved water rights claims in the 
San Juan Basin. This removes any remaining threat to the non-
Indian water users in our area; i.e. the proposed legislation 
settles the Tribes' claims in a way that avoids the Tribes 
taking any water away from their non-Indian friends and 
neighbors. Secondly, the legislation will provide a much needed 
domestic supply of water for the growing communities in 
Colorado, including the City of Durango, and communities in 
northwestern New Mexico. Finally, the legislation respects the 
Federal Government's trust obligation to the Tribes.
    I anticipated that the opponents of the Animas-La Plata 
Project would throw up their hands and declare victory over the 
scaled-back Animas-La Plata Project. Despite the major 
concessions agreed to by proponents of the Animas-La Plata 
Project, that is not the case. The opponents would have the 
Federal Government continue to conduct repetitious 
environmental studies, studies which have already 
conservatively cost tens of millions of dollars. The opponents, 
claiming to be friends of the Ute Indian Tribes, have 
threatened to litigate the Animas-La Plata Project for the next 
forty years.
    The proponents of the Animas-La Plata Project have worked 
long and hard to avoid the bitter and divisive court action 
that will result unless additional water storage is available 
for the Ute Indian tribes and our communities. The Project has 
undergone agonizing environmental examination and repeated 
consultations under the Endangered Species Act. Despite all the 
delays and modifications, the Project continues to have broad-
based bipartisan support from local and state officials. Your 
passage of this legislation will enable us to proceed with 
construction of the Project and to finally settle the Indian 
water rights claims. Construction of the Project is the only 
fair and equitable way to settle the Tribes' claims without 
ripping apart the cultural and economic fabric of our region.
                                ------                                


 Statement of Chairman Joseph A. Pakootas, Colville Business Council, 
         Confederated Tribes of the Colville Indian Reservation

    The Colville Confederated Tribes would like to present the 
following testimony into the record before the House of 
Representatives on Bill H.R. 3987, the Deer and Elk Protection 
Act.
    The Colville Tribes are strongly opposed to H.R. 3987 which 
is a divisive piece of legislation and a blatant attempt to 
undermine tribal sovereignty. If passed, it would violate 
numerous laws, endanger the health of deer and elk, and 
undermine existing successful efforts by tribes and states to 
cooperatively solve resource and wildlife issues.
    Our testimony today centers around three main points. One, 
the Colville Tribes have a long-standing federally recognized 
right to hunt off of the Colville reservation. Two, the 
language of this bill would abrogate this right to hunt off of 
the Colville reservation. The reasons why this right should not 
be abrogated are numerous and will be specifically detailed 
below.
    Three, the findings contained in the bill are false and 
inaccurate.
    Indian hunting rights, whether on or off reservation, have 
long been recognized as distinct tribal property rights 
stemming from the ``reserved rights doctrine.'' In the specific 
case of the Colville Tribes, the right to hunt off reservation 
centers around use of the North Half reservation territory and 
the express retention of the right to hunt in the North Half 
contained in Article 6 (six) of the 1891 agreement between the 
Colville Tribes and the Federal Government.
    The original reservation of the Colville Tribes was 
significantly reduced through an agreement with the Federal 
Government in 1891. According to the terms of this agreement, 
the 1.5 million acre ``North Half'' of the Colville Tribes' 
reservation was granted to the Federal Government, consistent 
with certain limitations. Prominent among these was the 
explicit language in Article 6 (six) of the agreement that 
``the right to hunt and fish in common with all other persons 
on lands not allotted to said Indians shall not be taken away 
or in anywise abridged.''
    This agreement was approved by Congress through a series of 
statutes in 1892 and 1906 through 1911. Additionally, the 
Colville Tribes' off reservation hunting rights on the 
territory of the North Half were directly reaffirmed by the 
Supreme Court in the case of Antoine v. Washington. As stated 
by the Supreme Court, the Congressional ratification of the 
North Half agreement made its provisions the supreme law of the 
land, and as such precluded the application of State game laws 
through the force of the supremacy clause of the United States 
Constitution. Thus, Congressional statutory authorization of 
the North Half agreement and its provision granting the 
Colvilles' right to hunt off reservation in the North Half 
coupled with the subsequent Antoine decision establish an 
explicit off reservation hunting right for the Colville Tribes.
    Regardless of the source and extent of the tribal right to 
hunt off-reservation, any abridgement of this property right 
would constitute a ``taking'' under the Fifth Amendment of the 
Constitution. As the United States Supreme Court recognized in 
its 1968 decision in Menominee, the Congressional abrogation of 
a tribe's right to hunt would give rise to a Fifth Amendment 
taking.
    In regards to the compensation needed to ``take'' the 
Colvilles' right to hunt in the North Half, a cursory look at 
the details of the 1891 agreement point to a figure that would 
be staggering, even for the budget parameters of an entity as 
large as the Federal Government. According to the 1891 
agreement, the Colville Tribes granted to the Federal 
Government 1.5 million acres for the mere price of one dollar 
per acre, coupled with the right to hunt and fish in the 
territory of the North Half, unabridged in any way, for 
perpetuity. Considering the loss of mere timber, mineral, and 
other resource extraction commodities, the price of one dollar 
per acre is absurdly inadequate. Add to this the loss of 
roughly fifty percent of the tribal reservation land base, and 
the value of hunting and fishing in Colville tribal culture and 
it is quickly apparent that the greatest benefit of the 1891 
agreement from the tribal perspective was the retainment of the 
right to hunt and fish in the North Half. Thus, the amount of 
compensation needed to be appropriated from the Federal budget 
for the taking of the Colville Tribes's off-reservation hunting 
right in the North Half, coupled with the necessary 
compensation for the taking of all other Washington tribes 
reserved right to hunt would dwarf any perceived benefit from 
H.R. 3987.
    That the language of H.R. 3987 would be an abridgement and 
complete taking of the Colvilles' right to hunt off reservation 
cannot be denied. Under the language of the bill, Colville 
tribal members hunting rights would be qualified by the State 
of Washington by requiring Colville tribal members to comply 
without their consent with any State law governing non-Indian 
hunters, including such items as time of hunting season, bag 
limits, and licensing requirements. Previous ``right to hunt'' 
language reserving to Indians in an area ceded to the United 
States ``the right of taking fish at all usual and accustomed 
places, in common with citizens of the Territory'' and ``[t]he 
right of taking fish, at all usual and accustomed grounds and 
stations, is further secured to said Indians, in common with 
all citizens of the Territory . . .'' has been held by the 
Supreme Court to prohibit qualification by the State. In the 
specific case of the Colville Tribes and the right to hunt 
contained in the 1891 agreement, Article 6 presents an even 
stronger case since Congress' ratification of it included the 
flat prohibition that the right ``shall not be taken away or in 
anywise abridged'' (emphasis added). Thus, while holding no 
comment on the amount or type of qualification prohibited by 
other ``right to hunt'' language, the Colville ``right to 
hunt'' language contained in Article 6 clearly prohibits any 
State qualification.
    Viewed conversely, to hold as H.R. 3987 proposes that 
Indians who are beneficiaries of the reserved hunting rights of 
treaty and other Federal agreements are subject to the same 
regulations and prohibitions as the State may impose on non-
Indians, is to hold that Congress and the Federal Government 
preserved nothing which the Indians would not have had without 
such legislation. Such a finding would not only defy any 
logical interpretation of a negotiated, bargained agreement 
between tribes and the Federal Government regarding the ceding 
of land, but would also violate long standing judicial holdings 
on the interpretation of treaties and Federal-tribal 
agreements. Thus, the canons of treaty construction, coupled 
with the ju-

dicial recognition of the unqualified purity of the Colvilles' 
right to hunt, dictate that H.R. 3987 be analyzed as an 
abrogation and taking of Colville tribal property rights.
    In addition to previous points, H.R. 3987 should be 
rejected due to the false and incorrect findings contained 
within the language of the bill. Any legislation, regardless of 
subject matter or interest groups affected, that is based upon 
inaccuracies of this size and scope must be discarded as 
inherently flawed. A technical analysis of these findings is 
attached for your review.
    Technical Analysis of the Findings in H.R. 3987 The 
proposed legislation is inherently flawed because the findings 
upon which it is based are false and therefore incorrect. The 
first finding states that ``dramatic economic changes have 
taken place in the State of Washington since Indian tribes 
signed treaties with the Federal Government and, as a result of 
those changes, Indians and Indian tribes in the State of 
Washington no longer rely on hunting deer and elk for 
subsistence.''
    We agree that dramatic changes, economic and otherwise, 
have occurred in Washington State since the mid-1800s. Indians 
in Washington are well aware of these changes. Prior to treaty 
signings, we lived our traditional ways on the lands and waters 
of our ancestors. By the turn of the century, we had all been 
put on reservations. At present, we are striving to retain our 
cultural and spiritual identity while adapting to the complex 
backdrop of a modern world.
    These are indeed dramatic changes.
    We do not agree, however, that Indian people no longer rely 
on deer and elk for subsistence as a result of such changes. In 
fact, this statement could not be further from the truth. The 
referenced economic changes have not ``floated all boats 
equally'' and unemployment on the Colville Reservation remains 
exponentially higher than non-reservation communities. In 
addition, many Colville tribal members who are employed do not 
make incomes that permit good acquisition on a regular basis 
from a grocery store. The proposed legislation implies that all 
or most Indians now have the means to purchase all their food. 
This is simply not true.
    Diet supplementation with wild game is absolutely essential 
for many Colville families. Year in, year out, many of our 
people depend on deer and elk taken on the North Half.
    In addition to playing an essential role in providing 
general dietary sustenance, deer and elk are also traditional 
cultural and religious foods of the Colville Tribes. The use of 
deer and elk meat is absolutely essential to many religious 
ceremonies of the Colville Tribes, while body parts such as 
hides, antlers, bones, and hooves have important ceremonial 
uses also. Further, many religious ceremonies of the Colville 
Tribes require relatively immediate access to deer and elk meat 
and body parts. Any application of State hunting law which 
would infringe upon these religious tenets of the Colville 
Tribes would be subject to First Amendment and Indian religious 
freedom protection.
    The second finding of the bill states that ``the consistent 
enforcement of laws and regulations pertaining to hunting deer 
and elk throughout the State of Washington on all lands outside 
of Indian reservations is necessary for the conservation of 
deer and elk and to protect public safety.'' This statement is 
true in principal but not in substance. It implies that State 
of Washington rules are the only ones that can be consistent. 
This is not true. Indian Tribes also believe in and practice 
``the consistent enforcement'' of their laws.
    The second finding is also not substantiated by harvest 
statistics or other related facts.
    Human predation is typically the most significant direct 
form of mortality on ungulate populations, particularly in 
modern times. To combat this, conservation measures such as bag 
limits are often necessary to maintain herds. H.R. 3987 implies 
that tribal seasons are excessive and threaten herd 
sustainability statewide. Data clearly show, however, that the 
greatest pressure on Washington deer and elk populations is 
non-Indian harvest, not tribal harvest. In fact, the non-
Indian, state harvest typically exceeds tribal harvest by 
several orders of magnitude.
    Estimates of statewide deer harvest from 1988-1995 provided 
by the Washington Department of Fish and Wildlife show that 
tribal harvest constituted a mere 3.5 percent of the total 
combined tribal and non-tribal harvest. As examples, in 1995, 
Washington State non-Indian hunters took 37,765 deer while 
tribal hunters took 1,740. Over the entire eight year period 
(1988-95), state hunters harvested 376,160 deer and tribal 
hunters harvested 12,996. An identical situation exists with 
the statewide elk harvest. From 1988-1995, the tribal harvest 
made up 3.6 percent of the total combined harvest. In 1995, 
state hunters took 6,429 elk while tribal hunters took 286. 
Over the eight year period, the state harvest was 66,793 
animals and tribal harvest was 2,377.
    Even if tribal deer and elk harvest have been 
underestimated, tribal harvest levels would have to increase 
two hundred percent to equate with a ten percent change in the 
state harvest.
    Clearly, tribal harvest constitutes a minuscule portion of 
the combined harvest. It also should be noted that in cases 
where the combined, localized tribal and non-tribal harvests 
were causes for concern, tribal and state managers have come 
together and worked out solutions.
    For example, the Colville Tribes have voluntarily shortened 
our mule deer seasons on the North Half for the past two years 
in the interests of conservation.
    Additionally, none of the figures on state deer and elk 
harvest levels figures include poaching losses. These poaching 
losses are significant in number and attributed almost 
entirely, if not completely, to non-Indians. Washington State 
estimates that 2,000 elk are taken out of season every year, 
which represents approximately six to seven years of tribal 
harvest, based on the 1988-1995 average.
    In view of these facts, why is the consistent enforcement 
of state regulations necessary for the conservation of deer and 
elk? Under the ``reasonable and necessary conservation'' rule 
of earlier Federal court decisions, Indian hunting and fishing 
rights which normally may not be qualified by the states, may 
be regulated by the state in the interest of conservation. The 
State, however, must demonstrate that: (1) there is a 
compelling need in the interest of conservation; (2) state 
regulation is a reasonable and necessary conservation measure; 
and (3) its application to Indians is necessary in the interest 
of conservation. This avenue for conservation is still left 
intact if H.R. 3987 is halted. The Colville Tribes propose that 
this avenue continue to remain as the correct form for managing 
and conserving deer and elk within the borders of Washington 
State.
    H.R. 3987 also overlooks the fact that states work with 
tribes as sovereign co-managers of their wildlife resources. 
Through the co-managing process with the State of Washington, 
tribes set and regulate seasons for their members and monitor 
tribal harvests. In many cases in Washington, tribal season 
frameworks are forwarded to the Department of Fish and Wildlife 
for comment and harvest data is shared. The Colville Tribes are 
no exception and have a twenty year history of sharing harvest 
data and season information with the State. The Colvilles also 
have an agreement with the State of Washington wherein certain 
species of fish and game on the Reservation are available for 
non-tribal harvest in the interests of conservation and 
recreational opportunity. This agreement also provides for 
joint law enforcement and animal damage control in boundary 
areas.
    Overall, the Colville Tribes have a good working 
relationship with the Washington Department of Fish and 
Wildlife. The Tribe and the State are involved in several joint 
undertakings such as off reservation big game aerial surveys, 
research on the state threatened sharp-tailed grouse, peregrine 
falcon reintroduction, screening irrigation intake pipes to 
protect anadromous fish, and a mule deer research study 
proposal. The Tribe has also funded off reservation big game 
winter feeding programs and a state fish hatchery in 
northeastern Washington.
    Another flaw in the findings of H.R. 3987 is that they 
assume that tribal season frameworks and bag limits are 
excessive and that tribal game management programs are inferior 
to those of a state. These assumptions demonstrate the depth of 
misunderstanding and lack of accurate information in the minds 
of many non-Indians regarding tribal hunting. To illuminate the 
fallacy of these assumptions, it should be known that tribes 
are comparatively small, homogenous, interrelated groups of 
people. As a result, tribal hunters tend to have similar goals 
and views on hunting and wildlife in general. Further, tribal 
managers are in direct contact with a significantly larger 
portion of their hunters than their state counterparts. Tribal 
managers are also in direct contact with policy makers (the 
tribal councils) at a level and frequency of access superior to 
that of their state counterparts. These facts provide tribes 
the opportunity to closely monitor harvest, to take action 
rapidly, and in general to be adaptable and proactive at a rate 
that is not available to that of the State.
    As an example, in Washington State elk herds in the Blue 
Mountains used to have only three to four bulls per one hundred 
cows and few, if any, mature bulls. Such attributes in turn 
affected calf production, survival and recritment. These skewed 
demographics were found to be a result of years of heavy bull 
harvest under Washington State elk season frameworks rather 
than a result of tribal hunting.
    This bill also does not mention, let alone address, other 
issues affecting deer and elk in Washington, particularly loss 
and conversion of habitat. These conditions are caused by over 
exploitation of forest products, improper grazing practices, 
urban and industrial development, and the overall crush of a 
growing human population and the demands put on the land as a 
result.
    The American West is experiencing unprecedented population 
growth as people depart other areas to settle in this region. 
Not only is the West the fastest growing region in America, it 
rivals the growth rate of Africa and exceeds that of Mexico. 
Washington is no exception to this trend and is growing by 
100,000 people a year. This State was once defined by low 
population densities living on rural lands held in large 
contiguous ownership patterns. Now many areas are seeing sharp 
increases in housing densities, human densities, roads, 
shopping malls, et cetera. This translates into less habitat 
for many forms of wildlife and more pressure on hunted species. 
This is particularly true in Washington which is the smallest 
western state with the second highest human population and the 
lowest percentage of public land.
    Are not the wildlife resources of Washington, and the 
nation, better served through the cooperative efforts of tribal 
and non-tribal management entities to jointly address and solve 
resources problems? Would not the time and money spent in 
countering the divisive efforts of a few be better spent on 
protecting and improving critical habitat? Wouldn't it be 
better to bring people together to find solutions than to drive 
wedges between them while problems continue to multiply 
virtually unchecked? Our answer is an emphatic, resounding YES! 
We believe this is the best way to meet the resource challenges 
facing all Americans and we will continue to choose the path of 
cooperation and objectivity for the sake of our resources and 
that of future generations.
    For the forgoing reasons, we urge you to oppose this bill.

    [GRAPHIC] [TIFF OMITTED] T0754.006
    
    [GRAPHIC] [TIFF OMITTED] T0754.007
    
    [GRAPHIC] [TIFF OMITTED] T0754.008
    
    [GRAPHIC] [TIFF OMITTED] T0754.009
    
    [GRAPHIC] [TIFF OMITTED] T0754.010
    
    [GRAPHIC] [TIFF OMITTED] T0754.011
    
    [GRAPHIC] [TIFF OMITTED] T0754.012
    
    [GRAPHIC] [TIFF OMITTED] T0754.013
    
    [GRAPHIC] [TIFF OMITTED] T0754.014
    
    [GRAPHIC] [TIFF OMITTED] T0754.015
    
    [GRAPHIC] [TIFF OMITTED] T0754.016
    
    [GRAPHIC] [TIFF OMITTED] T0754.017
    
    [GRAPHIC] [TIFF OMITTED] T0754.018
    
    [GRAPHIC] [TIFF OMITTED] T0754.019
    
    [GRAPHIC] [TIFF OMITTED] T0754.020
    
    [GRAPHIC] [TIFF OMITTED] T0754.021
    
    [GRAPHIC] [TIFF OMITTED] T0754.022
    
    [GRAPHIC] [TIFF OMITTED] T0754.023
    
    [GRAPHIC] [TIFF OMITTED] T0754.024
    
    [GRAPHIC] [TIFF OMITTED] T0754.025
    
    [GRAPHIC] [TIFF OMITTED] T0754.026
    
    [GRAPHIC] [TIFF OMITTED] T0754.027
    
    [GRAPHIC] [TIFF OMITTED] T0754.028
    
    [GRAPHIC] [TIFF OMITTED] T0754.029
    
    [GRAPHIC] [TIFF OMITTED] T0754.030
    
    [GRAPHIC] [TIFF OMITTED] T0754.031
    
    [GRAPHIC] [TIFF OMITTED] T0754.032
    
    [GRAPHIC] [TIFF OMITTED] T0754.033
    
    [GRAPHIC] [TIFF OMITTED] T0754.034
    
    [GRAPHIC] [TIFF OMITTED] T0754.035
    
    [GRAPHIC] [TIFF OMITTED] T0754.036
    
    [GRAPHIC] [TIFF OMITTED] T0754.037
    
    [GRAPHIC] [TIFF OMITTED] T0754.038
    
    [GRAPHIC] [TIFF OMITTED] T0754.039
    
    [GRAPHIC] [TIFF OMITTED] T0754.040
    
    [GRAPHIC] [TIFF OMITTED] T0754.041
    
    [GRAPHIC] [TIFF OMITTED] T0754.042
    
    [GRAPHIC] [TIFF OMITTED] T0754.043
    
    [GRAPHIC] [TIFF OMITTED] T0754.044
    
    [GRAPHIC] [TIFF OMITTED] T0754.045
    
    [GRAPHIC] [TIFF OMITTED] T0754.046
    
    [GRAPHIC] [TIFF OMITTED] T0754.047
    
    [GRAPHIC] [TIFF OMITTED] T0754.048
    
    [GRAPHIC] [TIFF OMITTED] T0754.049
    
    [GRAPHIC] [TIFF OMITTED] T0754.050
    
    [GRAPHIC] [TIFF OMITTED] T0754.051
    
    [GRAPHIC] [TIFF OMITTED] T0754.052
    
    [GRAPHIC] [TIFF OMITTED] T0754.053
    
    [GRAPHIC] [TIFF OMITTED] T0754.054
    
    [GRAPHIC] [TIFF OMITTED] T0754.055
    
    [GRAPHIC] [TIFF OMITTED] T0754.056
    
    [GRAPHIC] [TIFF OMITTED] T0754.057
    
    [GRAPHIC] [TIFF OMITTED] T0754.058
    
    [GRAPHIC] [TIFF OMITTED] T0754.059
    
    [GRAPHIC] [TIFF OMITTED] T0754.060
    
    [GRAPHIC] [TIFF OMITTED] T0754.061
    
    [GRAPHIC] [TIFF OMITTED] T0754.062
    
    [GRAPHIC] [TIFF OMITTED] T0754.063
    
    [GRAPHIC] [TIFF OMITTED] T0754.064
    
    [GRAPHIC] [TIFF OMITTED] T0754.065
    
    [GRAPHIC] [TIFF OMITTED] T0754.066
    
    [GRAPHIC] [TIFF OMITTED] T0754.067
    
    [GRAPHIC] [TIFF OMITTED] T0754.068
    
    [GRAPHIC] [TIFF OMITTED] T0754.069
    
    [GRAPHIC] [TIFF OMITTED] T0754.070
    
    [GRAPHIC] [TIFF OMITTED] T0754.071
    
    [GRAPHIC] [TIFF OMITTED] T0754.072
    

</pre></body></html>
